<html>
<title> - MOVING BEYOND THE FIRST FIVE YEARS: ENSURING SUCCESSFUL IMPLEMENTATION OF THE WESTERN HEMISPHERE TRAVEL INITIATIVE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
MOVING BEYOND THE FIRST FIVE YEARS: ENSURING SUCCESSFUL IMPLEMENTATION 
              OF THE WESTERN HEMISPHERE TRAVEL INITIATIVE

=======================================================================


                                HEARING

                               before the

                   SUBCOMMITTEE ON BORDER, MARITIME,
                      AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 16, 2008

                               __________

                           Serial No. 110-106

                               __________

       Printed for the use of the Committee on Homeland Security

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                     U.S. GOVERNMENT PRINTING OFFICE

43-253 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

Jane Harman, California              Mark E. Souder, Indiana
Zoe Lofgren, California              David G. Reichert, Washington
Sheila Jackson Lee, Texas            Michael T. McCaul, Texas
James R. Langevin, Rhode Island      Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Mike Rogers, Alabama
Al Green, Texas                      Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex  Officio)
Officio)

                         Alison Rosso, Director

                         Denise Krepp, Counsel

                       Carla Zamudio-Dolan, Clerk

        Mandy Bowers, Minority Senior Professional Staff Member

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     1
The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................    19
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida...........................................     2
The Honorable Louise M. Slaughter, a Representative in Congress 
  From the State of New York:
  Prepared Statement.............................................    27
The Honorable Bart Stupak, a Representative in Congress From the 
  State of Michigan:
  Prepared Statement.............................................    28

                               Witnesses

Ms. Kathleen Kraninger, Deputy Assistant Secretary for Policy, 
  Screening Coordination Office, Department of Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
Mr. Robert Jacksta, Executive Director, Traveler Security and 
  Facilitation, U.S. Customs and Border Protection, Department of 
  Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................     5
Mr. Derwood K. Staeben, Senior Advisor, Western Hemisphere Travel 
  Initiative, Department of State:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Ms. Elizabeth Luce, Director, Washington State Department of 
  Licensing:
  Oral Statement.................................................    31
  Prepared Statement.............................................    32
Mr. James D. Phillips, President and Chief Executive Officer, 
  CAN/AM Border Trade Alliance:
  Oral Statement.................................................    34
  Prepared Statement.............................................    36
Ms. Janice L. Kephart, President, 9/11 Security Solutions:
  Oral Statement.................................................    38
  Prepared Statement.............................................    40

                                Appendix

Questions From Chairwoman Loretta Sanchez........................    67


MOVING BEYOND THE FIRST FIVE YEARS: ENSURING SUCCESSFUL IMPLEMENTATION 
              OF THE WESTERN HEMISPHERE TRAVEL INITIATIVE

                              ----------                              


                       Wednesday, April 16, 2008

             U.S. House of Representatives,
      Subcommittee on Border, Maritime, and Global 
                                  Counterterrorism,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:06 p.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Sanchez, Cuellar, Green, Souder, 
and Bilirakis.
    Also present: Representative Christensen.
    Ms. Sanchez [presiding]. The Subcommittee on Border, 
Maritime and Global Counterterrorism will now come to order.
    The subcommittee is meeting today to receive testimony on 
``Moving Beyond the First 5 Years: Ensuring Successful 
Implementation of the Western Hemisphere Travel Initiative.''
    I would like to thank our witnesses for being here today to 
talk about the current status of the Western Hemisphere Travel 
Initiative, or WHTI, and the future of this important border 
security program.
    The program was developed in response to congressionally 
passed legislation to require U.S. citizens and foreign 
nationals to present documents verifying their citizenship and 
identity before arriving into the United States.
    The program addresses a concerning security gap and 
implements a key recommendation of the 9/11 Commission. The 
challenge with WHTI has been and continues to be how to roll 
out the program in a way that minimizes the inconvenience to 
and the financial impact on Americans and border communities.
    When WHTI went into effect at airports on January 23, 2007, 
millions of Americans were impacted by the new requirement that 
they must have a passport to travel to Canada and Caribbean 
nations.
    As we all know, the spike in passport applications in 2007 
led to an incredible backlog in passport processing and, as a 
result, many Americans had to delay or had to cancel their 
travel plans.
    The situation was very concerning, especially considering 
the Department of Homeland Security's plan to implement the 
program at land and sea borders on March 27, 2008.
    As a result, my colleagues and I voted, a large majority of 
us, to delay the implementation at land and sea ports until 
June 1, 2009.
    I know that there are some people who have said that a 
delay in implementing the program is unacceptable, but I 
believe it is important to ensure that WHTI is implemented 
correctly, so we minimize the negative economic impact on our 
individuals and our communities.
    I am pleased with the progress that the Departments of 
Homeland Security and State have made on their plans for the 
continued implementation of the program. I hope this rollout 
continues smoothly and that we do get it done under the new 
deadline.
    Moreover, I urge that both departments continue to work 
diligently to ensure that acceptable documents and the trusted 
traveler programs are streamlined so that the public and border 
officers alike have a clear understanding of the requirements 
and are able to travel efficiently.
    I look forward to hearing more about the current status of 
the program and in light of the fact that the program will only 
be fully implemented until the next administration, I would 
like to hear about the plans for the continuity of the 
initiative with all relevant offices and agencies.
    Thanks again to our witnesses for being here today to share 
their insights.
    I would like to now give some time to Mr. Bilirakis of 
Florida as our ranking member. Mr. Souder isn't here. He will 
be reading Mr. Souder's statement.
    Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Madam Chairwoman.
    Actually, this is my statement.
    Ms. Sanchez. Good. Thanks.
    Mr. Bilirakis. I appreciate your willingness to hear and 
examine the implementation of the Western Hemisphere Travel 
Initiative.
    This is an especially important issue for my constituents 
and the economic prosperity of my congressional district, which 
relies heavily on tourism and the economic contributions made 
by the Canadian citizens who reside in my district during the 
winter months.
    As a result, I am very interested to hear from DHS and the 
State Department officials on implementation of WHTI and 
efforts to balance the need for security, which is of paramount 
importance, with promoting trade and travel.
    I also am looking forward to hearing what steps are being 
taken now by Federal officials to prevent passport issuance, as 
the chairwoman said, the delays similar to what we saw when 
this was implemented for air travel.
    I agree with many of my constituents that I heard from at 
the time that these problems simply cannot be repeated.
    I also hope that the majority will move forward on an 
authorization bill for the Department of Homeland Security so 
that members of this committee can weigh in on what we believe 
its priorities should be in this area and other important 
issues under our committee's jurisdiction.
    Thank you again for calling this hearing, Madam Chairwoman, 
appreciate it.
    Ms. Sanchez. The Chair acknowledges the presence of 
Representative Donna Christensen and the possibility that Ms. 
Miller, Candice Miller, of Michigan may also join us.
    They are not members of this subcommittee, but they have a 
great interest in the issue before us today and have asked to 
participate.
    Consistent with the rules and the practices of the 
committee, we are pleased to honor their request, and I would 
ask for unanimous consent to allow Representative Christensen 
and Ms. Miller to sit and question the witnesses at today's 
hearing.
    Without objection, it is so ordered.
    The other members of the subcommittee are reminded that 
under committee rules, opening statements may be submitted for 
the record.
    I am going to welcome our first panel of witnesses and I 
have some lengthy bios on all of you, but in the interest of 
time, because I hear that there will be some votes coming up on 
the floor, I would love to at least get all of your opening 
statements on the record.
    Our first witness will be Ms. Kathleen Kraninger. Is that 
correct? She is the Deputy Assistant Secretary for policy at 
the Department of Homeland Security, managing the screening 
coordination office.
    Our second witness is Mr. Robert Jacksta, Executive 
Director for Traveler Security and Facilitation at Customs and 
Border Protection's office of Field Operations.
    Our final witness on the first panel is Mr. Derwood 
``Woody'' Staeben, Senior Advisor on the Western Hemisphere 
Travel Initiative for the Office of Passport Services at the 
State Department.
    Without objection, your full statements will be inserted 
into the record and I now will ask each witness to please 
summarize his or her statement for 5 minutes or less, beginning 
with Ms. Kraninger.

STATEMENT OF KATHLEEN KRANINGER, DEPUTY ASSISTANT SECRETARY FOR 
 POLICY, SCREENING COORDINATION OFFICE, DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Kraninger. Chairwoman Sanchez and other distinguished 
members of the committee, I am pleased to appear before you 
today to discuss the Department's approach to the Western 
Hemisphere Travel Initiative implementation.
    As recommended by the 9/11 Commission, Congress moved in 
2004 to statutorily close the critical vulnerabilities that 
existed far too long, the fact that a significant number of 
individuals presenting themselves for entry into the United 
States were not required to present proof of their identity and 
citizenship.
    Recognizing this vulnerability, consider for a moment the 
position of the Customs and Border Protection officer who has 
an average of 45 seconds to process each individual at the land 
port.
    Without reliable, secure documentation, that officer is 
charged with making an informed decision about the risk posed 
by this individual and their admissibility.
    We train our officers to make that choice with respect to 
the approximately 800,000 people who enter by land every day. 
But we need to do more to arm them with the right tools to make 
the best decision possible with timely, accurate information.
    As we deploy better tools to help our officers increase our 
Nation's security, we also serve to continue facilitating 
legitimate trade and travel across the border.
    Implementation of WHTI is about security and facilitation. 
It will provide the CBP officers with a limited set of 
acceptable documents that are more secure, machine readable, 
and include facilitative technology.
    DHS has done a number of tests demonstrating that use of 
facilitative technology and standardizing documents will speed 
processing time.
    How do we get to WHTI land implementation? Since 2004, 
Congress and the administration have recognized that requiring 
documents of identity and citizenship, particularly at our land 
and sea ports of entry, is a cultural change that needs to be 
implemented in a practical, flexible and deliberate fashion, 
and, given the security imperative, as expeditiously as 
possible.
    In partnership with the Department of State, the 
governments of Canada and Mexico, the trade community and other 
stakeholders, our strategy includes several prongs in a phased, 
flexible implementation.
    No. 1, clear, consistent communications and education of 
the traveling public; No. 2, availability of a range of 
acceptable documents that are convenient and will expedite land 
border crossing; No. 3, deployment of radio frequency 
identification, or RFID, readers to speed that processing; and, 
No. 4, continued training of our officers.
    I will touch on communications and document availability at 
this time.
    Our communications efforts began in 2004 and a few months 
ago, we kicked off an even more robust campaign that will 
continue over the next 14 months and beyond June 2009.
    The WHTI land and sea final rule reflected extensive 
consultation with our stakeholders, including border 
communities and officials.
    The final rule provides special provisions for children and 
that children under 16 need only have copies of their birth 
certificates and accommodations are made for those aged 16 to 
18 traveling in official groups.
    We also outlined a path to work with States, Canadian 
provinces, and Native American communities to develop WHTI-
compliant enhanced driver's licenses and tribal documents.
    It is incumbent on DHS to ensure that we offer document 
options that best meet the needs of the traveling public.
    U.S. citizens are able to present a passport, a passport 
card, a State-issued DHS-approved enhanced driver's license, a 
trusted traveler card under our NEXUS, SENTRI and FAST 
programs, a merchant mariner document, a U.S. military ID with 
travel orders, or a WHTI-compliant enhanced tribal card.
    It is also a clear responsibility of the U.S. government to 
ensure that we can produce these documents in a timely manner.
    DHS and the Department of State are continually monitoring 
our resources, infrastructure and ability to produce these 
documents and have put in place practices and plans to manage 
the expected increase of applications as we continue to move 
toward June 2009.
    On January 31, we began our transition to a more secure 
border. U.S. and Canadian citizens are now presenting the 
requested documents to demonstrate identity and citizenship at 
our borders and, in fact, many U.S. citizens are surprised to 
learn that documents have not been required before now.
    Compliance rates have steadily increased. More than 90 
percent of U.S. and Canadian citizens queried have the 
appropriate documents today, and this is all part of our plan 
to move in a direction where people have more secure documents 
and we can even better facilitate cross-border travel.
    I have outlined, in a very broad way, our plan to WHTI 
implementation, but I am happy to take any questions that you 
have and elaborate further.
    [The joint statement of Ms. Kraninger and Mr. Jacksta 
follows:]
      Prepared Statement of Kathleen Kraninger and Robert Jacksta
                             April 16, 2008
    Chairwoman Sanchez, Ranking Member Souder, and other distinguished 
Members of the committee. We are pleased to appear before you today to 
discuss how we plan to implement the Western Hemisphere Travel 
Initiative (WHTI), which is both a statutory mandate of the 
Intelligence Reform and Terrorism Prevention Act (IRTPA) of 2004 and 9/
11 Commission recommendation, to designate specific identity and 
citizenship documents that can be used to gain entry at our land, sea, 
and air ports of entry. The Department of Homeland Security (DHS), in 
partnership with the Department of State (DOS), is working to secure 
our homeland by strengthening our ability to accurately identify all 
persons--U.S. citizens and visitors alike--before they enter the United 
States. We are accomplishing this through the implementation of secure 
document requirements at all ports of entry in the United States. Our 
approach to implementing WHTI has been, and will continue to be, both 
practical and flexible, as we work to achieve the goal of increased 
security while significantly facilitating the flow of legitimate trade 
and travel. We would like to assure you that we are taking the 
appropriate and necessary steps to ensure that both travelers and the 
U.S. Government are prepared to successfully and efficiently implement 
the second phase of WHTI at land and sea ports on June 1, 2009.
    Access to our Nation is critical for a terrorist to plan and carry 
out attacks on our homeland. As the 9/11 Commission's Final Report 
states, ``For terrorists, travel documents are as important as weapons. 
Terrorists must travel clandestinely to meet, train, plan, case 
targets, and gain access to attack. To them, international travel 
presents great danger, because they must surface to pass through 
regulated channels to present themselves to border security officials, 
or attempt to circumvent inspection points.''
    Preventing easy access to our homeland by requiring secure identity 
and citizenship documents at all ports of entry for both U.S. citizens 
and non-citizens will help keep those hoping to do us harm from 
entering the country. In order to begin closing a critical 
vulnerability that had existed for far too long, on January 31, 2008, 
the practice of accepting oral declarations alone at our land and sea 
ports of entry ended. Since fiscal year 2005, U.S. Customs and Border 
Protection (CBP) has identified over 33,000 individuals who attempted 
to enter our country at our air, land, and sea ports of entry with a 
false oral claim of U.S. citizenship--drug and human traffickers, 
homicide suspects, and potential terrorists could show up at our 
borders, and attempt to enter by telling us they were U.S. or Canadian 
citizens when they were not. For example, in December 2007, at the San 
Ysidro port of entry, a traveler presented a State of California 
identification card and claimed erroneously to be a U.S. citizen. An 
electronic check of his fingerprints revealed that the man was actually 
wanted for two counts of murder in San Diego County. This case 
demonstrates the importance of this change in policy and the move 
toward WHTI secure documents.
    On January 31, 2008, we began our transition to a more secure 
border--a border that will welcome legitimate travelers and facilitate 
their entry into the country efficiently. It will also be a border that 
inhibits entry of individuals who cannot confirm their identity and 
citizenship. We implemented these most recent changes in travel 
document requirements without causing discernable increases in wait 
times at the border. Compliance rates are high and continue to 
increase. United States and Canadian citizens are presenting the 
requested documents when crossing the border.
    The institution of a travel document requirement and the 
standardization of travel documents are critical steps to securing our 
Nation's borders and facilitating legitimate travel. In fiscal year 
2007 alone, more than 30,000 individuals were apprehended at ports of 
entry trying to cross the border with false documents.
    Our layered security strategy involves identifying and interdicting 
individuals attempting to harm or illegally enter the country as early 
as possible--if not before they enter our country, then at our ports of 
entry. DHS must be able to capitalize on our border inspection process. 
We must be able to inspect or examine those who seek to enter. Through 
its requirement that individuals carry a passport or other limited set 
of acceptable documents, WHTI will greatly reduce the opportunities for 
identity fraud or misrepresentation. Advanced technology embedded in 
these travel documents, with the appropriate privacy protections and 
infrastructure, will allow DHS the ability to verify an individual's 
identity and perform real-time queries against lookout databases even 
before our officers begin to question them. Implementation of WHTI will 
allow our officers to focus more time and greater attention on each 
individual traveler. WHTI provides the platform to implement an 
integrated secure land border system, and we are taking every step to 
take full advantage of that opportunity.
    The initial phase of WHTI went into effect January 23, 2007. The 
WHTI Air Final Rule requires all arriving air travelers, regardless of 
age, to present a passport or other acceptable secure document for 
entry into the United States. In the last 7 months, CBP has reported a 
compliance rate of 99 percent for citizens of the United States, 
Canada, and Bermuda, and there has been no interruption to air 
transportation attributable to WHTI implementation. The high level of 
compliance shows that Americans and foreign nationals alike are willing 
and able to obtain the necessary documents to enter or re-enter the 
United States once the requirements are known and enforced. This 
compliance is the result of the collaborative planning process on 
behalf of DHS and DOS, working closely with the airline industry, 
travel industry and the public, well in advance of implementation.
                 intelligent implementation of the whti
    The WHTI Land and Sea Final Rule, published on April 3, 2008, in 
the Federal Register, was developed after extensive consultation and 
constructive dialog with various stakeholders, including border 
communities and officials, and after carefully considering the more 
than 1,300 comments received during the public comment period for the 
Notice of Proposed Rulemaking. The policy decisions in this Final Rule, 
such as the development of special provisions for children and DHS's 
approach to working with Native American communities on the development 
of a WHTI-compliant enhanced tribal document, reflect the valuable 
input we received from the public and stakeholders.
    Based on the successful strategy surrounding the implementation of 
the WHTI Air Final Rule, DHS published the WHTI Land and Sea Final Rule 
a full 14 months prior to implementation to ensure adequate time for 
planning, education, and communication. During the next 14 months, DHS 
and DOS will work diligently so that travelers will know what documents 
will be needed, how to obtain these documents, and when they will need 
them.
    DHS is confident that all the integrated components are in place to 
ensure successful implementation of the WHTI land and sea requirements 
and infrastructure by June 2009. In preparation for full 
implementation, DHS awarded a contract on January 10, 2008, to begin 
the process of deploying vicinity radio frequency identification (RFID) 
facilitative technology and infrastructure to 354 vehicle primary lanes 
at 39 high-volume land ports, which process 95 percent of land border 
traveler crossings. Currently, we are conducting site surveys to 
identify construction requirements needed to support RFID technology 
installation. Site surveys will be completed by the end of May 2008. 
This summer, we will begin the actual construction at land border 
locations and the installation of the integrated solution will commence 
shortly thereafter. However, until that time, we have the optical 
character reader technology in place at virtually all air, land, and 
sea ports of entry. This technology will read any travel document with 
a machine-readable zone (MRZ), including passports, border crossing 
cards, trusted traveler cards, and the new passport card. All CBP 
officers are currently trained in the use of this technology. This 
means that right now, our ports of entry can accept all WHTI-complaint 
documents.
    On February 12, 2008, we deployed the new vehicle primary client 
software application to the ports of Blaine, Washington, and Nogales, 
Arizona, in anticipation of implementing the vicinity RFID primary lane 
solution. This critical software deployment quickly and effectively 
provides officers with vital information on border crossers. The 
training and tools necessary for the successful transition from the 
current antiquated, text-based system, to a modern, graphical user 
interface was successfully delivered to 254 CBP officers ahead of the 
critical deployment. We will be deploying this new 21st century tool to 
the ports of Buffalo, New York; Detroit, Michigan; and El Paso, Texas, 
by the end of June 2008. Deployment will continue to most land border 
locations, with completion scheduled for fall 2008.
    On February 4, 2008, DHS awarded a public relations contract to 
develop a proactive campaign to the traveling public. This campaign 
will increase traveler awareness by emphasizing document requirements 
and soliciting traveler compliance through education, while 
facilitating a smooth transition to WHTI implementation on June 1, 
2009.
    Nearly 200 new CBP officers are being added to critical land border 
locations in fiscal year 2008. In addition, we are adding 15 positions 
at the Williston, Vermont, Trusted Traveler Vetting Center. Officer 
deployment is focused on current and proposed enrollment centers and 
land border secondary locations, where an initial increase in secondary 
referrals is expected upon WHTI implementation. As of April 10, 2008, 
126 of these 205 CBP officers have come onboard.
                         alternative documents
    It is incumbent on DHS and CBP to ensure that we offer document 
options that best meet the needs of the traveling public. In addition 
to a U.S. passport, U.S. citizens will be able to present a passport 
card, a State-issued, DHS-approved enhanced driver's license, a trusted 
traveler program card, a merchant mariner document, a U.S. military ID 
with travel orders, or a WHTI-compliant enhanced tribal card. It is 
also a clear responsibility of the U.S. Government to ensure that we 
can produce these documents in a timely manner. DHS and DOS are 
continually monitoring our resources, infrastructure, and ability to do 
so, and have put in place practices and plans to manage the expected 
increase of applications for all our travel document programs.
    Let me illustrate our progress toward ensuring that we can provide 
sufficient WHTI-compliant documents for United States citizens by June 
1, 2009. Currently, many cross border travelers already have WHTI-
compliant documents such as passports, trusted traveler cards, or 
enhanced driver's licenses (EDL). Over 88 million U.S. citizens have 
passports. Our partners at DOS started taking applications for the new 
passport card in February 2008 and have received over 143,000 
applications for the passport card that will begin to be issued in 
June. States and Canadian provinces will be issuing EDLs in the next 
several months--additional options for United States and Canadian 
citizens.
    The flexibility of the number of WHTI-compliant documents addresses 
the needs of each type of traveler, while providing CBP officers with 
secure documents to review. Some citizens who travel frequently both 
within and outside the Western Hemisphere may benefit from getting a 
passport card in conjunction with their U.S. passport. Individuals that 
frequently cross the Southern border may be best served by obtaining a 
Secure Electronic Network for Travelers Rapid Inspection (SENTRI) card. 
Less frequent border crossers might choose an enhanced driver's license 
that offers the benefits of a license but also serves as a limited use 
travel document. Low-risk business travelers who fly between New York 
and Toronto for work might choose a NEXUS card.
    Our trusted traveler programs, NEXUS, SENTRI, and Free and Secure 
Trade (FAST), have a total of 436,000 members and we expect as many as 
1.6 million participants by the end of fiscal year 2009. For frequent 
crossers, the ability to use dedicated NEXUS or SENTRI lanes at the 
border for expedited processing is a very clear benefit sought by the 
traveling public--the processing time for border crossers presenting 
trusted traveler cards is often less than half that for other 
travelers. By the end of 2008, we expect to open five additional NEXUS 
enrollment centers in Sweetgrass, Montana; International Falls, 
Minnesota; Niagara Falls and Alexandria Bay, New York; and Calais, 
Maine. To increase traveler awareness of NEXUS, we are investing in 
mobile enrollment centers, which will give us the flexibility to enroll 
travelers in remote parts of Alaska, Washington, Montana, and 
Minnesota.
    CBP and Canada Border Services Agency (CBSA) have worked diligently 
to develop and implement a plan to handle the potential surge in NEXUS 
applications as a result of WHTI. On a daily basis, we monitor 
application intake, vetting, and the number of interviews conducted so 
that we can be proactive in reallocating resources where demand has 
increased. From March 31, 2007, to March 31, 2008, membership in NEXUS 
has increased by over 50 percent with the vast majority of applications 
being approved within 6 to 8 weeks, while membership in SENTRI has 
increased by 35 percent.
    DHS has entered into memoranda of agreement with the States of 
Washington, Vermont, Arizona, and New York to develop and produce WHTI-
compliant EDLs, which will be acceptable travel documents at all land 
and sea ports of entry. Traveler demand for the enhanced driver's 
license has exceeded expectations in Washington State. As of April 10, 
2008, Washington State has scheduled more than 21,000 appointments and 
has issued more than 8,500 EDLs. The States of New York, Arizona, and 
Vermont remain on track to issue EDLs in 2008. The Canadian province of 
British Columbia began issuing EDLs to Canadian citizens this month, 
and we expect Ontario and Quebec to follow by the end of the year. We 
continue to work with other States, including Michigan, which has 
recently passed legislation supporting the development of an EDL. We 
believe that with the success of EDLs other States may also wish to 
produce the documents for the convenience and benefits they offer to 
their resident citizens.
    We have sent out over 600 letters to all the federally recognized 
Native American tribes and offered to work with them toward developing 
a WHTI-compliant enhanced tribal document. This partnership is critical 
to the success of WHTI and demonstrates our commitment to listening to 
the concerns and ideas expressed by the Native American community.
                        potential impact of whti
    Concerns have been expressed about the potential impact of the WHTI 
documentation requirements on traveler wait times at our land ports of 
entry. The risk that document requirements will negatively impact ports 
of entry in June 2009 is minimal, as the majority of travelers will 
have been presenting documents for inspection at the border for over 16 
months. Many U.S. citizens are surprised to learn that documents have 
not been mandatory before now. Since January 31, 2008, compliance rates 
have steadily improved--more than 90 percent of U.S. and Canadian 
citizens queried while crossing the land border are in compliance with 
document requirements. Most travelers want to comply with January 31, 
2008 change in document procedures and will want to comply with WHTI 
requirements in June 2009. At the Blaine, Washington, port of entry, 
approximately 85 percent of U.S. and Canadian citizens queried are 
already presenting WHTI-compliant documents.
    DHS recognizes our responsibility to educate the public on what the 
new travel document requirements are and provide ample opportunity for 
individuals to become acclimated to traveling with and presenting 
required documents.
    A traveler is easily verifiable if a passport or other acceptable 
document with an MRZ or appropriate RFID technology that can be queried 
automatically is presented. Processing times are considerably longer 
for a vehicle with passengers presenting documents that cannot be 
verified by the inspecting officer. Often, a CBP officer will need to 
manually enter an individual's identifying information into the 
computer if the documentation presented does not have a machine 
readable zone. The additional time it takes to process these 
individuals contributes to delays.
    Our decision to adopt vicinity RFID technology for the land border 
was based on the need to process legitimate travelers as speedily as 
possible without impacting security. After extensive review of 
available and even possible technologies, DHS selected vicinity RFID as 
the best technology for our land border management system--and the 
standard to which all future land border travel documents will comply. 
Vicinity RFID technology affords the most benefits for the facilitated 
movement of travelers. Facilitation requires the ability to read a 
travel document in advance, verify identity, pre-position information, 
and, most importantly, perform automated watch list queries without 
impeding the flow of traffic. Our research and testing indicates that 
RFID technology is able to accomplish each of these requirements.
    DHS and CBP have instituted best practices for the collection, 
protection, and use of personal information for WHTI. No personal 
identifying information is stored on the RFID tag and all data is 
stored at remote locations on secure storage devices that can only be 
accessed via DHS's secure, encrypted networks. Issuance of an 
attenuating sleeve by DOS for the passport card and the States for the 
EDL will protect the tags from unauthorized reads when not in use at 
the border. Implementation of a card specific tag identifier number 
will ensure that a card cannot be cloned or duplicated. On January 22, 
2008, DHS published a Privacy Impact Assessment for the use of vicinity 
RFID technology for border crossings.
    Time and motion studies are in progress at 16 of the busiest land 
border ports. These studies examine all aspects of vehicle primary 
processing and time each individual inspection activity. A series of 
computer models were developed to look at cause and effect of the 
introduction of RFID-enabled documents and their increased use. At 
every port for which a model was developed, the introduction of RFID-
enabled documents significantly reduced primary processing time. For 
example, at San Ysidro, California, use of an RFID-enabled document 
reduces vehicle primary processing time by an average of 27 percent. At 
the Bridge of the Americas in El Paso, Texas, the reduction is an 
average of 32 percent per vehicle. Both of these estimates are based on 
actual observations and computer modeling. Although we expect to 
quickly process the documents of most travelers, we will not focus on 
speed as the singular measure of success. Speeding up the document 
querying and authentication process gives more time for our CBP 
officers to ask questions and conduct inspections of those who require 
additional scrutiny. Time now spent examining a document will, instead, 
be used to probe those seeking to enter the United States who may 
present a higher risk.
    While the new document requirements and the implementation of WHTI 
are anticipated to have minimal negative impact on current wait times, 
other factors such as port design, infrastructure, traffic volume, and 
vehicle mix greatly affect border wait times. DHS and CBP are taking 
advantage of WHTI implementation to improve port infrastructure, but 
some challenges such as physical limitations will not be resolved. As 
we undertake necessary construction and technology installations at 
individual ports of entry, it is possible that wait times may 
temporarily be impacted. Wait times are monitored on an hourly basis 
and proactive measures are taken to reduce wait times to the greatest 
extent possible using a variety of mitigation strategies and staff and 
lane utilization.
    Both DHS and DOS have worked closely with the Canadian and Mexican 
governments on numerous fronts, including the Smart Border Declaration 
and the Shared Border Accord. The objectives of these initiatives are 
to establish a common security approach to protecting North America 
from external threats, and to streamline the secure and efficient 
movement of travel and trade. We remain committed to such consultations 
that have fostered WHTI accomplishments and progress to date. In 
particular, DHS has been involved in extensive discussions with our 
Canadian counterparts regarding secure alternative documents that can 
be made available to Canadian citizens for WHTI purposes, including the 
development of EDLs for Canadian citizens.
    We recognize that concerns remain about the impact of WHTI on 
border communities. We acknowledge that WHTI represents a social and 
cultural change, but assure the American people and Congress that WHTI 
will provide substantive enhancements to border security. The 
significant investments being made at the ports of entry and to the CBP 
systems will provide significant benefits to communities on both sides 
of the border and facilitate the legitimate flow of people and trade. 
WHTI is a key step in creating an effective and more efficient 21st 
century border. Our experience, to date, with both WHTI air 
implementation and the January 31, 2008, transition has been positive 
with no discernable negative impacts to the borders. We are confident 
that the deliberate, practical approach we are taking for the next 
phase of WHTI implementation will afford us the same results.
    DHS and DOS are committed to implementing this change in a 
practical way, and we want to foster an open and productive dialog. 
Both CBP and DOS have retained public relations firms to ensure 
consistent and complementary messaging. We have engaged at the local, 
national, and international levels. We will continue to partner with 
border communities, the travel industry (including cruise lines), and 
non-traditional stakeholders. We are coordinating with our Canadian 
counterparts as well as our State partners to get the maximum benefit 
for our efforts and taxpayer dollars.
                               conclusion
    Chairwoman Sanchez, Ranking Member Souder and Members of the 
committee, we have outlined our WHTI implementation plan that, with 
your assistance, will help DHS continue to protect America. We continue 
to move in the right direction of increasing identity document 
security, increasing information sharing among partners, and deploying 
the necessary resources to protect the border. Strong borders are a 
pillar of national security and WHTI is a key cornerstone supporting 
that pillar.
    Thank you again for this opportunity to testify, we will be happy 
to answer any of your questions.

    Ms. Sanchez. Thank you. I appreciate your conciseness.
    Thank you for the testimony.
    Mr. Jacksta. for 5 minutes or less.

   STATEMENT OF ROBERT JACKSTA, EXECUTIVE DIRECTOR, TRAVELER 
SECURITY AND FACILITATION, U.S. CUSTOMS AND BORDER PROTECTION, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Jacksta. Good afternoon, Chairman Sanchez and other 
distinguished members.
    I am pleased also to be here today to discuss how we plan 
to move forward with the implementation of the Western 
Hemisphere Travel Initiative, which, as you know, is both a 
statutory mandate and a 9/11 Commission recommendation.
    The Department of Homeland Security, in partnership with 
the Department of State, is working to secure our homeland by 
strengthening our ability to accurately identify all persons, 
U.S. citizens and visitors alike, before they enter the United 
States.
    We are accomplishing this through the implementation of 
secure document requirements at all ports of entry in the 
United States. Our approach to implementing WHTI has been and 
will continue to be both practical and flexible.
    Our goal is to increase security, while significantly 
facilitating the flow of legitimate trade and travel.
    Access to our country is critical for a terrorist to plan 
and carry out attacks on our homeland. To them, international 
travel presents great dangers because they must surface to pass 
through the regulated channels to present themselves to border 
security officials or attempt to circumvent inspection points.
    Preventing easy access to our homeland by requiring secure 
identity and citizenship documents at all ports of entry for 
both U.S. citizens and non-U.S. citizens will keep those hoping 
to do us harm from entering our country.
    In the past, drug and human traffickers, homicide suspects, 
and potential terrorists could show up at our borders and 
attempt to enter by telling us they were a U.S. or Canadian 
citizen when they were not.
    Since fiscal year 2005, U.S. Customs and Border Protection 
has identified over 33,000 individuals who attempted to enter 
our country at our land and sea ports of entry with a false 
oral claim of U.S. citizenship.
    In fiscal year 2007 alone, more than 30,000 individuals 
were apprehended at ports of entry trying to cross our border 
with false documents.
    We must be able to inspect or examine those who seek to 
enter the United States. Through its requirements that 
individuals carry a passport or other limited set of acceptable 
documents, WHTI will greatly reduce the opportunities for 
identity fraud or misrepresentation.
    Advanced technology embedded in these travel documents, 
with the appropriate privacy protections, and infrastructure 
will allow DHS the ability to verify an individual's identity 
and perform real-time queries against lookout databases.
    Implementation of WHTI will allow our officers to focus 
more time and greater attention on each individual traveler.
    Based on the successful strategy surrounding the 
implementation of the WHTI air final rule, DHS published a WHTI 
land and sea final rule on April 3, a full 14 months prior to 
implementation, to ensure adequate time for planning, education 
and communication to the travelers and the communities along 
the border.
    During the next 14 months, DHS and DOS will work diligently 
so that travelers will know what documents will be required, 
how to obtain these documents, and when they will need them.
    Some key points to our WHTI effort to date are all CBP 
officers are currently trained in the use of machine-readable 
zone technology. This means that right now our ports of entry 
can accept all WHTI-compliant documents.
    On February 4, 2008, DHS awarded a public relations 
contract to develop a proactive approach to the WHTI 
information campaign to the traveling public.
    Nearly 522 new CBP officers are being added to critical 
land border locations in fiscal year 2008.
    Our land border trusted traveler programs, NEXUS, SENTRI 
and FAST, have a total of 436,000 members.
    DHS has entered into a memorandum of agreement with the 
States of Washington, Vermont, Arizona and New York to develop 
and produce WHTI-compliant enhanced driver's licenses, which 
will be acceptable travel documents at all land and sea ports 
of entry.
    On the second panel, you will hear today how the traveler 
demand for enhanced driver's license has exceeded expectations 
in the State of Washington.
    The Canadian province of British Columbia began issuing 
EDLs to Canadian citizens this month and we expect Ontario and 
Quebec to follow by the end of the year.
    We have sent over 600 letters to all federally recognized 
Native American tribes and offered to work with them toward 
developing a WHTI-compliant enhanced tribal document.
    Time and motion studies are being conducted at our ports of 
entry today.
    Finally, both DHS and Department of State have worked 
closely with the Canadian and Mexican governments on numerous 
fronts, including the smart border declaration, the security 
and prosperity partnership agreement, and the shared border 
accord.
    DHS and Department of State are committed to implementing 
WHTI in a practical way and we want to foster an open and 
productive dialog.
    We continue to move in the right direction of increasing 
identity security, increasing information sharing among 
partners and deploying the necessary resources to protect the 
border.
    Chairman Sanchez, distinguished members, we have outlined 
our WHTI implementation plan and we hope that it addresses your 
concerns today, and we are ready to address any type of 
questions you may have.
    Ms. Sanchez. Thank you, Mr. Jacksta.
    We have some votes on the floor. I am told they are going 
to be 50 or 60 minutes' worth.
    So, I would like to get Mr. Staeben's words in. We will 
break to vote. We have got about 6 minutes left on the floor.
    Then we will ask you to go get lunch or something, and we 
will be back in about an hour's time.
    Mr. Staeben, please, summarize your statement in 5 minutes 
or less. We would appreciate it.

   STATEMENT OF DERWOOD K. STAEBEN, SENIOR ADVISOR, WESTERN 
       HEMISPHERE TRAVEL INITIATIVE, DEPARTMENT OF STATE

    Mr. Staeben. Thank you. Chairman Sanchez and other 
distinguished members, thank you for this opportunity to 
discuss the role of the Department of State in implementing the 
Western Hemisphere Travel Initiative to enhance the security of 
our borders and facilitate legitimate trade, travel and 
tourism.
    Our primary role is to provide American citizens with 
passports and soon passport cards that they can comply with the 
new travel document requirements that take effect June 1, 2009.
    Our increased workload indicates that Americans are already 
aware of the new requirements. In fiscal year 2007, we issued 
18.4 million passports, a 50 percent increase over fiscal year 
2006 and an 80 percent increase over fiscal year 2005.
    Currently, more than 88 million Americans have passports or 
about 28 percent of our population.
    Thus far in fiscal year 2008, we are seeing a 7 percent 
increase in receipts over the same time period last year and 
our processing time is well within the standard 4 weeks for 
routine service and 2 weeks for expedited service.
    As of last week, we issued 9.1 million passports.
    Our initial workload projections indicate the demand for 
U.S. passports could reach as high as 26 to 29 million this 
year, 30 million in fiscal year 2009 and 36 million in fiscal 
year 2010.
    Although we continue to prepare for a possible 26 to 29 
million this year, our current workload indicates that it may 
be more, in the range of 20 to 21 million.
    We attribute this lower demand due to recent legislation 
extending the implementation date, but we expect to see an 
increase in demand in the months leading up to June 1, 2009.
    Our long-term strategy is to provide the staffing levels 
and infrastructure necessary to meet the increased demand 
generated by WHTI. To that end, we have hired hundreds of new 
passport adjudicators and support staff since spring 2007 and 
are continuing our recruiting efforts into 2008.
    We opened a mega passport center in Hot Springs, Arkansas 1 
year ago to process 10 million documents per year, and we are 
opening a second printing and shipping facility in Tucson this 
month with the same capacity.
    We are also opening three new passport agencies in Detroit, 
Dallas and Minneapolis to better service border communities. We 
are extending our agencies in Seattle, Miami and Chicago and 
are doubling the size and adjudicative capacity of the national 
passport center in Portsmouth, New Hampshire.
    We have also established a reserve corps of passport 
adjudicators to supplement our full-time passport services 
staff during demand surges.
    One of the key objectives of the Department is to ensure 
that the passport application process be as convenient as 
possible.
    The most convenient way to apply for a passport is at an 
acceptance facility. Currently, there are more than 9,400 sites 
at post offices, clerks of court and other government offices 
nationwide where citizens can apply for a passport.
    Since April 2005, when WHTI was announced, the Department 
has added more than 2,400 facilities, many of which are located 
along the borders.
    In fact, there are currently 301 acceptance facilities 
located within 25 miles of the U.S.-Canada border and 128 
acceptance facilities located within 25 miles of the U.S.-
Mexico border.
    In response to the needs of border resident communities for 
more affordable and lower cost alternative to the traditional 
passport book, the Department began issuing passport cards this 
June.
    The passport card will have the same validity period as a 
passport book, 10 years for an adult, 5 for children 15 and 
younger.
    The passport card, designed to meet the operational needs 
of the Customs and Border Protection Agency, will use a 
vicinity read technology to facilitate entry and expedite 
document processing at U.S. land and sea ports of entry.
    The card is not a globally interoperable travel document 
and may not be used to travel by air.
    This card is the result of an interagency effort to produce 
the most durable, secure and tamper-resistant card possible to 
the American public using state-of-the-art laser engraving and 
security features.
    The Department has benefited from the collaborative 
efforts, among others, of the National Institute of Standards 
and Technology, Sandia National Labs, the DHS forensics 
document lab, and, of course, our colleagues at Customs and 
Border Protection Agency.
    In consultation with DHS' forensics document lab, the card 
is designed with multiple layers of overt, covert and forensic 
security features to guard against tampering and counterfeiting 
to provide easy visual and tactile verification to Customs and 
Border Protection officers.
    It is important to note that there is no personal identity 
information on the RFI chip itself, only a unique number that 
points to the bearer's file in a secure government database.
    To mitigate the risk of tracking, a card will be issued 
with a protective sleeve to prevent unauthorized reading of the 
chip.
    To encourage Americans to apply for passports and card and 
to level demand during our traditional peak season, we began 
accepting applications for the card on February 1.
    As of this morning, we have received 162,300 card 
applications.
    Public outreach, of course, is a key to successful 
implementation of WHTI. The Department awarded a contract to a 
marketing firm on March 3 to help us inform Americans about 
WHTI requirements, the new passport card, and the differences 
between the card and the traditional book, and to encourage 
Americans to apply for their documents early.
    As we move toward full implementation of WHTI, we and our 
colleagues at DHS will continue public outreach efforts, 
particularly in border resident communities, and we will 
continue our outreach to business associations and stakeholder 
organizations.
    We, like our colleagues at DHS, are committed to 
implementing WHTI in a rational and intelligent manner, one 
that facilitates trade, travel and tourism, while enhancing our 
national security.
    Thank you very much, and I look forward to your questions.
    [The statement of Mr. Staeben follows:]
                Prepared Statement of Derwood K. Staeben
                             April 16, 2008
    Chairwoman Sanchez, Ranking Member Souder, Distinguished Members, 
thank you for this opportunity to discuss the Western Hemisphere Travel 
Initiative (WHTI) and the role of the State Department in providing 
American citizens with reliable, secure passports and soon passport 
cards so that American citizens can comply with the new travel document 
requirements under WHTI.
    In passing the Intelligence Reform and Terrorism Prevention Act of 
2004, Congress required the Departments of Homeland Security and State 
to develop and implement a plan to require all travelers, U.S. citizens 
and foreign nationals alike, to present a passport or other secure 
document to denote identity and citizenship when entering the United 
States. The goal of the program is to strengthen border security and 
facilitate entry into the United States for U.S. citizens and 
legitimate foreign travelers.
    To meet this mandate, the State Department is adjudicating and 
issuing passports to eligible U.S. citizens in record numbers; we have 
also begun to accept passport card applications and will begin issuing 
the cards in June. Our workload indicates that Americans are aware of 
the new document requirements under WHTI and are coming into compliance 
with them. In fiscal year 2007, the Department issued 18.4 million 
passports--a 50 percent increase over fiscal year 2006 and an 80 
percent increase over fiscal year 2005. Thus far in fiscal year 2008, 
there is a 7 percent increase in passport demand over the same time 
period in fiscal year 2007. We are meeting this demand by processing 
routine passport applications well within our 4-week service standards 
for routine applications and 2 weeks for expedited applications.
                increasing passport production capacity
    Today's record-breaking demand is not an anomaly. Implementation of 
WHTI has created a permanent increase in passport demand, and we 
believe it will continue to grow. More than 88 million Americans 
currently have passports--about 28 percent of all citizens. Our initial 
workload projections for fiscal year 2008 indicated demand for U.S. 
passports could reach as high as 26-29 million in 2008, 30 million in 
fiscal year 2009, 36 million in fiscal year 2010. Although we continue 
to prepare for that possibility, our current workload indicates that 
fiscal year 2008 demand may be more in the range of 20-21 million 
passports. We attribute this decline to the recent congressional action 
mandating implementation of the final phase of the land and sea rule of 
WHTI to no earlier than June 1, 2009. This legislation passed 
subsequent to our demand study, and we fully expect demand to increase 
as we approach the June 1, 2009 implementation date.
    The Department is implementing a long-term strategy to provide the 
staffing levels and infrastructure necessary to meet the increased 
passport demand generated by WHTI. To that end, the Department has 
hired hundreds of additional passport adjudicators and support staff 
and continues to recruit aggressively. The Department has also 
established a reserve corps of passport adjudicators to supplement our 
full-time Passport Services staff, providing the ability to react 
quickly to demand surges.
    To increase production capacity, we opened a mega-processing center 
in March 2007 in Hot Springs, Arkansas. The Arkansas Processing Center 
(APC) differs from our other passports centers in that it focuses 
solely on printing and mailing passports. It will have the capacity to 
produce 10 million travel documents per year. The centralization of 
passport printing and mailing frees up space and personnel at our 
existing passport agencies to focus on the critical areas of customer 
service and adjudication, and to process more passport applications. 
Using APC as a model, we expect to open a second printing and mailing 
facility in Tucson later this month. This facility, like the one in 
Arkansas, will have the capacity to produce over 10 million travel 
documents per year.
                expanding passport acceptance facilities
    One of the key objectives of the Department is to ensure that 
passport services are provided in a secure, efficient and courteous 
manner. At the same time, we need to make our application process as 
convenient as possible for citizens. The most convenient and least 
expensive way to apply for a passport is at a passport acceptance 
facility or by mail for adult renewals. A full 90 percent of our 
passport applications are submitted via an acceptance agency or mailed 
directly to us. We have significantly expanded our network of passport 
acceptance agents in the last several years. Currently, there are more 
than 9,400 sites at post offices, clerks of court and other government 
offices nationwide where citizens can apply for a passport.
    We have heard the concern of border residents, and are aggressively 
recruiting acceptance facilities along the northern and southern border 
regions. Since the administration announced WHTI to the public in April 
2005, the Department has increased its network of acceptance facilities 
by more than 2,400 facilities, many of which are located along the 
borders.
    There are currently 301 acceptance facilities located within 25 
miles of the U.S.-Canada border and 128 acceptance facilities located 
within 25 miles of the U.S.-Mexico border. In fact, since the end of 
the calendar year 2006, we increased the total number of facilities 
within 25 miles of the Northern border by 5 percent and the total 
number of facilities within 25 miles of the Southern border by 15 
percent.
    Our largest acceptance partner, the United States Postal Service 
(USPS) has held successful passport acceptance events in several border 
regions around the country. These ``Passport Fairs'' help meet high 
customer demand for passports in underserved areas. The USPS plans more 
of these passport acceptance events in the future, leading up to the 
June 1, 2009 implementation date.
    We are continuing our recruitment efforts in the southern and 
northern border regions and continue to work with our acceptance agent 
partners to make the passport application process easily accessible to 
all Americans.
                           passport agencies
    In addition to our 18 passport facilities, the Department is also 
opening three new Passport Agencies in Detroit, Dallas, and Minneapolis 
in 2008 to serve border communities readying themselves for WHTI land 
and sea rule requirements. These agencies will provide personal, direct 
passport services to customers. Unlike our regional passport agencies 
and centers, these new agencies are primarily counter agencies designed 
to meet the urgent travel needs of citizens. These agencies will have 
the capability of serving 650 customers per day, issuing passport books 
and cards on-site to qualifying applicants.
    The Department looked at several criteria to determine the location 
of these new passport agencies, including location, distance from an 
existing passport agency/center, volume of current passport applicants, 
service and volume of international and domestic departures, and an 
upward trend in population growth.
    Along the northern border, we are expanding our agencies in Seattle 
and Chicago, and are doubling the size and adjudicative capacity of the 
National Passport Center in Portsmouth, New Hampshire. Along the 
southern border, we are expanding our facilities in Houston, Miami, and 
New Orleans.
                             passport card
    In response to the expressed desire for a more portable and less 
expensive document than the traditional passport book on the part of 
American citizens who live in border communities, we will begin issuing 
a wallet-sized passport card in June with full production beginning in 
July. The passport card will facilitate entry and expedite document 
processing at U.S. land and sea ports-of-entry when arriving from 
Canada, Mexico, the Caribbean region and Bermuda. The card may not be 
used to travel by air. It will otherwise carry the rights and 
privileges of the U.S. passport book and will be adjudicated to the 
exact same standards. The passport card is designed for the specific 
needs of border resident communities and is not a globally 
interoperable travel document as is the traditional passport book.
    The card will have the same validity period as a passport book: 10 
years for an adult; 5 years for children 15 and younger. For adults who 
already have a passport book, they may apply for the card as a passport 
renewal and pay only $20. First-time applicants pay $45 for adult cards 
and $35 for children.
    To meet the operational needs of Customs and Border Protection 
(CBP) and to facilitate document processing at U.S. ports-of-entry, the 
Department of Homeland Security selected vicinity-read radio frequency 
identification technology (RFID) for use in the passport card as well 
as their Trusted Traveler Card program and for use in the Enhanced 
Driver's License (EDL). The passport card will therefore contain a 
vicinity-read (RFID) chip which will link the card to a stored record 
in a secure DHS database. There will be no identifying information on 
the RFID chip; only a number will be read at a distance by an 
authorized CBP reader mounted alongside the traffic lane at ports of 
entry. The reader will automatically retrieve the personal data from 
the secure database and populate the officers' screens as the vehicle 
approaches. To mitigate the risk of tracking, the card will be issued 
with a protective ``attenuation'' sleeve to prevent unauthorized 
reading of the chip.
    This card is the result of an inter-agency effort to produce for 
the American public the most durable, secure and tamper-resistant card 
possible, using state of the art laser engraving and security features. 
To ensure the durability for the 10-year validity period, we have 
chosen to make the card of a durable polycarbonate composite material 
rather than the standard plastic used for ID and credit cards. The 
Department has benefited from the collaborative efforts of the National 
Institute of Standards and Technology (NIST), Sandia National Labs, the 
DHS Forensics Document Lab (FDL), and, of course, colleagues at CBP. To 
ensure the durability and integrity of the card, the Department 
subjected the test cards to a full battery of durability and chemical 
testing at Sandia National Labs in accordance with guidance from NIST. 
In consultation with the DHS/FDL, the card is designed with multiple 
layers of overt, covert, and forensic security features to guard 
against tampering and counterfeiting and to provide easy visual 
verification to CBP officers.
    To encourage Americans to apply for passports and cards and to 
level demand during our traditional peak season, we began accepting 
applications for the passport card on February 1, 2008. Given the 
volume of applications to date, particularly from the southern border 
states, there is clearly a demand for the card. As of April 9, the 
Department has received more than 143,000 applications for the card. 
These applications have been adjudicated and are awaiting production. 
As noted above, the Department expects to begin issuing these cards in 
June and to be in full production by July.
                            public outreach
    Public outreach is the key to successful implementation of WHTI. 
The Department awarded a contract to a marketing firm on March 3 to 
help inform Americans about WHTI requirements, the new passport card, 
and the differences between the card and the traditional book, and to 
encourage them to apply for their documents early--well in advance of 
their planned trips and certainly well in advance of June 1, 2009.
    As we move toward full WHTI implementation, the Department of 
State, working with our colleagues at DHS, will continue public 
education efforts which will include greater advertising with local 
media in areas that specifically target those persons who use the land 
borders. We will also continue sponsoring information sessions with 
business associations and civil organizations.
    The frontline of our outreach efforts will be the more than 10,000 
passport acceptance agents in every corner of the United States, 
especially along our border, who will continue to reach out to their 
customers and neighbors with passport fairs, press releases, and visits 
to their post offices, town halls and libraries.
                               conclusion
    We understand that our national security is dependent on our 
economic well being and that of our neighbors to the north and south. 
We also understand that the economic well being of the border 
communities depends on the free flow of people and goods.
    As we have stated since we announced WHTI 3 years ago this month, 
we are committed to implementing the WHTI in a rational and intelligent 
manner, one that facilitates trade, travel, and tourism while enhancing 
our national security.
    Thank you and I look forward to your questions.

    Ms. Sanchez. You read it quite fast.
    We will be back in about 50 to 60 minutes.
    We are in recess.
    [Recess.]
    Ms. Sanchez. The committee will now come back to order. 
Hello, again.
    So just to recap for the members, before we left for the 
votes, we heard from the three members of the panel and it is 
now time to ask questions.
    I will remind each member that he or she will have 5 
minutes to question the panel.
    Now I will recognize myself for questions.
    In July 2007, our subcommittee held a hearing on the 
Department's frequent traveler programs, NEXUS, SENTRI and 
FAST, and several members, including myself and the Ranking 
Member, expressed concern that enrollees in the NEXUS program 
are not subject to as many security checks and are charged $79 
less than enrollees in the SENTRI program, and, in addition, 
NEXUS cards were not being accepted on the southern border.
    Your testimony highlights the advantages of having trusted 
travel cards be WHTI-accepted documents.
    So my question for you: are all trusted traveler program 
cards accepted at borders and have the security checks, fees 
and technology been standardized among the different programs?
    Mr. Jacksta. I will address that question by, first of all, 
stating that over the last couple of months, we have been 
moving forward to take a look at utilizing our automation 
system so that cards, the NEXUS cards can be used on the 
southern border, as well as the SENTRI card being used up on 
the northern border.
    We are currently working on that automation enhancement 
and, as of today, I can tell you that it is not in place, but 
it is something that we feel is extremely important to make 
sure that individuals who are registered in our trusted 
traveler programs will be identified either if they arrive on 
the northern border or southern border.
    Regarding the issue of trying to bring consistency across 
the board, we have implemented our global enrollment system, 
where all individuals who want to enroll in one of our trusted 
traveler programs can apply online, send the application in.
    It goes to our central vetting center, where all 
applications are treated the same way, go through the same 
screening process, and then the issuance of the card actually 
takes place at the ports of entry.
    So we have uniformity in that process. We have uniformity 
on how we notify the travelers whether they have been accepted 
to the programs or not.
    We still maintain the fee differences between the southern 
border and the northern border. We did reduce the southern 
border fee to $122, but it is still higher than the fee for the 
northern border.
    Ms. Sanchez. Why is that?
    Mr. Jacksta. Once again, we believe that because of the 
fact that we have the responsibility on the southern border to 
review and to actually inspect the vehicles that are--for 
individuals who are accepted into the SENTRI program, this 
creates additional costs for our employees and for our system 
to collect that information, to spend the time to do the 
inspection, to validate that the car is secure.
    Ms. Sanchez. Your testimony states that since January 31, 
2008, when the practice of accepting oral declarations of 
citizenship ended, the compliance rate has been 90 percent for 
U.S. and Canadian citizens.
    We have heard this policy change has caused no significant 
delays, because there is less stringent enforcement.
    So my questions are: are Customs and Border Protection 
officers requesting further identification and proof of 
citizenship from each and every traveler who present themselves 
at a port of entry and what type of enforcement are you 
conducting when a person does not possess the required 
documents and how many people have been turned away at the 
border due to the lack of the necessary documents since January 
31 of this year?
    Mr. Jacksta. Well, one of the ways forward, when we 
implemented the requirement for no longer accepting oral 
declarations, was that we had to make sure that we were able to 
measure it.
    Today, our officers, when an individual arrives at the port 
of entry and they are not in compliance with the oral 
declaration requirement, they are basically advised--first of 
all, the officer makes a decision on whether the person is 
admissible or not, whether they can ascertain whether the 
person is a U.S. citizen.
    They remind them of the responsibility and we give them 
what we call a tear sheet, which outlines exactly what type of 
documents are required.
    We let the officer make the decision based on his 
experience and knowledge of the traveler, the travel routes, 
the traveler's history, and he, through that interview process, 
makes a decision.
    What we do on a regular basis is that when a person is not 
in compliance and does not have a photo ID or the birth 
certificate, we will refer them to the secondary area.
    We will record that we have an individual who was not in 
compliance and we keep track of that record. That is how we can 
tell that we have basically over a 90 percent compliance rate.
    What we planned to do, when we went forward back in 
January, we said we would do a phased approach, taking a look 
at what are the next steps. Over the next couple of weeks, we 
hope to decide on exactly what would be the next phase.
    I think one of the things that we are looking at is when 
individuals arrive and they do not have the proper 
documentation, we can, first of all, make sure that they get a 
passport card application. We can also work with the States and 
make sure that they receive an enhanced driver's license 
application, to advise them that, once again, they are required 
to be in compliance with the laws of the United States, that 
they should make every effort to get it.
    As we move forward, going forward to June 1, 2009, we will 
step up the enforcement and send those individuals back into 
the secondary area and, once again, ascertain whether they have 
all the proper documentation and then we can feel comfortable 
that they are admissible into the United States.
    Ms. Sanchez. So, Mr. Jacksta, you believe that by the July 
date, that when somebody comes to the border, then they will--
if they don't have the correct documents, will we just turn 
them back?
    Will you do the same process you are doing where you 
ascertain where do you live, what is the grocery store down 
from your street, things that you might be able to pick up 
that, in fact, they are a U.S. citizen, but they just----
    Mr. Jacksta. That is correct. First of all, if they are a 
U.S. citizen, we can't refuse them entry into the United States 
once we determine that they are a U.S. citizen.
    So we want to make sure that people get into compliance and 
what we are going to do is make sure that they are a U.S. 
citizen by asking them the specific questions, making sure that 
we know their identity.
    Our officers are very well-trained in this area and over 
the last couple of months, we have stopped a number of 
individuals at our ports of entry that have claimed that they 
were a U.S. citizen, presented maybe a driver's license and 
when our officers sent them back and started questioning them, 
they determined that the person was, in fact, a fraudulent 
individual with fraudulent documents and that they were 
actually, in certain cases--I have an example where we had an 
individual down in San Diego that was actually wanted for 
murder in San Diego County.
    These are the types of things that our officers are seeing 
on a regular basis.
    As we get closer to June 1, 2009, we are going to see more 
and more of these individuals having a difficult time crossing 
our border, because our officers are going to be able to 
validate the documentation.
    If they don't have the proper ID and citizenship 
documentation, we are going to send them back to the secondary 
area.
    Ms. Sanchez. Thank you.
    I will now recognize my ranking member, Mr. Souder of 
Indiana for 5 minutes.
    Mr. Souder. Thank you.
    I want to, again, apologize for missing the testimony. I 
was trying to catch up, but we had markups in two other 
committees and they are continuing later on.
    I have one very specific question that somewhat relates to 
my district and one broader.
    In trying to develop the travel documents, there is 
something in your testimony about the Native American tribes 
and particularly some of them like Tohono O'odham, where they 
are cross-border, and the challenges that you face there.
    I have a different type of challenge and that is with the 
Amish. We have been working with your Department. Ironically, 
this particular group believes that it is immoral, based on the 
scriptural verse, ``graven image, or the likeness thereof,'' to 
have their picture taken.
    Because we have a large Canadian community just east of 
Windsor, over by Kitchener and Waterloo, also up in the western 
provinces, we have a lot of back-and-forth.
    I have met with the bishops a number of time. The 
Department gave us all sorts of different types of answers. 
They are willing to do 10 fingerprints, which is absolutely 
secure, but everything else is less than secure.
    They are willing to do 10 fingerprints. My understanding is 
we have the ability to read that. They have said that they 
would find their way to a center where they can do the 10 
fingerprints.
    The idea that they have been told at the Port Huron and 
Detroit crossings, in particular, is that, ``Well, we will see 
how we enforce this'' and the Department's official position 
has been, ``We will work with them,'' and they should trust.
    But they have been told by different Inspectors, and it 
depends on who is there on a given day, that they may not be 
able to get back. When their father and mother visit or they go 
to visit them and you don't own your own car. You are often 
contracting it out.
    Being told that maybe I will get through, maybe I won't get 
through, is not an acceptable final answer. There needs to be 
some sort of accommodation to a group of people who are not 
against secure IDs. They are willing to go more secure than 
what the government is asking.
    I have not understood the resistance of the Department to 
be willing to go to 10 fingerprints, which is where we are 
likely headed anyway, if you look at this 10-20 years from now, 
because of the next question I am going to ask you.
    I would like to kind of get your feeling on that and why 
this is so hard to do the fingerprint document, which would be 
the most secure document you could possibly have.
    Mr. Jacksta. Well, first of all, let me begin by saying 
that when individuals arrive at our ports of entry, our 
officers are responsible for interviewing the individual.
    If there is a question where they don't have the proper 
documentation, in this case, a photo ID, they would most likely 
be referred to a secondary area if the officer does not feel 
comfortable that they are U.S. citizens, and that normal 
process takes 5 to 10 minutes to do.
    I don't know what type of information has been relayed, but 
clearly people who arrive at our ports of entry, our officers 
are going to ask them their citizenship and where they are 
going and the reason why they are visiting the United States or 
coming back.
    That questioning normally will allow the officer to make a 
decision on whether they are admissible.
    It would help, and I understand the religious reasons, but 
it would help if they had a picture ID. That is consistent with 
what we are putting out there with the REAL ID and our effort 
with WHTI.
    So I think we are willing to look at the possibility that 
we can expedite them through the secondary area, but the bottom 
line is that they would be processed in an easy fashion if they 
were able to present the proper documentation at the primary 
booth.
    Mr. Souder. That is not possible. It is under the religious 
freedom amendment and that is not a possible alternative.
    The alternative is not to travel, and it is unfair of the 
U.S. Government to expect them to change their religion.
    Now, at the same time, they have to understand we have 
national security concerns. Quite frankly, if we do officer 
discretion, let me say this just in general, I am worried, 
because people can fake being Amish. It is not hard to fake it. 
This isn't a viable option that is currently on the table from 
the administration.
    It is complicated by the fact that some Muslim groups also 
don't believe in photographs. But you have an alternative.
    It may require a scanner or to go to secondary, but there 
is an alternative for people who have a religious objection, 
and, that is, then they have to do 10 fingerprints.
    It isn't as though we don't know who they are. It isn't as 
though they are not planning to cooperate.
    What I don't understand is why the administration is 
opposed, given the fact that we have the ability to read this 
at the major entries and the Amish are even willing to 
negotiate even if it is just a few entries; they won't cross at 
the small border entries.
    What they are looking for is some clarity, because they 
understand our goals, but we are asking them to give up their 
religious beliefs if they want to go visit their relatives.
    Mr. Jacksta. Sir, I just want to let you know that we have 
a process in place when those travelers come across the border 
today.
    Mr. Souder. Why aren't fingerprints acceptable?
    Mr. Jacksta. I would say that, down the road, that might be 
an option to look at.
    Mr. Souder. Why isn't it acceptable, now, given the fact 
you have the ability to read it?
    Mr. Jacksta. We will take it under consideration.
    Mr. Souder. Okay. Well, I would like to continue. There are 
a number of us who are very concerned, and a group of very 
innocent, scared people right now who are trying their best and 
are willing to go farther than we are willing to, and it just 
seems like we ought to follow up.
    I know I am over. I want to put this question on the table. 
I have concerns. I want to compliment you on working with 
British Columbia, with Washington State and others, but we are 
seeing the proliferation of the secondary documents being 
copied, whether it is birth certificates and other types of 
things that lead to these documents.
    I have a concern that we are now going to set up a second 
tier to try to get around that, and I would like to continue to 
talk with the Department about how you are going to address 
that challenge.
    We had one county in Ohio, near Fort Wayne, that had their 
entire birth certificates stolen out of their county 
courthouse. Actually, a birth certificate is easier to 
reproduce than a driver's license.
    In looking at these four documents, that is why I 
personally believe that we are moving to fingerprints, because 
every other document is so easily copied.
    I yield back.
    Ms. Sanchez. I thank the gentleman from Indiana. Many of us 
have concern for different groups, as you say. So I think we do 
need to find a solution on that.
    I would like to recognize, for 5 minutes, for her questions 
at this time, Mrs. Christensen.
    Mrs. Christensen. Thank you, Madam Chairwoman.
    Welcome to the panelists.
    Ms. Kraninger, you said that you had met with border groups 
and officials as you have prepared to implement this.
    Did you meet with people from our third border, officials 
from the Caribbean Basin?
    Ms. Kraninger. Yes, actually, we have. Personally, I have 
had meetings with Caribbean representatives in Washington, DC 
prior to the air implementation.
    I do know, however, that Customs and Border Protection have 
been meeting them, along with the cruise lines, in moving to 
sea implementation.
    Bob, if you want to add anything.
    Mr. Jacksta. I think that we have had a number of trips 
down to the Caribbean area, meeting with various groups, the 
cruise line industry, the private boats, the small charter 
groups.
    Mrs. Christensen. Oh, really.
    Mr. Jacksta. And making sure that they were aware of the 
requirements for, first of all, the air requirements that went 
into effect last year and then now as we move forward to the 
time of the oral declaration and, finally, the WHTI, that they 
are fully aware of it.
    I will tell you that they have been very supportive and 
there has been very high compliance.
    Mrs. Christensen. Thanks.
    I want to try to get in as many questions as possible.
    Thank you.
    How will U.S. lawful permanent residents be affected by the 
passport requirements? Is their alien resident card sufficient 
ID for purposes of travel by air, land and sea?
    Ms. Kraninger. Yes, it is.
    Mrs. Christensen. I have one of these cards. It has got my 
eye iris, my 10 fingerprints.
    Mr. Jacksta. Is this the NEXUS?
    Mrs. Christensen. No. This is a clear card.
    Ms. Kraninger. Clear.
    Mr. Jacksta. A clear card, okay. That is not an acceptable 
card. That is a card that is issued by TSA--well, not by TSA, 
but it is not an acceptable card on WHTI.
    Mrs. Christensen. Okay. The State Department Web site says 
that NEXUS, SENTRI and FAST cards are successful cards in 
implementation using the RFID.
    How quickly does DHS and State plan--how quickly do they 
plan to deploy radio frequency identification readers at the 39 
land ports of entry?
    Mr. Jacksta. Actually, we have a contract with Unisys that 
we are moving forward on. The company right now is doing 
surveys at the 39 locations.
    We are going to start the construction this summer and then 
we are going to start implementing, putting the equipment out. 
The first location is Nogales.
    Mrs. Christensen. Five to 10 years? That is what I am 
hearing.
    Mr. Jacksta. No. Under the contract, it is less than 1 
year.
    Mrs. Christensen. Even though you are just at the survey 
point now.
    Mr. Jacksta. Right. But we plan to have the surveys done by 
May. We have the construction being done this summer at various 
locations and then we are going to be, wont for a better term, 
hanging the equipment that is going to be needed to be able to 
read the cards.
    Mrs. Christensen. I also have a concern about 
counterfeiting.
    Isn't it true that the NEXUS, SENTRI and FAST cards are 
being counterfeited at an alarming rate and, also, that most 
features, such as holograms, chronograms and others are 
generally counterfeited easily so that the FAST card may be 
vulnerable to counterfeiting, as well?
    Mr. Staeben. Thank you. We are designing the passport card 
with multiple layers of covert, overt and forensic security 
features in order to mitigate the possibility of tampering.
    We are using a polycarbonate substance in order to make it 
more durable to last for 10 years and it will allow us to use 
laser engraving, which is much more difficult to duplicate than 
other processes used in other types of IDs.
    Mrs. Christensen. Is all of that on the Web site? Because I 
understand that the artwork and specifications for the pass 
card are on the State Department Web site.
    Mr. Staeben. The only information that is on the State 
Department Web site is a very low resolution photograph, which 
is for standard public release purposes.
    It is not actually the final artwork itself and there is no 
information about the security features, except that we say 
that it will use state-of-the-art laser engraving and security 
features. That is all we say.
    Mrs. Christensen. So a person can't go to the Web site and 
get enough information to create a card.
    Mr. Staeben. Absolutely not.
    Mrs. Christensen. Okay. We have also heard that DHS did not 
test some of the cards that were submitted, including one with 
an optical stripe.
    Could you provide the committee or can you answer today 
about the evaluation process and adversarial testing and the 
procurement process?
    Mr. Staeben. We are familiar with that technology, but none 
of the final offers included an optical memory strip for 
testing.
    We submitted all the test cards to a full battery of tests 
at Sandia National Labs, to include chemical durability, 
electromagnetic testing, and all of the tests were conducted in 
accordance with the certification requirements that were given 
to us or mandated by the National Institute of Standards and 
Technology.
    Mrs. Christensen. So an optical stripe was not required.
    Mr. Staeben. It was not offered and it was not required. 
The request for proposal stated that the vendors, at a minimum, 
had to submit a tactile feature and a hologram, but they also 
had the option of offering additional security features of 
their choice.
    Mrs. Christensen. I think my time is up. Thank you, Madam 
Chair.
    Ms. Sanchez. I thank the gentlelady.
    Now to my good friend, Mr. Bilirakis of Florida for 15 
minutes.
    Mr. Bilirakis. Thank you, Madam Chairwoman, appreciate it 
very much.
    This question is for Mr. Staeben.
    What lessons have been learned about passport processing 
times and public outreach in the air environment and how are 
you applying that knowledge to prevent potential problems with 
the land and sea rollout?
    Mr. Staeben. Thank you for that question.
    We have reviewed every aspect of passport services in order 
to determine how best we can meet the projected demand as a 
result of WHTI, as well as the possibility of reacting very 
quickly to any surges.
    We have looked at personnel. We have looked at IT systems. 
We have looked at infrastructure and we have looked at passport 
facilities.
    As I mentioned briefly in my opening remarks, we are 
increasing our personnel. We hired, in the last couple months 
of the last fiscal year, upwards of 400 people. We intend to 
hire approximately 650 people this year. We are going to hire 
additional personnel next year.
    The goal is to have the adjudicative capacity to meet 36 
million applications by the year 2010.
    We are doubling our production capacity when we open the 
Tucson printing facility this month, which will have another 10 
million capacity on top of the 10 million that we can get out 
of the Arkansas facility, which we opened 1 year ago.
    In order to meet surges, we have created a reserve corps of 
people that we can draw on very quickly. We also have remote 
adjudication capability so that we can draw on the expertise of 
consular officers serving abroad as yet one more layer if we 
reach another tripwire.
    So we have learned many lessons that we are implementing 
now, but the basic goal is to have the infrastructure and the 
adjudicative capacity to meet whatever comes our way as a 
result of WHTI.
    Mr. Bilirakis. Thank you.
    This question is for the DHS panel.
    My district and the entire State of Florida relies heavily, 
as you know, on the cruise industry for much of its economic 
vitality.
    Do you foresee any particular infrastructure limitations or 
challenges that need to be addressed regarding implementation 
in this environment?
    Mr. Jacksta. We have a working group that has been working 
with the cruise line industry down in Florida, in the Tampa 
area, the Port Canaveral area, to make sure that we address the 
issues that are going to go forward.
    As you know, based on the comments received from the 
industry, we made some modifications to the final rule where 
individuals, U.S. citizens who are what we call a closed loop, 
leaving from Miami, going to visit the Caribbean, coming back 
to Miami, would not be required to have a pass card of a 
passport card.
    They would just have to have an ID and their birth 
certification. So we have made that accommodation.
    We are also working with the cruise industry down in those 
areas and also in the Puerto Rico area to make sure that we can 
expedite them through the process.
    We now get advanced information both when the vessel leaves 
the United States, as well as when it arrives.
    We also are working with them on the handling of the I-94 
documentation for the visitors who go on cruise ships.
    So I think that we have a very good working relationship 
with the various lines down there, trying to take a look at the 
limited facilities and making sure that we can get the 
travelers once they come back from a cruise through the process 
as quickly as possible.
    Mr. Bilirakis. Thank you.
    Back to the land border. I have one question for the panel.
    Have you gotten any feedback from the Canadian counterparts 
regarding the ability of Canadian citizens to obtain WHTI-
approved documents or their willingness to do so?
    Ms. Kraninger. We have had longstanding relationships with 
our Canadian counterparts. In the testimony, we mentioned 
Presidential level initiatives, like the security and 
prosperity partnership, as well as DHS global initiatives, 
since the Department was created.
    We started with the small border accord even just post-9/
11. So our partnership has been very robust. In fact, the 
Canadian government has been a strong partner, talking about 
WHTI implementation and potential impacts and certainly working 
through different issues.
    They are encouraging their provinces and working closely 
with their provinces to go the enhanced driver's license route 
as an alternative to the passport, but they do have a very high 
passport-holder rate, which is something that means the 
Canadian citizens have the WHTI-compliant documents, for the 
large part, already.
    Mr. Bilirakis. Anyone else wish to address it?
    Mr. Jacksta. I would just mention, consistent with what 
Kathy just mentioned, that we have a very good working 
relationship. We have been having a number of conversations 
with the Canadians on this.
    We have had a number of conversations with the various 
groups representing the Canadians, Border Trade Alliance, the 
various groups, talking groups.
    So we have a good relationship. They understand the 
requirements. One of the efforts that we have is that as we 
move forward with making sure everyone gets into compliance 
with the final rule, that we have to work with the Canadians 
and the Canadian groups to make sure the message is sent out 
for the travelers.
    Mr. Bilirakis. Very good. Thank you very much, Madam 
Chairwoman, appreciate it.
    Ms. Sanchez. You are welcome.
    Now we will go to Mr. Green of Texas for 5 minutes.
    Mr. Green. Thank you, Madam Chair.
    I thank the ranking member for his comments that were made 
earlier and would look forward to working with you on the 
finger identification.
    Mr. Jacksta, let's talk for just a moment about the 
vicinity radio frequency identification.
    It is my belief that this is entirely doable, and I admire 
the notion that you are convinced that it will be done, but I 
have to be mindful of P-28, part of SBInet, and I have to be 
mindful of the fact that we have a TWIC card, but no card 
reader for the TWIC card, and the TWIC card is now being 
deployed.
    So the question becomes if we do not meet the deadline and 
we have this card, but we don't have the reader, because the 
reader is the key to the success of the vicinity screening, 
what will we do?
    Mr. Jacksta. First of all, sir, let me put on that we plan 
to meet the June 1, make sure that we have the equipment out 
there.
    Mr. Green. Okay. Let me just intercede and say this. I have 
been here through other hearings--and this is not to demean you 
and, by the way, I have great admiration for Secretary 
Chertoff.
    We are just being factual now. I have been at other 
hearings. I was the guy who questioned on P-28 and was given 
assurances about when it would be deployed.
    Now, it is, shall we say, indefinitely suspended.
    Mr. Jacksta. So let me go to the point that you want me to 
address, and that is the issue of that on June 1, 2009, if the 
equipment is not out there, we have the ability to have the 
pass cards.
    We have the responsibility to use the other types of cards 
that are going to be machine readable, but they are going to 
show the identity and the citizenship of the individuals.
    So even though the RFID may not be read, the ability for 
our CBP officers to have a single document that does show the 
identity and the citizenship are going to be extremely 
important.
    As Department of State indicated, these documents that we 
are putting out there, in addition to making them more enhanced 
so that they could not be used for fraudulent reasons, we are 
also enhancing our trusted traveler cards.
    We are enhancing other types of documents that we are going 
to accept. So on June 1, 2009, we are going to have better 
cards in the hands of travelers coming across the border.
    The enhanced driver's license that the States are putting 
out there are also going to have a machine readable zone. They 
are going to have the biographic information. They are going to 
have the security features.
    So it is a success story even if the RFID does not work.
    Mr. Green. Are you allowed to buy members lunch?
    Mr. Jacksta. Yes, sir.
    Mr. Green. If it is done, I will buy you lunch. If it is 
not done, will you buy me lunch?
    Mr. Jacksta. Yes, sir.
    Mr. Green. Okay, all right.
    Mr. Jacksta. Appreciate that.
    Mr. Green. I want to make sure we get information on you 
before you leave so that I can find you.
    What is the value of this contract, please, sir?
    Mr. Jacksta. The contract is somewhere in the area of about 
$80 million for Unisys to deploy the equipment, do the site 
surveys.
    I don't have the exact money value. We can give you that 
value.
    The money that Congress has given to us has also enabled us 
to enhance and put additional positions out in the field, CBP 
officers. It also has enabled us to enhance our capabilities.
    As you know, sir, I know you have been down on the border. 
You have seen the screens that we have. It is old technology.
    This WHTI enhancement is going to change the whole way we 
do business down on the southern border and bring more 
information to that CBP officer so that, in the long run, it is 
going to help facilitate the travelers through the process.
    So we are excited about taking a look at the land border 
locations for the first time in a number of years and making 
these important changes.
    Mr. Green. One more quick question and then we will be off 
to vote.
    You have talked a lot about coordinating your efforts with 
Canada and working with them to make sure that their concerns 
are met.
    What about our southern neighbor, Mexico?
    Mr. Jacksta. Absolutely, sir. We have had a number of 
conversations. I have been personally down to Mexico City, down 
to other places in Mexico along the southern border.
    Once again, we are meeting with the officials from the 
Mexican government. We are working with the BTA on the southern 
border with the various local chapters on the southern border.
    So every effort is being made to make sure that the message 
is getting out, that they understand.
    For this WHTI, it is really not going to affect Mexican 
citizens, since they still are going to be required and are 
currently required to have a passport or a border crossing card 
when they come and cross.
    Mr. Green. I yield back, Madam Chair. Thank you.
    Ms. Sanchez. Thank you.
    We have some votes on the floor.
    First, let me say that the chair has received a written 
statement on the subject of today's hearing from Representative 
Louise Slaughter and from Representative Stupak, and I ask 
unanimous consent to insert the statements in the record.
    Without objection, so ordered.
    [The statements of Ms. Slaughter and Mr. Stupak follow:]
             Prepared Statement of Hon. Louise M. Slaughter
                             April 16, 2008
    Mr. Chairman and Members of the committee, I would like to thank 
you for taking the time to hold this hearing on this important subject, 
as well as giving me the opportunity to submit my remarks for the 
record. The committee has been incredibly supportive in its efforts to 
ensure that the Western Hemisphere Travel Initiative (WHTI) is properly 
implemented; even holding a field hearing on the subject up in Buffalo, 
NY last year. As you know, given that nearly my entire district runs 
along the Canadian border, I am particularly concerned about WHTI and 
the effects of its implementation on border community economies.
    More than a relationship of shared proximity and principles, the 
Northern border represents a major component of our global economy. 
U.S.-Canada trade supports 7.1 million jobs and generates tens of 
billions of dollars in annual revenue. Each day, $1.5 billion in trade 
crosses our border; that is $1 million every minute. Canadians made 
more than 40 million visits to the United States in 2006, spending more 
than $13.5 billion. Just a 5 percent decline in Canadian visits to the 
United States could cost the American economy nearly $700 million.
    Given that Canada is our largest trading partner and the 
intertwining economic relationship between border communities, I have 
long been concerned that WHTI could unintentionally close the U.S.-
Canada border and create an economic disaster for both countries. While 
I support the intent of WHTI and recognize the need to improve the 
physical security of the documents presented for entrance into the 
United States, we must not let WHTI freeze cross-border travel. I 
believe that there are ways to implement WHTI that are smart and 
secure, and make certain that our border remains open for business.
    DHS insisted on implementing the WHTI air requirements in January 
2007, despite concerns in the travel community that the agency had not 
properly notified the public or prepared for a smooth execution. The 
travel community's concerns were borne out when DHS was forced to 
postpone the air regulations for 3 months after thousands of travelers 
were unable to receive passports in a timely manner. The challenges for 
the effective implementation for land and sea are far greater than for 
air as DHS must install the ports-of-entry (POE) with new card-readers, 
test and develop the technology for the proposed passport card, and 
start the driver's license pilot program in several States. As the 
January, 2008 deadline for implementing the full WHTI requirements 
approached, it became increasingly unlikely that any of these tasks 
could be achieved.
    Recognizing this, last year I led the charge in Congress to delay 
the implementation of WHTI from January, 2008 until June, 2009. 
Language mandating this delay was successfully included in the fiscal 
year 2008 omnibus appropriations bill which was signed into law in 
December. This action was necessary in order to make sure that we do 
not rush this proposal that currently has many flaws, and it was 
incorporated into the final rule on the land and sea portion of WHTI 
which was released by DHS on March 27, 2008.
    This delay, however, is only that: a delay. DHS still must address 
the primary concerns that are shared by people in border communities 
throughout the United States and Canada.
    According to the State Department, nearly 50 percent of the annual 
Northern border crossings are made by just 400,000 people. These are 
the frequent travelers who rely on cross-border travel and trade in 
their every day lives. In order to ensure that WHTI implementation does 
not hamper the regular trade and travel, DHS must implement and 
actively promote efficient trusted-traveler programs such as NEXUS and 
FAST for frequent travelers. The 9/11 Commission found that NEXUS and 
FAST are critical to improving the security of our borders. The 
programs are a joint venture between the United States and Canadian 
governments, and are designed to simplify border crossings for pre-
approved, low-risk travelers and commercial drivers. Carefully screened 
applicants get access to expedited border crossing lanes, and do not 
have to stop to be inspected. Not only is the NEXUS card less expensive 
than a passport, it also allows our border inspectors to use their 
limited resources to better inspect high-risk travelers.
    Yet despite the high percentage of frequent travelers crossing the 
border, NEXUS enrollment currently stands at just 75,000. Even worse, 
CBP expects to enroll only 50,000 more individuals in the NEXUS program 
through 2011. Now that DHS has declared in their final rule that 
Trusted Traveler Cards such as NEXUS, SENTRI and FAST will be WHTI 
compliant, it is even more imperative that we make serious investments 
in these Trusted Traveler Programs. While I am encouraged that 
construction on an enrollment center at Whirlpool Bridge in Niagara 
Falls is set to begin next month, DHS must create more enrollment 
centers all along the border.
    Additionally, there must be aggressive outreach effort by DHS to 
educate people about the new border rules. DHS and the State Department 
must engage in a public relations campaign to educate border 
communities and Americans seeking to cross the border on the new 
requirements and encourage continued cross-border travel and commerce. 
DHS should ensure that the public is well aware of what documentation 
will be accepted under the new requirements, as well as how individuals 
can obtain the new alternatives to a passport. People need to know that 
they will not be forced to suffer through long delays when crossing the 
border, and that they will not be hassled with unreasonable 
identification requirements.
    An efficient, cost-effective Trusted Traveler Program, as well as a 
robust public outreach plan are measures that will help alleviate 
congestion at the border while increasing security, and will free 
critical Customs resources for more pressing security concerns. 
However, it is clear that we all still have a lot of work to do to 
ensure that we have a smooth transition to the new documentation 
security measures, and that WHTI requirements do not unnecessarily 
hamper tourism and trade across the border. We must find an appropriate 
balance between ensuring our country's security, and protecting the 
economic health of our border communities.
    Mr. Chairman, thank you again for the opportunity to submit my 
remarks for the record, and I look forward to working together as WHTI 
moves forward.
                                 ______
                                 
                 Prepared Statement of Hon. Bart Stupak
                             April 16, 2008
    Thank you, Chairwoman Sanchez and Ranking Member Souder, for 
allowing me to submit testimony to the subcommittee on the Western 
Hemisphere Travel Initiative.
    As co-chair of the Northern Border Caucus, I would like to share my 
concerns about the final rule for the Western Hemisphere Travel 
Initiative (WHTI), especially the impacts it could have on cross border 
travel and trade between the United States and Canada.
    On March 27, 2008, the Departments of Homeland Security and State 
issued a final rule on the land and sea portion of WHTI. While I 
pleased that the departments have listened to Congress and will not 
implement WHTI until June 2009, I remain concerned whether the 
departments will be ready to properly implement WHTI in this time 
frame.
    The stakes for northern border communities are extremely high, with 
so many communities and businesses dependent upon the ease of travel 
between the United States and Canada. In my Northern Michigan district, 
like many northern border areas, smooth, reliable, and efficient 
movement between the two countries is essential to the economy. 
Commerce and trade between Canada and the United States supports more 
than 220,000 Michigan jobs and more than $71.3 billion in trade for the 
State. In addition, $489 billion in merchandise trade passes between 
the United States and Canada via Michigan annually. The International 
Bridge in my district is one of the 10 largest crossing points on the 
northern border, and the only vehicular crossing between Ontario and 
Michigan for 300 miles. More than 2.5 million vehicles cross the bridge 
annually, making a significant contribution to northern Michigan's 
economy.
    In documents released with the final rule, the Department of 
Homeland Security states it ``has determined that the benefits--
facilitation of travel and increased security that would reduce the 
probability of a terrorist attack--are greater than the potential 
costs.'' Ironically, just days before the final rule was published, an 
independent study released by the Brookings Institution found that new 
border crossing requirements impede economic growth in the Great Lakes 
region, and one of the report's chief authors expressed ``alarm'' with 
the speed at which new rules--like WHTI--are being implemented. The 
study found that border crossing requirements put in place since 2001 
are already impeding economic growth in the Great Lakes region, and 
implementing WHTI without the proper infrastructure in place will only 
make this problem worse.
    The Department of State began accepting applications from 
individuals for the Passcard on February 1, 2008; however, the Passcard 
does not exist, has not been properly tested, and critical 
infrastructure has not been installed at ports of entry.
    The Passcard should not be made available to U.S. citizens until it 
is proven effective. It is imperative that the Departments of State and 
Homeland Security test the Passcard technology at land and sea ports of 
entry to ensure that the necessary infrastructure is in place before 
making Passcard applications available to U.S. citizens. Without 
providing the required report to Congress on the effectiveness of the 
Passcard, DHS is in direct violation of the provisions included in the 
fiscal year 2008 Omnibus Appropriations Act.
    A December 20, 2007 Government Accountability Office (GAO) report 
conducted for Chairwoman Sanchez, Congressman John McHugh, and 
Congresswoman Louise Slaughter indicates that DHS has ``outlined a 
general strategy for the upgrades at the 39 highest volume land ports, 
beginning in January 2008 and continuing over roughly the next 2 
years.'' This means that the technology needed to read the Passcard 
will not be in place at all ports of entry when the Department of State 
begins accepting applications for the Passcards, nor when the 
Department of Homeland Security intends to fully implement WHTI in 
2009. It is simply irresponsible for the departments to move forward 
with WHTI when the pilot testing has not been completed and will not be 
completed in time.
    The GAO report also explains that Customs and Border Protection 
``would like to complete the upgrades at least at the first 10 ports 
before the documentation requirements are implemented.'' WHTI should 
not be fully implemented until all land and sea ports of entry are 
outfitted with the Passcard technology, and all Customs and Border 
Protection staff has received the proper training. It does our 
constituents no good when they have a Passcard that doesn't work!
    In addition, it remains unclear to me what is required for boaters 
who travel on the Great Lakes and enter Canadian waters. The Great 
Lakes are a vital fishing and recreational resource for northern 
Michigan.
    The Department of Homeland Security had indicated that trips into 
international waters are treated like a domestic trip unless the 
individual drops anchor in international waters, land on or call to 
port in another country, or come in contact with another boat while on 
the water. Should these incidents occur, then the boat captain and 
passengers must check in with Customs and Border Protection. However, 
recent news reports have indicated that the Department will not require 
fishers and divers to provide WHTI compliant documents for merely 
entering Canadian waters in the Great Lakes. These requirements further 
confuse recreational boaters, charter boat captains, and tourists 
traveling to the Great Lakes. It is important that the Department of 
Homeland Security clearly lay out requirements for sea travel.
    Any economic or bureaucratic impediments to trade and travel could 
jeopardize thousands of local jobs in border districts like mine. 
Enhancing safety on the border must be balanced with the need to 
efficiently transport people and goods.
    As the subcommittee continues to evaluate the progress made by the 
Departments of Homeland Security and State in implementing the land and 
sea travel requirements, it is important that the departments meet 
critical benchmarks prior to full implementation. If the departments 
have not deployed equipment, tested the Passcard, and clearly informed 
constituents of the new requirements, then it should not move forward 
with full implementation of WHTI even if June 1, 2009 arrives.

    Ms. Sanchez. We have a vote on the floor and, actually, it 
is a strange series of votes that are going on on the floor.
    So we will dismiss this panel.
    I am going to ask my Ranking Member for unanimous consent 
to be allowed, when we finish the votes, to come back and start 
up with the second panel without a quorum here, as I believe 
that you also are going to be going in and out of the markup, 
Mr. Souder.
    So what we will do is we will recess, we will go for these 
series of votes, which is probably about a half an hour's 
worth, and we will come back for the second panel, and you will 
probably just see me, but I am hoping that my Ranking Member 
gets back at some point.
    So if I could ask for unanimous consent to start up without 
a quorum when we come back.
    Mr. Souder. Yes.
    Ms. Sanchez. Yes. Okay. We are in recess. I thank the panel 
and the witnesses.
    [Recess.]
    Ms. Sanchez. I would like to thank the witnesses so much 
for staying to give your testimony.
    I am sorry, but the rest of the members, there is so much 
going on today, including an enormous amount of markups, and I 
know that some of them will try to get back.
    But since we do have unanimous consent to be able to take 
your testimony, and I, of course, will have some questions for 
you, I would like to welcome you.
    Our first witness is Ms. Liz Luce, director of the 
Washington State Department of Licensing, appointed in 2005 by 
Governor Chris Gregoire. Ms. Luce oversees the licensing of 
over 19,000 vehicles and 4,000 drivers in the State of 
Washington each day.
    In that capacity, she has played an integral role in 
implementing the State's new enhanced driver's license program.
    Our second witness is Jim Phillips, president and CEO of 
the Canadian-American Border Trade Alliance, CANAMBTA, formed 
in 1992. This transcontinental, bi-national organization 
includes members from producers, shippers and bridge and tunnel 
operators, chambers of commerce, business and trade corridor 
associations, and economic development and government agencies. 
Welcome.
    Our final witness is Ms. Janice Kephart, president of 9/11 
Security Solutions. She is recognized as a border security 
expert, specializing in the nexus between immigration and 
counterterrorism issues. She served as a counsel to the 9/11 
Commission and helped develop recommendations on border 
security that appear in the Commission's final report.
    Without objection, your full testimony will be inserted in 
the record.
    I will now ask Ms. Luce to summarize her statement for 5 
minutes.

    STATEMENT OF ELIZABETH LUCE, DIRECTOR, WASHINGTON STATE 
                    DEPARTMENT OF LICENSING

    Ms. Luce. Good afternoon, Chairwoman Sanchez.
    My name is Liz Luce. I am the director of the Washington 
State Department of Licensing.
    Border security is a big deal, but the State of Washington 
has brought it down to size. Through the leadership of Governor 
Chris Gregoire and Premier Gordon Campbell, we started our 
journey to create the country's first enhanced driver's license 
and identification card, a viable solution for all States in 
response to the challenges posed by the implementation of the 
WHTI land and sea rules.
    I have been asked to describe the Washington enhanced 
driver's license or, as we like to call it, the EDL, and 
address four main points--relationship, security, costs and 
challenges.
    Currently, we are the only State in the Nation issuing 
EDLs. An enhanced driver's license is a driver's license that 
has been approved by Homeland Security as an alternative WHTI 
travel document.
    Not only is it a convenient, low-cost alternative to a 
passport, it also provides more protection against identity 
theft than the conventional driver's license.
    A Washington citizen can choose to obtain an EDL for only 
$15. Applicants must demonstrate their identity, prove U.S. 
citizenship and reside in the State of Washington.
    The EDL program is based on security standards set by 
Homeland Security and the industry's best practices.
    It includes 20 state-of-the-art security features, 
including a radio frequency identifier and a machine-readable 
zone, which are both currently used in new passport cards and 
facilitates border management.
    To ensure we have one record and one record only, for each 
driver, we use a facial recognition biometric. We also verify 
online Social Security numbers. We use state-of-the-art 
equipment that can detect fraudulent documents.
    EDL employees have undergone fraud document training and 
Federal background checks. Data to and from Homeland Security 
is encrypted and a sleeve is provided to protect against 
reading the RFID chip.
    Finally, our legislature passed a law prohibiting 
unauthorized use of the RFID number.
    I would like to thank the Department of Homeland Security 
for their unwavering support and partnership. Members of the 
WHTI program office came to Washington State to meet with us 
early in the process.
    They looked at our procedures firsthand and work in 
partnerships with us to ensure our mutual success.
    As to the cost of the program, the process of producing a 
new travel document is not for the fiscally faint of heart. To 
date, the State of Washington has invested over $12 million.
    The public response has been extremely positive. As of 
February, over 25,000 appointments have been made through May 
and June is filling quickly.
    Other States, such as Oregon, Montana, Alaska, California, 
Utah, Texas, New Mexico, Idaho and Michigan, have approached us 
about producing EDLs. However, we have been told that until the 
EDL is recognized as REAL ID compliant, they are hesitant to 
make the investment.
    We believe the EDL satisfies both the WHTI and REAL ID 
requirements.
    At the REAL ID press conference, Secretary Chertoff was 
quoted as saying, ``The enhanced driver's license will 
automatically be compliant with REAL ID, but they will have 
some additional features that are relevant for crossing the 
border that are not relevant for REAL ID. So you might describe 
the enhanced driver's license as REAL ID plus.''
    WHTI rules state, ``EDLs are being developed consistent 
with the requirements of the REAL ID and, as such, can be used 
for official purposes, such as accessing Federal facilities, 
boarding federally regulated commercial aircraft, and entering 
nuclear power plants.''
    The benefits of recognizing the EDL as REAL ID compliant 
are significant not only for States, but also for the Federal 
Government.
    Driver's licenses will become more secure nationwide and 
identity theft would be reduced.
    As we near the 2010 Olympics, citizens will be confronted 
by what travel document they will need, how long will it take 
them to get across the border.
    The EDL can solve this dilemma if it is also recognized as 
a REAL ID document.
    After all, how many documents does one person have to have 
to prove who they are?
    Border management can be facilitated by more States 
producing EDLs.
    So in conclusion, to make an EDL a nationwide program, we 
need the EDL to be declared REAL ID compliant and eligible for 
the REAL ID grant.
    I thank you for your support and the chance to have the 
opportunity to discuss it.
    Thank you.
    [The statement of Ms. Luce follows:]
                  Prepared Statement of Elizabeth Luce
                             April 16, 2008
    Chairwoman Sanchez, Ranking Member Souder, and Members of the 
committee, my name is Liz Luce, I am the Director of the Washington 
State Department of Licensing. We license approximately 5 million 
drivers, almost 7 million vehicles, and over 30 professions. I am 
pleased to be here to share information about our Enhanced Driver 
License.
    Border security is a big deal, and the State of Washington has 
brought it down to size.
    In June 2006, Washington State Governor Chris Gregoire met with 
Canada's British Columbia Premier Gordon Campbell to discuss challenges 
posed by implementation of the Western Hemisphere Travel Initiative 
(WHTI) to both the State of Washington and British Columbia. Washington 
State shares more than a border with British Columbia, we also share 
significant cultural ties and a mutual reliance on trade and tourism. 
It was at this meeting that Governor Gregoire wrote a note directing me 
to, ``Look into creating a driver license that could also work as a 
travel document for border crossing.''
    It was through Governor Gregoire's leadership and vision that we 
started on our journey to create the country's first Enhanced Driver 
License and Identification Card--a viable solution for all States in 
response to the challenges posed by the implementation of WHTI land and 
sea rules. We have developed a realistic solution that addresses the 
concerns about security, cost, privacy and ease of travel for 
Washington State citizens.
    I would like to thank the Department of Homeland Security for their 
unwavering support and partnership throughout our development of the 
Enhanced Driver License and ID Card program. Members of the WHTI 
Program Office came to Washington to meet with us in person early in 
the process, look at our procedures first hand, and work 
collaboratively with us to ensure our mutual success. We consider our 
Enhanced Driver License to be a national model for how Federal agencies 
can work with States to bring about solutions that minimize impacts to 
a State's economy. We value these relationships and look to the future 
to accomplish mutually beneficial programs.
    Ours was not an easy task. We worked closely with the Department of 
Homeland Security and the Department of State to evaluate and 
ultimately meet standards for a secure travel document. We conducted an 
extensive gap analysis of our current systems and procedures, developed 
an infrastructure within our field offices and management, provided 
extensive training to our employees and spent over 33,000 technology 
hours on various applications that had to be altered to implement the 
Enhanced Driver License and ID elements.
    The card itself has 20 state-of-the-art security features. As 
required by Homeland Security it also contains a Radio Frequency 
Identifier (RFID), and a machine readable zone which are both currently 
used by the Department of State in the issuance of our country's new 
Passports. The application cost to our customer is $15.
    An Enhanced Driver License is voluntary. Privacy concerns for those 
who wish to participate in the Enhanced Driver License program have 
been addressed by the security added to the process as well as 
encrypting data to and from Homeland Security. We also provide citizen 
education and a sleeve to protect against unauthorized reading of the 
RFID number. In addition, our Legislature passed a law this past 
session that makes it a class C felony for a person to intentionally 
possess, read, or capture information on another person's Enhanced 
Driver License without that person's knowledge and consent.
    Applicants for the Enhanced Driver License must prove their 
identity and U.S. citizenship, and show that they have resided in the 
State of Washington for more than 30 days. This secure card application 
approval and issuance process requires that the licensee's picture is 
taken and run through a facial recognition biometric to ensure we have 
one record, and one record only, for each driver. We also verify his or 
her Social Security number.
    The response from our staff has been extremely positive. We had 24 
EDL licensing positions available and over 100 of our staff applied. 
Our licensing staff has received extensive training. Staff is required 
to pass a Federal background check, be trained in detecting fraudulent 
documents and go through interview technique training.
    The process of producing a new travel document is not for the 
``fiscally faint of heart.'' This effort required significant resources 
from our State in both staff and dollars. The State of Washington has 
invested over $12 million to equip 14 offices to address a consistent 
demand. We, in concert with the Department of Homeland Security and 
British Columbia, have demonstrated that it can be done, and now other 
States are interested in our experience and in offering an EDL to their 
residents. We are proud of our accomplishment and the precedent we 
established working collaboratively with DHS.
    At this time we have Enhanced Driver License capacity available in 
only 14 of our 63 licensing locations throughout the State. We would 
like to offer it in more locations, but are fiscally constrained. Our 
legislature has been generous, but to expand to other areas of the 
State and to realize the full potential and demand for the EDL, we will 
require external funding.
    The public's early response to the Enhanced Driver License has been 
positive and supportive. This is evident by the fact that we already 
have booked over 25,000 appointments. In our border communities and the 
Seattle metropolitan area, we are booked through May, and June is 
filling quickly.
    In an effort to manage the demand we have suspended all paid 
advertising throughout the State. However, we continue to streamline 
our processes and enhance our capacity while still maintaining the 
integrity of this very secure and voluntary program. But the demand 
remains steady as we speak.
    Our citizens are responding because they recognize the value and 
benefits of the Enhanced Driver License, and the benefits are 
significant. According to Washington State Attorney General Rob 
McKenna, ``Washington State's Enhanced Driver License and 
Identification Card program provides citizens with a convenient, low-
cost alternative to a passport that provides more protection against 
identity theft than a conventional license.''
    Another benefit of Enhanced Driver License that cannot be 
overlooked is how it can fulfill the intent of the REAL ID Act. The 
intent to create one secure document that would satisfy both WHTI and 
REAL ID requirements appears to be supported by Secretary Chertoff. At 
the REAL ID Press Conference, Secretary Chertoff was quoted as saying 
``enhanced driver's licenses will automatically be compliant with REAL 
ID. But they will have some additional features that are relevant for 
crossing the border that are not relevant for REAL ID. So you might 
describe the enhanced driver's license as `REAL ID plus.' ''
    In addition, the recently published WHTI rules state, ``EDLs are 
being developed consistent with the requirements of the REAL ID and, as 
such, can be used for official purposes such as accessing a Federal 
facility, boarding federally regulated commercial aircraft, and 
entering nuclear power plants.''
    Also, in WHTI's Privacy Impact Assessment, January 11, 2008, page 
7, it states, ``In addition to implementation of REAL ID, DHS is 
encouraging States to enter into voluntary agreements to produce 
enhanced driver's licenses (EDLs) that would serve as alternative 
documents to passports under the Western Hemisphere Travel Initiative 
(WHTI). These State-issued EDLs, intended to also meet REAL ID 
requirements, would be available only to U.S. citizens who voluntarily 
apply.
    We believe that our Enhanced Driver License and Identification 
Cards are REAL ID compliant and as stated by Secretary Chertoff, we 
believe they are ``REAL ID plus,'' and should be recognized accordingly 
within the REAL ID rules framework.
    We also would like our Federal partners to consider expanding the 
use of Enhanced Driver Licenses and ID Cards for air travel to 
countries identified by WHTI. It would make the development of an 
Enhanced Driver License more attractive to more States and make travel 
easier and less costly for citizens across the country. I realize this 
option would require a significant investment on the part of the 
Federal Government, but I urge you to keep it in mind as more States 
choose to offer this type of document to their citizens.
    In summary, some of our existing challenges of the program include 
Federal funding for the full expansion of Enhanced Driver License 
capability in all of our offices throughout the State. Another 
challenge is the recognition of the Enhanced Driver License as a Real 
ID materially compliant document as suggested by Homeland Security 
Secretary Michael Chertoff. We have also requested approval for a 
priority lane for enhanced card holders at the Blaine Border Crossing. 
In addition, we ask to gain recognition of the Enhanced Driver License 
as an alternative document for air travel within the United States. 
Funding is a large challenge and will be a particularly critical 
concern as the time nears for the 2010 Olympic events and if the REAL 
ID Act is implemented and demand for the EDL increases.
    There is a lot of confusion out there about how many documents or 
which documents are needed to cross the border these days. But I can 
tell you with certainty that at least by land or by sea, you can use 
Enhanced ID.
    Thank you.

    Ms. Sanchez. Ms. Luce, I thank you for your testimony.
    I now recognize Mr. Phillips to summarize his statement in 
5 minutes.

 STATEMENT OF JAMES D. PHILLIPS, PRESIDENT AND CHIEF EXECUTIVE 
             OFFICER, CAN/AM BORDER TRADE ALLIANCE

    Mr. Phillips. Chairwoman Sanchez, it is an honor to be here 
to talk about common sense border security.
    They key is to achieve national security for our country 
and the public, while simultaneously increasing our economic, 
trade and travel activity, on which our quality of life 
depends.
    To achieve success, one must have a vision of the final 
objective, the end state. To deliver seamless movement of 
legitimate people to ensure economic security requires that we 
know who is low-risk before they get to our border, give them a 
special ID and a streamed access to and through primary 
inspection to encourage and, in fact, achieve increased tourism 
and legal visitation.
    People's incomes, not to mention infrastructure financing, 
depends on it.
    Collectively, we must ensure common sense prevails while 
achieving both essential objectives with proper levels of 
security to deter, detect and prevent threats to the public, 
while making cross-broader travel for known low-risk 
individuals, the overwhelming majority, seamless as never 
before reached.
    Unfortunately, from the outset of the initial Western 
Hemisphere Travel Initiative, WHTI, announcement in April 2005, 
the initiative was misunderstood as to require a passport to 
catch the bad guy.
    In reality, WHTI was and is an initiative to provide secure 
documentation for border crossing into the United States. WHTI 
will substantially improve the ability of CBP officers at 
border primary lanes to facilitate the entry of low-risk 
individuals, thus providing increased time and attention for 
unknown and high-risk.
    Today, WHTI has settled on the selection of acceptable 
documents that utilize the proven and long in use technology of 
NEXUS, FAST, SENTRI, known low-risk programs and the US-VISIT 
program.
    The RFID technology utilized in NEXUS, FAST and US-VISIT 
has been mandated the additional WHTI acceptable documents, 
i.e., the passport card from the State Department and enhanced 
driver's license to be issued by participating States and 
Canadian provinces, an excellent addition.
    Controlled contrails at the busy Peace Arch land border 
port, entering the United States from British Columbia, 
resulted in the time to process an equal group of passenger 
vehicles as follows.
    Current documents and declarations, 65 minutes; when all 
used proximity RFID passports, 25 minutes; when all used 
vicinity RFID documents, NEXUS, FAST, US-VISIT, pass card, 
enhanced driver's license technology, 8 minutes; and, if a 
dedicated NEXUS lane was open, as well, 5 minutes.
    With the expected mix of passports and vicinity RFID 
documents, after June 1, 2009, a reduction of wait time from 65 
minutes to approximately 15 to 20 minutes should occur, thus 
actually achieving the two objectives of facilitating low-risk 
for vicinity of 65 minutes to 8 minutes, while enhancing public 
security, as everybody will have a more secure document.
    A like time trial performed in the Nogales-DeConcini land 
border port entering from Mexico resulted in the following time 
trials.
    Current documents, 123 minutes; when all used proximity 
RFID passports, 90 minutes; when all used vicinity RFID 
documents, such as SENTRI, FAST, US-VISIT, pass card, enhanced 
driver's license from Texas, 32 minutes; and, if a dedicated 
SENTRI lane was open, 19 minutes.
    The results of the time trials indicate that WHTI is a 
common-sense solution when implemented properly.
    It is a complementary process to the already proven known 
low-risk vicinity RFID programs of the low-risk programs 
already in place, providing officers with the identity of 
individuals and their status prior to them entering the primary 
booth.
    WHTI-approved documentation is a foundation introduced 
subsequent to known low-risk programs, such as the planned CBP 
global entry pilot program encompassing international trusted 
travelers.
    I have three suggested further steps. DHS should 
consolidate all pre-enrolled low-risk travelers in one 
designated authority. That is NEXUS, FAST, SENTRI, TWIC, all 
the TSA programs, and other CBP programs, including HAZMAT, 
from transport, so that one card, one ID, after the appropriate 
background checks, would be utilized, i.e., a known low-risk 
truck driver with FAST, TWIC, HAZMAT and NEXUS, for his 
vacation, all on one card, with required different biometrics.
    Maximize enrollment in known low-risk programs by outreach 
by the public and the next and final major improvement is to 
fully implement offshore, at point of departure for 
international visitors, a check of their documents to identify 
inadmissible individuals before they board transportation, 
prohibiting them from physically reaching our soil. That would 
also secure the air and sea travel lanes.
    I have provided you with a coordinated clearance point of 
departure strategy PowerPoint that specifically describes what 
needs to be done.
    Currently, Canada does this at 39 locations and DHS is 
doing it at seven, and we recommend that we do it at all 
locations.
    Thank you again for the opportunity to testify today.
    [The statement of Mr. Phillips follows:]
                Prepared Statement of James D. Phillips
                             April 16, 2008
                              introduction
    Chairwoman Sanchez, Ranking Member Souder, distinguished Members of 
the subcommittee, it is a privilege and an honor to appear before you 
today to discuss Common Sense Border Security. The key is to achieve 
national security for our country and the public while simultaneously 
increasing our economic trade and travel activity upon which our 
quality of life depends.
    To achieve success one must have a vision of the final objective, 
the ``End State.'' To deliver seamless movement of legitimate people to 
ensure economic security requires that we know ``who is low-risk'' 
before they get to our border, give them a special ID and a streamed 
access to and thru primary inspection to encourage and in fact achieve 
increased tourism and legal visitation. People's income not to mention 
infrastructure financing depend on it.
    Passport, passport card, REAL ID, drivers license, birth 
certificate, etc. provide only ID and nationality or just ID but 
regardless the essence is none of these allow passage without query 
since they do not identify low-risk people for facilitated access and 
processing at this time. This is our one chance to achieve facilitated 
seamless processing for the vast majority to protect economic benefits 
by delivering a degree of seamless travel never before achieved at the 
U.S./Canada shared border while satisfying public security 
requirements.
    Collectively we must ensure that common sense prevails while 
achieving both essential objectives of proper levels of security to 
deter, detect and prevent threats to the public while making cross-
border travel for known low-risk individuals (the overwhelming 
majority) seamless as never before reached.
    Unfortunately, from the outset of the initial Western Hemisphere 
Travel Initiative (WHTI) announcement in April 2005, the initiative was 
``misunderstood'' as to require a passport to assist ``to catch the bad 
guy.'' In reality WHTI was and is an initiative to provide secure 
documentation for border crossing into the United States. WHTI would 
substantially improve the ability of CBP officers at border primary 
lanes to facilitate the entry of low-risk individuals thus provide 
increased time and attention for unknown or non-low-risk individuals.
    Today WHTI has settled on the selection of acceptable documents 
that utilize the proven and long in use technology of the NEXUS, FAST, 
SENTRI (known low-risk programs) and the US-VISIT program for foreign 
visitors.
    Vicinity RFID technology, utilized in NEXUS, FAST and US-VISIT, has 
been mandated for the additional WHTI acceptable documents i.e. PASS 
CARD from the State Department and the Enhanced Drivers Licenses to be 
issued by participating States and Canadian Provinces.
    Controlled time-trials at the busy Peace Arch Land Border Port 
entering the United States from British Columbia resulted in the time 
to process an equal group of passenger vehicles as follows: current 
documents and declarations, 65 minutes; when all used Proximity RFID 
Passports, 25 minutes; when all used Vicinity RFID documents (NEXUS, 
FAST, US-VISIT, PASS CARD, Enhanced Drivers License technology), 8 
minutes; and, if a dedicated NEXUS lane was open as well, 5 minutes. 
With the expected mix of Passports and Vicinity RFID WHTI documents 
(after June 1, 2009), a reduction of wait time from 65 minutes to 
approximately 15-20 minutes should occur thus actually achieving the 
two objectives of facilitating low-risk while enhancing Public 
Security.
    A like time-trial was performed at the Nogales East--Desconcini 
Land Border Port entering the United States from Mexico resulting in 
the time to process an equal group of passenger vehicles as follows: 
current documents, 123 minutes; when all used Proximity RFID Passports, 
90 minutes; when all used Vicinity RFID documents (SENTRI, FAST, US-
VISIT, PASS CARD, Enhanced Drivers License), 32 minutes; and if a 
dedicated SENTRI lane was open as well, 19 minutes.
    The results of the time-trials indicate that ``WHTI is a common 
sense solution when implemented properly.'' It is the complementary 
process to the already proven known low-risk Vicinity RFID programs of 
NEXUS, SENTRI, FAST and US-VISIT. The key is providing the Officer with 
the identity of individuals and their status ``prior to them entering'' 
the Primary Booth for assessment.
    WHTI approved documentation is a foundation to introduce subsequent 
Known-Low Risk Programs such as the planned CBP Global Entry Pilot 
Program encompassing known International ``Trusted'' Travelers.
Suggested Further Steps
  <bullet> DHS should consolidate ``all pre-enrolled low-risk traveler 
        and designated special categories'' including US-VISIT in one 
        responsibility. These should include NEXUS, FAST, SENTRI, TWIC 
        & OTHER TRUSTED TRAVELER TSA & CBP PROGRAMS. I would hope 
        HAZMAT and other Government specialties would also be included 
        to allow an individual to use only one ID Card after 
        appropriate background check etc. requirements with a menu 
        option that activates all programs an individual is approved to 
        utilize i.e. a known low-risk truck driver could be FAST, TWIC, 
        HAZMAT AND NEXUS for his vacation travel (ALL ON ONE CARD) with 
        required differing biometrics having been captured.
  <bullet> Maximize enrollment in known low-risk Programs (NEXUS, 
        SENTRI, FAST).
  <bullet> The NEXT MAJOR IMPROVEMENT is to fully implement: offshore; 
        (at point of departure); for International Visitors; a check of 
        their documents to identify inadmissible individuals BEFORE 
        they board transportation prohibiting them from physically 
        reaching our soil that would also secure the air and sea travel 
        lanes.
    Thank you again for this opportunity to testify. I am pleased to 
answer any questions you may have.

    Ms. Sanchez. Thank you, Mr. Phillips.
    Let me ask you just a quick question, since I don't have 
any of my colleagues here.
    Are you saying that you think that all of the NEXUS and 
other programs, that card should be equal to--in other words, 
the TWIC, the TSA cards, everything should all just use one 
card.
    Mr. Phillips. I am saying that the person should be able to 
apply to all the different programs the way they are and if 
they are approved, all their biometrics would be collected and 
they would get one card and that card would give me access.
    If I was a truck driver, I could get into the ports to 
deliver materials. If I was carrying hazardous material, I 
could get cleared for that. Also, on my vacation, when I 
wouldn't be in my truck, but I am a low-risk individual, I can 
use NEXUS or SENTRI.
    Ms. Sanchez. I am not sure if the background checks on the 
individual programs are all the same depth of background 
checks.
    Mr. Phillips. Well, you do the same background check for 
each. I am not suggesting that you make one background check 
for all. Obviously, certain cards have fingerprints, certain 
cards have a picture, certain cards have the iris.
    I am just suggesting that all those programs, if they were 
unified, could be put together on a menu and if I applied and I 
was approved for five of them, that all those five things could 
be indicated on one card.
    Ms. Sanchez. I see what you are saying. So each has a 
different level, but it could be a menu, basically. I could say 
I want to apply for three of the five, but it would be the same 
type of card.
    Mr. Phillips. Yes, ma'am.
    Ms. Sanchez. Thank you. I appreciate that clarification.
    Ms. Kephart, summarize your statement for 5 minutes.

   STATEMENT OF JANICE L. KEPHART, PRESIDENT, 9/11 SECURITY 
                           SOLUTIONS

    Ms. Kephart. Thank you, Chairwoman Sanchez. I appreciate 
this committee's continued interest and effort in implementing 
in the 9/11 Commission recommendations.
    Without assuring that people are who they say they are and 
the documents they present are legitimate at our borders and 
within our borders, we have done little to nothing to contain 
what we on the 9/11 Commission termed ``terrorist travel.''
    WHTI fulfills a 9/11 Commission recommendation calling for 
a passport or equivalent for all persons seeking entry into the 
United States. Equivalent alternatives for entry that satisfy 
the Commission's recommendation are the trusted traveler 
program, such as NEXUS, SENTRI, FAST and the new global entry, 
alongside EDL and the pass cards.
    All were designed to be vetted against derogatory 
information and adequately assure citizenship, while enhancing 
facilitation for low-risk travelers and permitting focus on 
high-risk travelers.
    The slate of 9/11 hijackers, you might recall, had a 97 
percent success rate at entering the United States by passing 
inspectors 34 of 35 times. After 9/11, from 2002 to 2006, the 
General Accounting Office had a 93 percent success rate in 45 
attempts of entry at our land ports of entry with fake birth 
certificates and driver's licenses and other travel documents.
    Containing terrorist travel is so pivotal to national 
security, because terrorists nearly always require travel 
across borders to conduct their operations.
    Terrorists are trained in document forgery and travel 
techniques, exploiting any loophole in a border apparatus they 
can.
    For decades, the Western hemisphere travel exception had 
been one extremely large loophole that permitted anyone 
claiming to be from the Western hemisphere to present easily 
forged documents, like birth certificates or driver's licenses, 
that couldn't be authenticated or nothing at all sometimes to 
enter the United States.
    WHTI flips that, making it significantly harder to fake 
entry.
    On our northern border, cross-border terrorist travel 
between Canada and the United States is well documented. With 
the Toronto-17 in June 2006, having received visits from two 
other terrorists via Greyhound bus across the border who were 
residing in Atlanta, Georgia.
    In addition, Hezbollah trafficked illegal goods across our 
northern border for over a decade. Their cigarette scams in 
both Canada and the United States were worth multi-millions.
    Money was used to buy dual use military equipment in both 
countries and then shipped to Lebanon.
    In the Caribbean, Trinidad has produced a number of 
individuals who have come to the United States undetected until 
their terrorist plots became known to authorities, including 
the JFK Airport plot of last June.
    Remember, too, that south of the border, Al Qaeda and 
Hezbollah have both sought to work with travel facilitators to 
move terrorists across the southwest ports of entry and the 
land border.
    Now, let me turn to REAL ID for a moment, which I was asked 
to discuss.
    REAL ID fulfills another 9/11 Commission recommendation 
that, ``The Federal Government should set standards for sources 
of IDs, such as driver's licenses.''
    Today, REAL ID stands at the verge of implementation, with 
a final rule that most States agree is doable.
    REAL ID and its final rule deal directly with the abuse of 
the State ID issuance system, enabling States to check other 
State and Federal Government databases about identity and 
license issuance through a private network during the 
application process, with no entity other than the State having 
access to an applicant's data.
    These hardened issuance processes also make it difficult 
for fake breeder documents to receive a green light when 
entered into the system.
    The ID cards themselves are also hardened against 
counterfeiting, simultaneously helping law enforcement protect 
against national security, prevents ID theft, combat drug 
trafficking, and address other important societal concerns 
affected by the multi-million dollar fake ID document industry.
    Recall that the 9/11 hijackers assimilated into the United 
States by attaining 17 driver's licenses from Arizona, 
California and Florida, and 13 State-issued IDs, including the 
seven fraudulently acquired in Virginia.
    At least six hijackers total presented State-issued IDs on 
the morning of 9/11 to help make sure they could board 
aircraft.
    The pilot who flew into the Pentagon had IDs from four 
States. The Pennsylvania pilot had three IDs, and an 
unverifiable ID when stopped for speeding 2 days prior to 9/11.
    Honorable Chairwoman, WHTI, EDL, trusted traveler programs, 
and REAL ID, taken as a whole, go a long way towards 
implementing key 9/11 Commission secure ID and border 
recommendations.
    I urge you to continue to provide these programs with 
strong oversight and sound funding, and I will make a special 
plea for REAL ID, which is in a funding emergency at the 
moment.
    When REAL ID is funded at adequate levels, I do believe EDL 
should be deemed an allowable use under REAL ID grant programs 
language.
    Thank you so much for having me.
    [The statement of Ms. Kephart follows:]
                Prepared Statement of Janice L. Kephart
                             April 16, 2008
                              introduction
    Chairman Sanchez, Ranking Member Souder. Thank you for having me 
here today. It is an honor to be here. I appreciate very much this 
committee's continued interest and effort in the 9/11 Commission 
recommendations, including the issue of identity document security that 
the Western Hemisphere Travel Initiative, REAL ID and Enhanced Driver 
Licenses addresses head-on. Without assuring that people are who they 
say they are, and that the documents they present are legitimate at our 
borders and within our borders, we have done little to nothing to 
contain what me and my team mates on the 9/11 Commission termed 
``terrorist travel''.
    I am here in my own capacity today, but you should know that when 
the 9/11 Commission issued its final report card in December 2005, one 
of the highest marks it gave was to Congress for passing REAL ID 
legislation that set minimum standards for the issuance of State-issued 
driver licenses (DL) and IDs.\1\ I am also happy to be one who speaks 
with the 70 percent of Americans who, in a Zogby/UPI poll from late 
last year, are in favor of secure driver licenses. Like REAL ID, the 
Western Hemisphere Travel Initiative (WHTI) fulfills a 9/11 
recommendation that called for the presentation of a passport or 
equivalent for all persons seeking entry into the United States.
---------------------------------------------------------------------------
    \1\ In addition, I have written three papers on the subject. The 
most recent was published in February 2008. REAL ID: Final Rule Summary 
takes the 280-page Final Rule and summarizes it in 9 pages. The second 
paper from April 2007, Identity and Security: REAL ID in the States, 
answers policy concerns being echoed in some States regarding REAL ID 
implementation. This paper remains salient, as criticisms of REAL ID 
implementation are answered, and some of these criticisms are still 
heard today. The third I published in February 2007 and sets out the 
policy backdrop for the REAL ID Act, explains its content, and 
discusses what is at risk if it fails. Identity and Security: Moving 
Beyond the 9/11 Staff Report on Identity Document Security emphasizes 
the need for security at the base of the Nation's identity document 
issuance processes.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Enhanced Driver License and State Department issued PASS Cards 
will assure citizenship while providing a cost-effective way to 
facilitate travel for those living and working on our land borders. 
These alternative forms of ID for the border satisfy the Commission's 
recommendation that other, ``equivalent'' documents, might be 
sufficient for border inspection. As long as these documents are able 
to be checked for fraud, citizenship, and against derogatory 
information to the extent passports are today, I can say with 
confidence that the Commission would consider them acceptable for entry 
today. Trusted traveler programs such as NEXUS, SENTRI and the Global 
Entry programs are essential to such systems, to help assure high (not 
low) risks are the focus for border inspectors.
    One crucial caveat remains: national standards for birth 
certificates--made a legal requirement in 2005--and digitization of 
birth (and death) records are pivotal to verifying identity for other 
government issued IDs, including REAL IDs and e-passports. While States 
are making progress in digitizing birth and death records, continual 
building of the Electronic Verification of Vital Events system needs to 
remain a priority. Where States are partnering with the Federal 
Government to digitize records, huge dividends are being found in the 
fraud fight in health care, but hooking this information in for DMVs 
and other legitimate uses will provide the essential foundation to the 
secure ID framework upon which all these programs ultimately rely.
                     terrorist travel and passports
    Terrorists need to travel in a manner that shields them from 
detection or suspicion. In the Al Qaeda Afghan training camps, we know 
that terrorists were well trained in travel and travel document 
forgery. Terrorists were instructed in how to move into Afghanistan 
through Iran or Pakistan, and what travel facilitators to use for 
acquiring travel documents and travel. Digital copies of travel 
documents were kept in e-files in safehouses (we obtained a couple of 
9/11 hijacker passports from such files), and Adobe Photoshop was a 
favorite tool for manipulating multiple forms of identifications, 
including passports. Upon leaving training camps, Khalid Sheikh 
Mohammed (mastermind of the 9/11 plot) would instruct new recruits on 
how to behave to pass into the West unsuspected. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Photo Caption.--A partly-burned copy of Ziad Jarrah's U.S. visa 
recovered from the Flight 93 crash site in [sic].

    We know 9/11 operational ringleader Mohammad Atta used his training 
as well to manipulate passports to hide travel and substitute 
information that would leave a fraudulent trail of less suspicious 
travel. We also know that the recently assassinated Mugniyah of 
Hezbollah supplied his members with travel documentation as needed.
    For the terrorist, the underlying purpose of the travel will often 
determine how he decides to travel. For example, the 19 9/11 hijackers 
had a mission which required a relatively short time for legal 
admission into the United States, but also required that none of them 
be compromised for failure to obey immigration law. (Violations of law 
did exist; it was the Federal Government that failed to exercise its 
authority under the law.) Therefore, they needed to appear ``clean'' to 
immigration authorities.
    They thus worked hard to appear to follow the rules. They all had 
passports. (Thirteen acquired new passports within 3 weeks prior to 
seeking U.S. visas. A number had indicators of extremism that remain 
classified today and still other passports contained fraudulent 
manipulations.) They all had visas (22 or 23 applications were 
approved). They all sought entry through immigration inspection kiosks 
at U.S. international airports (a total of 34 times over 21 months). In 
the five times 9/11 hijackers were pulled into secondary, only once did 
a hijacker resist questioning, and then quickly became cooperative once 
a new inspector was assigned to conduct the questioning. In two cases 
terror alerts or visa revocations were placed in the immigration 
system; but it was too late--in August 2001, subsequent to the last 
successful 9/11 hijacker entry in July 2001.
    In other words, the 9/11 hijackers had been taught what to do to 
attain successful entry into the United States. The frustrating irony 
is that at least some of the hijackers could have been denied admission 
into the United States if critical information had been provided to 
border officers via lookouts or regarding the passports themselves. 
Today, we have the ability to provide that information to our border 
security personnel as long as a passport or verifiable biometric 
equivalent is required for admission. Our air ports of entry using US-
VISIT have helped upgrade this process. However, where there is no 
passport or equivalent biometric travel document required for 
admission, our border personnel have little to no baseline upon which 
to make an initial judgment about whether a particular individual may 
pose a terrorist or public safety threat to the United States.
    Until WHTI comes into full implementation at all U.S. border 
crossings, terrorists with Canadian, Caribbean or Mexican citizenship--
or those that pose as such--can move in and out of the United States 
right virtually unconcerned about detection. There are legitimate 
concerns about both the northern, southern and sea borders. The Western 
Hemisphere Travel Initiative thus becomes an important first step in at 
least chilling terrorist travel between the United States and Canada/
Mexico and the Caribbean. This includes any variety of terrorist, 
whether a Mexican Islamic convert (as sought out by Al Qaeda) or 
Canadian.\2\ Terrorists do not like to be detected or detectable, nor 
do they want their identity ``frozen''. (We know, for example, from 
detainee reporting after 9/11, that the tightening of immigration 
admission standards for persons traveling from countries of interest 
resulted in Al Qaeda leaders seeking out young recruits and others with 
easy access to the West--U.S. citizens, Canadians, Mexicans and those 
with access to Visa Waiver passports that would not be subject to 
biometric entry requirements.)
---------------------------------------------------------------------------
    \2\ For more information about the threat of Canadian terrorist 
entry over the northern border, see my testimony of November 17, 2005 
before the House Small Business Committee, ``Building a Wall Between 
Friends: Passports to and from Canada?''
---------------------------------------------------------------------------
    Even if terrorists choose to acquire a passport with a false 
identity and with false underlying support documents (as Millenium 
wannabe bomber Ahmed Ressam did) that identity is at least frozen and 
aliases to cross the border (as Ressam did use) are not possible. What 
would have caught Ressam was a biometric in that passport that then 
linked up to the watchlist Ressam was indeed listed on in Canada. 
Today, a hit on a terrorist such as Ressam would most likely occur 
through either a DHS TECS Lookout provided by U.S. or foreign law 
enforcement, a U.S. terror watchlist hit, an IDENT or FBI IAFIS hit, or 
through a biometric wanted notice now available to our border 
inspectors through Interpol.
    The staff report I co-authored with my 9/11 Commission border 
teammates, 9/11 and Terrorist Travel, details in even greater depth how 
the 9/11 hijackers exploited our vulnerabilities using our legal border 
system. Part of the everyday business of terrorist travel is the 
bustling black market in doctored and false passports. In addition, an 
estimated 10 million lost or stolen passports or national 
identification cards worldwide afford terrorists easier access to world 
travel.\3\ This permits easy travel based on aliases, fake or stolen 
identities that, at a land border, may or may not be subject to a 
database check. Requiring U.S. citizens to carry a passport or 
biometric equivalent also means U.S. border inspectors no longer need 
to play a guessing game as to who is and who is not a U.S. citizen. On 
the Canadian and Mexican sides of the border, having a combination of 
the standard passport or equivalent and registered traveler programs 
that limit what a border officer must review gives border officers a 
better chance of snuffing out Canadian, Mexican or other Western 
Hemisphere passports or ``equivalents'' that might be fake or stolen.
---------------------------------------------------------------------------
    \3\ Levine, Samantha. ``Terror's Best Friend.'' US News & World 
Report. December 6, 2004.
---------------------------------------------------------------------------
         terrorist travel between the united states and canada
    Until WHTI is fully implemented, terrorists with Canadian 
citizenship can move in and out of the United States virtually 
unconcerned about detection. It has long been known--and I testified 
extensively to this fact in 2005 and 2006 before both Houses of 
Congress--that Al Qaeda recruiters targeted youths with U.S., Canadian 
or Western European passports, solid English language skills and an 
understanding of these cultures. A couple of years ago FBI reported 
these efforts were resurging. Plenty of examples of terrorists seeking 
or accessing the United States based on Canadian residency or 
citizenship, or illegally:
  <bullet> Jabarah brothers who were recruited to blow up the Singapore 
        harbor but were caught by authorities after swearing allegiance 
        to bin Laden;
  <bullet> 9/11 mastermind KSM's affiliate Abderraouf Jdey who was 
        initially slated to take part in a second wave of attacks after 
        9/11;
  <bullet> Ahmad Said Al-Khadr was bin Laden's highest ranking 
        associate in Canada and raised a family sworn to allegiance to 
        Al Qaeda; a high-ranking ranking Al Qaeda operative who had 
        emigrated to Canada from Egypt in 1975;
  <bullet> Mohammed Warsame attained U.S. residency after becoming a 
        naturalized Canadian citizen and moved to Minneapolis in 2002. 
        He was arrested in December 2003 as a material witness in the 
        Zacarias Moussaoui case;
  <bullet> Hizballah cigarette smuggling scam operated for over the 
        U.S.-Canadian border for over a decade with single truckloads 
        sometimes yielding $2 million. Profits were used to buy dual 
        use military equipment and sent back to Hizballah high command 
        in Lebanon. Credit card and banking scams in Canada provided 
        funding, and the Canadian section reported directly to 
        Hizballah's military procurement officer in Lebanon;
  <bullet> Nabil Al-Marabh tried to illegally enter the United States 
        near Niagara Falls by hiding in the back of a tractor-trailer 
        in June 2001. He had a forged Canadian passport and fake social 
        insurance card.\4\ He later told authorities he had regularly 
        traveled illegally between Canada and the United States.\5\ 
        Moreover, Michigan State records showed Al-Marabh receiving 
        five driver's licenses there in 13 months; he had licenses for 
        Massachusetts, Illinois, Ontario, and Florida,\6\ and a 
        commercial driver's license and a permit to haul hazardous 
        materials,\7\ including explosives and caustic chemicals.\8\ In 
        2002, he pled guilty to conspiracy to smuggle an alien into the 
        United States \9\ and was ordered deported.\10\ Prosecutors 
        said the government had no evidence linking him to 
        terrorism.\11\ The judge questioned the government's previous 
        documentation of Al-Marabh's ties to terror and also noted he 
        was found with $22,000 in cash and $25,000 worth of amber 
        jewels in his possession when he was arrested.\12\ He was 
        deported to Syria in January 2004 for his strong ties to the 
        Jordanian Millenium plot.
---------------------------------------------------------------------------
    \4\ Dimmock, Gary and Aaron Sands. ``Toronto Shop Clerk Tied to 
World Terror.'' The Ottawa Citizen. Oct. 29, 2001.
    \5\ Ibid.
    \6\ Schiller, Bill. ``Terrorism Suspect had Florida Link.'' Toronto 
Star. Oct. 26, 2001.
    \7\ Philip Shenon and Don Van Natta Jr., ``U.S. Says 3 Detainees 
May Be Tied to Hijackings,'' The New York Times, November 1, 2001.
    \8\ Wilgoren, Jody and Judith Miller. ``Trail of Man Sought in 2 
Plots Leads to Chicago and Arrest.'' The New York Times. Sept. 21, 
2001.
    \9\ USA v. Al-Marabh. WDNY 01-CR-244-A. Plea Agreement. July 8, 
2002.
    \10\ Fainaru, Steve. ``Sept. 11 Detainee is Ordered Deported.'' The 
Washington Post. Sept. 4, 2002.
    \11\ Ibid.
    \12\ Owens, Anne Marie. ``Judge Gets No Answers on Syrian: Former 
Toronto Suspect Jailed in U.S. for Border Breach.'' The National Post. 
Sept. 4, 2002.
---------------------------------------------------------------------------
    Seventeen Canadian citizens and residents were arrested in Toronto 
on June 3, 2006 for terrorist conspiracies across southern Ontario, 
including subway systems and the Parliament Building in Ottawa. Found 
in their possession were three tons of ammonium nitrate, 1\1/2\ times 
that used in the 1995 Oklahoma City bombing responsible for 168 deaths. 
The arrests were only the second time Canada has used the Anti-Terror 
law passed after 9/11.
    The LA Times reported that the FBI has been working closely with 
the Canadians on the case, and that the Canadian cell received visits 
from two terror suspects arrested in April 2006 from Georgia, Syed 
Haris Ahmed, a 21-year-old Georgia Tech student and naturalized U.S. 
citizen, and Ehsanul Islam Sadequee, a 19-year-old Fairfax, VA native. 
They had met at an Atlanta mosque. The men, according to U.S. court 
documents, had been in email communication with the Canadian cell and 
physically went to Canada to meet in early March via Greyhound bus from 
Atlanta to discuss U.S. attacks and receiving military training in 
Pakistan. (The two men had already conducted surveillance, including in 
Washington, DC.)\13\ Both the Canadian cell and the U.S. suspects were 
in internet communication with each other and suspected terrorists 
abroad, including a London cell arrested shortly thereafter. Over the 
internet, a variety of plots focusing on the U.S. Capitol, the World 
Bank, fuel storage facilities and aviation towers were discussed.\14\
---------------------------------------------------------------------------
    \13\ Jason Chow and Ricardo Alonso-Zaldivar, ``Canada Arrest 17 in 
Alleged Terror Plot.'' Los Angeles Times, June 4, 2006.
    \14\ Ibid.
---------------------------------------------------------------------------
    The reporting on the Canadian plot does not mention whether there 
are any immigration records for the two Georgia men on their entry into 
Canada or their return into the United States.
    Ahmed Ressam of the LAX Millenium Plot \15\ used a false French 
passport to travel to Montreal where he lived for the next 4 years. In 
Canada he ``became interested in going to bin Laden's camps for 
training'' after ``friends returned to Montreal with stories about 
Osama bin Laden's `Jihad University' in Afghanistan.''\16\
---------------------------------------------------------------------------
    \15\ Most of this section was attained while I was counsel on the 
9/11 Commission, with supplemental research provided by Vinay Tripathi 
while I was a senior consultant for the Investigative Project on 
Terrorism on a to date unpublished report entitled ``An In-Depth 
Analysis of the Structure of Al Qaeda and Militant Islamic Terrorist 
Groups in the United States: The Enterprise of Terror in the United 
States'' (March 2005).
    \16\ ``Trail of a Terrorist: Introduction.'' PBS FRONTLINE. Oct. 
25, 2001 http://www.pbs.org/wgbh/pages/frontline/shows/trail/inside/
cron.html.
---------------------------------------------------------------------------
    In April 1998, after meeting with Abu Zubaydah in Pakistan, Ressam 
was sent to the Khalden camp in Afghanistan where he spent the next 5 
to 6 months. Khaldan had earned a reputation for its instruction in how 
to acquire, forge, and manufacture travel documents and credit cards, 
and Ressam learned well.\17\ At Khaldan Ressam also learned the other 
tradecrafts of a terrorist, the use of weapons, bombmaking, and urban 
warfare.
---------------------------------------------------------------------------
    \17\ USA v. Ressam, et al. WDWA 99-CR-666. ``Indictment.'' April 3, 
2001. See also Zill, Oriana. ``Crossing Borders: How Terrorists Use 
Fake Passports, Visas, and Other Identity Documents.'' Frontline. 
October 2001. http://www.pbs.org/wgbh/pages/frontline/shows/trail/etc/
fake.html; and USA v. MOKHTAR HAOUARI, et al. SDNY S4 00 Cr. 15. Cross-
examination of Ahmed Ressam, July 3, 2001 (transcript p. 549-551).
---------------------------------------------------------------------------
    Zubaydah himself was sufficiently impressed with Ressam's passport 
manipulation abilities to have apparently asked him to acquire 
additional Canadian passports for distribution to al Qaeda 
fighters.\18\ And it was Ressam's deft handling of fake travel 
documents that brought him to the attention of Khalid Sheikh Mohammed 
during his final visit to Pakistan. He would soon return to Canada (in 
January 1999) to pursue the plot to blow up Los Angeles International 
Airport.
---------------------------------------------------------------------------
    \18\ Zill, Oriana. ``Trail of a Terrorist: Crossing Borders: How 
Terrorists Use Fake Passports, Visas, and Other Identity Documents.'' 
PBS FRONTLINE. Oct. 25, 2001 http://www.pbs.org/wgbh/pages/frontline/
shows/trail/etc/fake.html.
---------------------------------------------------------------------------
    On December 14, 1999, a sweaty, nervous Ahmed Ressam was given a 
secondary inspection when he became reluctant to answer a basic 
question about his destination. He had just pulled off from a late-
arriving ferry at Port Angeles, Washington. In answer to questions, 
Ressam pulled out fake documents--including a Canadian passport--in the 
name of Beni Antoine Noris. This was not the first time Ressam was 
asked questions. Ressam had already undergone a cursory examination by 
a U.S. immigration officer in Vancouver, who had been suspicious of 
Ressam as he was the last to board an already-late ferry. The 
examination included a cursory look in the trunk (but not the tire well 
where the explosives materials were hidden) as well as a run of the 
name on the passport (Noris) against the INS terrorist database without 
getting a hit. Although a subject by the name of Ressam was wanted in 
Canada, neither that name nor the alias Noris was in the INS database. 
Ressam was admitted for boarding.
    Ressam's trial testimony provides valuable insight into one 
terrorist's ability to circumvent border security around the world. He 
described how al Qaeda supplemented its global terrorist network with 
operatives trained in Afghanistan and thereafter embedded in satellite 
locations. In France, Canada and elsewhere, Ressam operated in 
conjunction with fellow terrorists stationed in Europe. He traveled 
extensively using doctored travel documents that allowed him to take on 
a variety of identities, including the one he used in Canada--that of a 
refugee seeking asylum and a new home. In actuality, Ressam was a 
member of the Armed Islamic Group \19\ (GIA, or Groupes Islamiques 
Armes).
---------------------------------------------------------------------------
    \19\ Zill, Oriana. ``Crossing Borders: How Terrorists Use Fake 
Passports, Visas, and Other Identity Documents.'' Frontline. October, 
2001. http://www.pbs.org/wgbh/pages/frontline/shows/trail/etc/
fake.html.
---------------------------------------------------------------------------
    Ressam testified that manufacturing and trafficking fraudulent 
travel documents served several functions, providing entree to the 
target country, a means to make money, and a way to stay embedded in a 
given location. From 1994 to 1998, Ressam lived in Montreal, actively 
robbing tourists--some thirty to forty times, by his count--of money 
and travel documents. Ressam described his livelihood: ``I used to take 
the money, keep the money, and if there [were] passports, I would sell 
them, and if there [were] Visa credit cards, I would use them up, and 
if there were any traveler's checks, I would use them or sell 
them.''\20\ Though Ressam was arrested four times for his thievery, he 
was convicted just once; and he was punished with a fine, not jail 
time.\21\
---------------------------------------------------------------------------
    \20\ USA v. Ressam, et al. WDWA 99-CR-666. ``Indictment.'' April 3, 
2001.
    \21\ Ibid. 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Photo Caption.--Trinidad and Tobago is on lower right. Below is 
Venezuela. Antigua and Barbuda is mid-right.
      terrorist travel between the united states and the caribbean
    Trinidad and Tobago, a rich tourist island located off the 
northeast coast of Venezuela, had a failed attempted Islamic extremist 
coup in July 1990. Fifteen percent of the island is Muslim. The island 
is also to the immediate northeast of Venezuela, which has long 
flaunted its contempt of the United States and support for terrorist 
activity, including reported travel facilitation to terrorists.
    In June 2007, four men, three from Guyana (sharing a southeast 
border with Venezuela) and one from Trinidad were arrested for their 
plot to destroy fuel lines that support JFK International Airport. One 
of the suspects reportedly said the airport was picked due to the 
esteem held in the United States for John F. Kennedy. The FBI was 
involved with the case since January 2006, when one of the four alleged 
plotters, Russell Defreitas, unknowingly attempted to recruit an FBI 
informant in an attack within the United States. Its goal was to be 
more spectacular than September 11. Defreitas had previously been a 
baggage handler at JFK airport and assured his co-conspirators that he 
knew the airport intimately.
    ``This was a very determined group that engaged in precise and 
extensive surveillance, surveillance that included physical 
surveillance, photograph surveillance, video surveillance, and even the 
use of the Internet to obtain satellite photographs of the JFK 
facility,'' according to FBI agent Mershon who had investigated the 
case.
    Abu Bakr is a former policeman who founded the violent Jama'at al 
Muslimeen (commonly referred to simply as the Jamaat). A Trinidad 
native, he formed the group after studying in Canada where he converted 
to Islam while a student there. His group attempted a coup against the 
Trinidad government in 1990. The group, especially with Abu Bakr as 
leader, had a close relationship to Libyan leader Muammar al Qaddafi. 
Most recently, after threatening violence and extortion against fellow 
Muslims, he was convicted in March 2006 for attempted murder of former 
organization members. A search of his headquarters found a cache of 
weapons and equipment. He was long considered to be a crime kingpin in 
Trinidad, and his rivalries spun off a number of other radical Islamic 
groups.
    Other groups active on the island are Waajihatul Islaamiyyah (The 
Islamic Front) and the Jamaat al Murabiteen. The Waajihatul Islaamiyyah 
group has links to al Qaeda, Hamas, Egyptian Islamic Jihad and Jemmah 
Islamiyyah, the organization behind the Bali beachfront bombing that 
killed close to 200 people. In December 2002, the FBI, CIA and British 
SAS agents were in Trinidad investigating separate reports about 
specific plans to attack local U.S. and British interests by the head 
of The Islamic Front, Umar Abdullah, who had reportedly been 
threatening U.S. and British interests on the island.
    Abdullah publishes a monthly newsletter that pontificates on behalf 
of Osama Bin Laden, Al Qaeda, the Taliban, a ``Jihad'' (Holy War) 
against the United States and Britain and the setting up of an Islamic 
State here.
    There were also reports prior and subsequent to 9/11 U.S.-sought 
Adnan El-Shukrijumah was living in Trinidad near schools that share his 
last name. (I had evidence while on the Commission that El-Shukrijumah 
may have tried to help 
9/11 pilots Atta and Jarrah with an immigration matter at the 
Immigration offices in Miami in May 2001. See 9/11 and Terrorist 
Travel, p. 30-31) In addition, two men with ties to Trinidad have been 
arrested in the United States. Keith Andre Gaude, a Jammat linked to 
bin Ladin, pled guilty on September 19, 2001 to unlawful possession of 
a machine gun. BATF officials stated he had come to Florida to ``buy as 
many as 60 AK-47 assault rifles and 10 MAC-10 submachine guns with 
silencers.''
    In 2002, Trinidad native and U.S. naturalized citizen Shueyb Mossa 
Jokhan was sentenced to 58 months in Federal prison for a ``jihad'' 
mission that included bombing an electrical power station and a 
National Guard Armory. According to the FBI, ``these attacks were then 
to be followed by a list of demands to be placed on the U.S. Government 
and other governments around the world. The defendants also sought to 
acquire AK-47 type assault weapons for their jihad training and 
operations, and sought to obtain the release from custody of an 
individual described as a `mujahedin' fighter committed to jihad.''
    Since 9/11, there have been reports of Al Qaeda members setting up 
shop in Trinidad, smuggling weapons and organizing cells.
    Antigua and Baruba were the home of John Lee Mohammed prior to his 
ten fatal shootings and three other near fatal shootings during a 
terrorist-style spree in the autumn of 2002. As a U.S. citizen, he had 
financially survived prior to coming to the United States by selling 
forged U.S.-accepted travel documents--driver's licenses and birth 
certificates.\22\
---------------------------------------------------------------------------
    \22\ Antigua and Barbuda Final Report of Task Force Investigation 
of John Allen Williams, a.k.a John Allen Mohammad. (Dec. 2003).
---------------------------------------------------------------------------
    Muhammed brought Lee Boyd Malvo and his three children into the 
United States under false names, and in at least 20 incidents forged or 
stole identities for clients, secured air travel, and provided 
documents in order to secure their travel to the United States. In some 
cases, he charged as much as $3,000. Muhammed forged documents for Lee 
Boyd Malvo's mother when she deserted her son, but when he was not 
paid, Malvo essentially was kept as collateral.
    With simply a birth certificate or baptismal record and a driver's 
license, Mohammed's clients, covered by the Western Hemisphere 
Exception for travelers from North, South or Central America or the 
Caribbean (but for Cuba), could easily pose as American citizens or 
citizens of one of the covered nations, and enter the United States.
    After the Task Force created by the Attorney General of Antigua and 
Baruba released its Final Report in December 2002, the GAO released two 
2003 studies about the ease of being admitted into the United States 
with counterfeit birth certificates and driver's licenses from Canada, 
Mexico, Jamaica and the Bahamas. According to the GAO, the ease of 
fraudulent entry using something other than U.S. passports for those 
claiming U.S. citizenship was not limited to Muhammed and his clients.
       terrorist travel and state-issued driver licenses and ids
    The 9/11 hijackers assimilated into the United States by attaining 
17 DLs from Arizona, California and Florida (four of which were 
duplicates) and 13 State-issued IDs from Florida, Maryland and 
Virginia. The hijackers then used those IDs for the purpose of renting 
cars, obtaining living quarters, opening bank accounts, and boarding 
aircraft on the morning of 9/11. We know that at least six hijackers 
total presented State-issued IDs on the morning of 9/11. The pilot who 
flew into the Pentagon, Hani Hanjour, had ID cards from four States: 
Florida, Maryland and Virginia, and an Arizona driver's license. The 
Pennsylvania pilot, Ziad Jarrah, had three IDs and an unverifiable ID 
when stopped for speeding 2 days prior to 9/11. Both pilots had 
obtained a Virginia ID by fraud.
    At the foundation of the 9/11 Commission ``terrorist travel'' 
recommendations on secure IDs was the basic understanding that 
terrorists will continue to easily assimilate within the United States 
as long as identity and identity document issuance processes are easily 
manipulated. The Commission stated:

    All but one of the 9/11 hijackers acquired some form of U.S. 
        identification document, some by fraud. Acquisition of these 
        forms of identifications would have assisted them in boarding 
        commercial flights, renting cars, and other necessary 
        activities.
    Recommendation.--Secure identification should begin in the United 
        States. The Federal Government should set standards for . . . 
        sources of identifications, such as DLs.
    Recommendation.--The President should direct the Department of 
        Homeland Security to lead the effort to design a comprehensive 
        screening system, addressing common problems and setting common 
        standards with system wide goals in mind. (p. 390, 387).
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Photo Caption.--State-issued IDs acquired by 9/11 hijackers, ``9/11 and 
Terrorist Travel'', p. 44.
    As the 9/11 Commission noted, there was only one 9/11 hijacker who 
did not obtain some form of U.S. identification, whether a State-issued 
DL, personal ID or both. Three of the five hijackers who crashed a 
plane into the Pentagon used fraudulently obtained licenses to board. 
The pilot of that plane had four IDs, all from different States, with 
at least one obtained by fraud. If REAL ID had been in effect in 2001, 
the 9/11 operational ringleader and pilot that conducted the first 
World Trade Center suicide, Mohamed Atta, would only have been 4 days 
from having had an expired license when he was pulled over for speeding 
violation on July 5, 2001.
    The 9/11 hijackers could have done the same today. It is still 
possible to obtain multiple licenses and IDs because identities are not 
verified. It's not only possible to game the system; it's likely, 
because States still don't exchange information with each other 
regarding those holding legitimate IDs. Police officers' hands are tied 
when they can't cross-check the ID they've been handed against any 
other information.
    The 9/11 hijackers are not the only terrorists we know of who have 
taken advantage of blind spots and weaknesses in ID issuance standards. 
One terrorist caught in 2001 on the northern border, Nabil al Marabh, 
had five DLs and a hazardous materials permit. He told authorities he 
frequently crossed the U.S.-Canadian border illegally. Mir Aimal Kansi, 
who killed two people outside CIA headquarters in 1993, got a Virginia 
DL despite being in the U.S. illegally. These same problems exist in 
many States today. As long as they do, terrorists will continue to take 
advantage of them.
    In addition to terrorists, criminals of all ilks--identity thieves, 
counterfeiters, deadbeat--and even underage teens seeking IDs to drive 
and drive, also use multiple IDs to hide their true identity from the 
law. In 2005 identity theft costs were at a staggering $64 billion, 
with $18.1 billion of that cost involving theft of a DL or ID. 
Individual consumers spend an average of 330 hours trying to undo 
identity theft and suffer $15,000 on average in losses. With REAL ID, 
identity theft will be much more difficult due to more robust, secure 
ID verification systems will protect consumers from identity thieves 
both during the application process and once the DL or ID is issued.
    The cards themselves will also be less susceptible to alteration, 
with three levels of security making the cards more tamper-resistant 
and easier for law enforcement to determine fakes. Counterfeiting 
remains alive and well. The accompanying photo is from a November 2007 
New York press conference whereby State and Federal authorities from 
seven different law enforcement agencies shut down six ID document 
mills in New York and made at least 128 arrests. The bust covered two 
criminal enterprises that together took in more than $1.5 million 
annually. Typical street price was $40-$60. The ring supplied 
fraudulent government identity document such as DLs, Social Security 
cards and resident alien cards. Suppliers were located in California 
and New York and forged documents from many States, Central America and 
Mexico.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Photo Caption.--Nov. 2007: New York State investigators alongside 
Federal authorities make arrests pending a 2-year investigation of two 
criminal counterfeiting enterprises spanning California to New York. 
Annual income was more than $1.5 million.
    Of particular note was the 2006 bust of the Castorena Family 
organization, which beginning in the 1980's operated a Mexico-based 
counterfeiting operation with cells in every major U.S. city. Annual 
sales in Chicago alone were $2.5 million. According to informants, they 
could make IDs ``as good as any we carry in our pockets.''
    The major source for the case, the stepdaughter of the 
organization's leader, asked her grandfather whether the organization 
sold to terrorists. She was told: ``We do this for business, for money. 
So it doesn't really count whether you're a Mohammed or a Julio or 
somebody else, as long as you have the money to pay for it. Terrorism 
is not our problem.''
                  western hemisphere travel initiative
    The tenets of WHTI were recommended by the 9/11 Commission to both 
tighten border security and streamline the inspection process, 
especially at our land ports of entry. We cannot afford our borders be 
bifurcated from the discussion of national security. Our economic 
strength as a Nation is only as strong as our national security. We 
must continue to work alongside our friends in the trade and tourism 
industries to achieve both security and facilitation.
    Assuring our border inspection process is fast, fair and complete 
is essential. It is also doable. We can do so if we prioritize how 
personnel, budgets and technologies are allotted and deployed with 
precision. The focus must be on how to properly train and equip our 
border inspectors so that procedures assure security of our borders are 
the most effective and least intrusive manner possible. I applaud DHS 
for not waiting despite continual efforts by special interests to delay 
implementation indefinitely, even if border inspection has waited for 
over 7 years for the significant upgrades in procedures and processes 
that should have been in place before 9/11 and forthcoming after 9/11. 
The new rules set in place for WHTI implements policy that shores up 
significant, large and sweeping holes in our border security so that 
all persons seeking entry into the United States show standardized 
travel documents or equivalents that can be vetted in a manner that 
assures identity and maximizes facilitation simultaneously.
    Remember where we are without WHTI: terrorists, drug dealers and 
those who abuse our lax security will continue to easily move through 
our border system with fake documents or no documents at all. The 
policy which has been in effect for years at our ports of entry, the 
Western Hemisphere Travel Exception, actually encouraging fraudulent 
entry by permitting any traveler claiming to be a U.S. citizen to talk 
their way into the United States or show any variety of identity 
document and claim to be from the Western Hemisphere. At least on the 
Canadian border, surveys from even a couple of years ago showed that 40 
percent of Canadians state they have not been asked to show any 
identification when seeking entry into the United States. In a 2006 GAO 
report, GAO proved the point when in 42 of 45 instances between 2003 
and 2006 GAO agents with counterfeit documents were able to flash false 
papers, or in a few instances, no papers at all, and enter the United 
States. Consider that number transferred over to attempted terrorist 
entries, and we have much to be concerned about until WHTI is fully 
rolled out.
    The only way to secure our borders is to make the terrorists choose 
between using a passport, and enhanced DL (where available), applying 
to a trusted traveler program, or enter illegally. As long as a 
terrorist can pose as a U.S. citizen or traveler from the Western 
Hemisphere by producing a birth certificate, fake DL that can't be 
verified, or other forms of identification that can be neither verified 
for identity, checked against a watchlist, or authenticated as a 
legitimate document, the Western Hemisphere Travel Exception is an open 
invitation to enter and embed in the United States with little 
disincentive not to try.
    We can argue all we want about how to achieve the balance between 
actual secure borders and facilitation of trade and commerce, but we 
cannot ever afford to say it is not important or there is a segment of 
our border apparatus to which security does not apply. Nor can we 
afford to unravel well-based recommendations of the 
9/11 Commission and passed into law by this body. Lest we forget that 
September 11 has taught us that secure borders are a matter of national 
security, and to secure them we must remember that terrorists will use 
any means to enter and embed into the United States.
    We must treat our borders as they truly are: as a marker of U.S. 
sovereign rights to assure that people who seek to come here are who 
they say they are, and will not cause a public safety or terrorist 
threat to American citizens. At the border, the passport or equivalent 
is the manner in which we as a Nation can better assure that the people 
who seek to come here do so for legitimate reasons. A top priority in 
all we do in border security must then be to assure practical, on the 
ground, security measures at our ports of entry and physical borders. 
However, let me be clear: we need not give up privacy nor hinder 
commerce to attain border security. In fact, with efficient and 
streamlined security, privacy and commerce are both enhanced. People 
and goods that should make it through the system in an efficient manner 
are more likely to be when the acceptable forms of travel documents go 
from dozens to a few known and easily authenticated, and trusted or 
registered traveler/commercial programs augment the system as an 
alternate to a federally issued travel document.
                                real id
    REAL ID is one of the only 9/11 Commission recommendations that 
relies heavily on the States for implementation. REAL ID might have 
curtailed 9/11. REAL ID can make a difference to our national security, 
our economic security and our public safety--but only if fully 
implemented and adequately funded. To make REAL ID a reality, however, 
requires more than either the Federal Government or the States can do 
on their own. It requires a partnership. It also requires an 
acknowledgement that securing our Nation's physical and economic 
integrity is not just a Federal responsibility; it is everyone's 
responsibility. It requires a further acknowledgement that the ability 
to verify an individual's true identity is one of the cornerstones of 
national and economic security.
    The REAL ID Act stipulates that in order for a DL or State-issued 
ID to serve as an identity document for entering a Federal facility--
including boarding a plane--the document must meet, at a minimum, the 
security standards spelled out in the act. Thus States are not required 
to issue licenses and IDs in accordance with REAL ID, but they could be 
subjecting their residents to considerable inconvenience if they do 
not. There is no intent under REAL ID for the Federal Government to 
assume responsibility for issuing DLs. That process should and will 
remain with each State. REAL ID seeks only to ensure that every State's 
process for issuing DLs and IDs--including the documents themselves--
meets specified minimum security standards.
    Today, the controversy around REAL ID has shifted significantly 
from one of the value of the law to its funding, and for good reason. 
With only $79 million available for 50 States and 6 jurisdictions to 
meet initial compliance deadlines in a year and a half, this Congress 
needs to take the funding of REAL ID seriously. If ever there was a 
domestic funding emergency, REAL ID represents one of significance.
Debunking Myths About REAL ID
    Myth.--REAL ID is a Federal imposition, with little to no 
connection to State efforts to improve ID issuance.
    Fact.--REAL ID was passed into law based on the States' own Secure 
Document Framework developed by AAMVA after the States acknowledged 
post 9/11 that the current State DL issuance system is deeply flawed in 
its ability to generate IDs both secure in their content and 
production. Such deep weaknesses threaten national and economic 
security, public safety, and privacy.
    On October 24, 2001 the American Association of Motor Vehicles 
Administrators (AAMVA)--an organization promoting information exchange, 
uniform practices and reciprocity, with representatives from every U.S. 
and Canadian jurisdiction--passed a resolution to form a special task 
force to enhance the security and integrity of the DL and ID issuance 
processes. AAMVAnet already supported the Commercial Driver License 
Information System and provides connectivity for such things as SSN 
checks by DMVs, and AAMVA's leadership in setting standards for bad 
drivers made them the logical choice for taking on issues related to 9/
11.
    Prior to 9/11, AAMVA had a significant leadership role that 
included petitioning Congress in 1996 to mandate minimum standards for 
DLs. From 1999 to 2001, AAMVA worked with the National Highway 
Transportation Administration (NHTSA) and Congress toward creation of 
the Driver Record Information Verification System (DRIVerS). So when 
AAMVA went to work on creating a special task force to deal with the 
panoply of issues involved in creating a more secure ID issuance 
framework, the organization had the ability and credibility to make a 
difference. And they did. Their work became the foundation for the 
technical requirements of the REAL ID Act.
    The REAL ID Final Rule, issued on January 11, 2008, has responded 
to thousands of comments by States and other stakeholders and provided 
a new set of compliance deadlines which the National Governor 
Association acknowledges as reflective of their concerns and 
suggestions. All States are now set up to comply, with all States 
having been issued an extension to comply with the initial benchmarks 
set out by the Rule of January 1, 2009 instead of the law's deadline of 
May 11, 2008. The relaxation of the timeline to comply has resulted in 
a reduction of estimated costs by DHS from about $11 billion burden on 
the States to a $3.965 billion requirement spread over 11 years, or 
about $360 million per year to implement.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Photo Caption.--9/11 hijacker Ahmed al Ghamdi, shown above, checked in 
at Logan Airport in Boston on the morning of 9/11, using his 
fraudulently obtained VA ID card.

    The Driver License/ID Security Framework that emerged from the 
AAMVA Special Task Force was detailed and comprehensive; that Framework 
became the backbone for REAL ID. The outline of the task force 
responsibilities is worth repeating as it shows how AAMVA--and thus the 
State DMVs--were well aware and desirous of fixing the multiple 
vulnerabilities in State ID issuances systems. In some ways, then, REAL 
ID was simply a Federal bow to the States' own work in this area. 
AAMVA's ``Uniform Identification Subcommittee'' divided the issues into 
sub-categories. What is interesting is that despite the permutation of 
the mission statements from these subcommittees to the AAMVA Security 
Document Framework, to REAL ID, to the Proposed and Final Rule, much of 
the language and policy statements have remained relatively unchanged.
    Another interesting aspect of AAMVA's tasking was a group 
established just to deal with enforcement issues, including those 
treating/ID fraud, and determine increased penalties for dealing with 
such fraud. A significant justification for REAL ID is that by setting 
minimum standards as a foundation in both the verification of identity 
and card production processes, security is built into all State 
systems. This will make law enforcement activity more effective while 
at the same time discouraging fraud. As Chuck Canterbury, National 
President of the Fraternal Order of Police stated in a Feb. 21, 2007 
letter to Senate Majority Leader Harry Reid:

    [REAL ID] is very much of an officer safety issue. Law enforcement 
        officers need to have confidence that the documents presented 
        to them to establish the identity of a given individual are 
        accurate. Officers rely on these documents during traffic stops 
        and other law enforcement actions to access information related 
        to that individual's criminal history. No police officer wants 
        to be in the dark about the fact that he may have detained a 
        wanted or violent criminal who has simply obtained false 
        identification. This places both the officer and the public he 
        is sworn to protect in greater danger. For this reason, the FOP 
        will strongly oppose any bill or amendment that would repeal 
        the REAL ID Act.

    Below is a chart that shows that the policies advocated by the 
States via AAMVA's 2001 working groups remains a strong influence on 
REAL ID policies advocated today by DHS and also influenced by the 
National Governors' Association and National Conference of State 
Legislators. This chart reflects where AAMVA started in 2001 as closely 
tied to REAL ID Final Rule.\23\
---------------------------------------------------------------------------
    \23\ Janice Kephart, REAL ID Final Rules: a Summary (Feb. 21, 2008) 
was used for column three. Found at http://911securitysolutions.com/
index.php?option=com_content&task=view&
id=154&Itemid=38.

------------------------------------------------------------------------
                                   2001 AAMVA Secure   2008 DHS REAL ID
   Secure ID Feature Tasked by     ID Issuance Task     Final Rule for
              AAMVA                Force Assignments  Secure ID Issuance
------------------------------------------------------------------------
Model Legislation...............  ``Develop model     REAL ID is that
                                   legislation to      legislation.
                                   assist States in
                                   implementing the
                                   overall package
                                   of Uniform
                                   Identification
                                   Standards''.
Process and Procedures..........  ``Gather and        Section 37.01:
                                   incorporate all     REAL ID is
                                   deliverables of     applicable to
                                   the Uniform ID      States and U.S.
                                   Subcommittee        territories that
                                   (Task Groups)       choose to issue
                                   into one Model      DLs in compliance
                                   Program. This       with REAL ID, and
                                   model program       IDs not in
                                   will include        compliance of
                                   minimum             REAL ID.
                                   requirements,      The Rule sets out
                                   best practices      minimum
                                   and model           requirements to
                                   legislation to      support a uniform
                                   support a uniform   and secure DL and
                                   and secure DL and   identification
                                   identification      card system for
                                   card system for     Motor Vehicle
                                   motor vehicle       Agencies.
                                   agencies in the
                                   U.S. and
                                   Canada.''
Driver License Agreement........  ``The DLC/NRVC
                                   (Driver License
                                   Compact/Non-
                                   Resident Violator
                                   Compact) Joint
                                   Compact Executive
                                   Board has been
                                   asked to explore
                                   enhancing the
                                   newly created
                                   Driver License
                                   Agreement (DLA),
                                   a voluntary DL
                                   compact between
                                   States, to
                                   include
                                   requirements
                                   established for a
                                   more secure DL/ID
                                   issuance
                                   system.''
DRIVerS Infrastructure..........  ``The Driver
                                   Record
                                   Information
                                   Verification
                                   System (DRIVerS)
                                   task group will
                                   be charged with
                                   creating an all
                                   driver pointer
                                   system, to keep
                                   bad drivers off
                                   the road. Simply
                                   put, DRIVerS will
                                   direct a State
                                   where to find and
                                   accurately verify
                                   someone's driving
                                   history in
                                   another State. ''
------------------------------------------------------------------------
Acceptable Documents............  ``Validate and      Sections 37.11
                                   update the          (Identity
                                   existing            Verification) and
                                   acceptable ID       37.13 (Document
                                   document list for   Authentication)
                                   the proof/          require that an
                                   authentication of   applicant provide
                                   specific personal   sufficient
                                   information, such   documentation for
                                   as, name, date of   a State to verify
                                   birth (DOB),        identity and
                                   legal presence,     authenticate
                                   etc. and evaluate   documents
                                   the utilization     presented for the
                                   of foreign          purpose of
                                   documents for the   establishing
                                   same purpose.       identity and
                                   Phase two will      includes specific
                                   result in a         personal
                                   recommendation      information such
                                   for document (DL/   as name, DOB,
                                   ID) validity        legal presence
                                   periods in          and use of
                                   relation to legal   documents,
                                   status/validity''.  including foreign
                                                       documents, for
                                                       that purpose. An
                                                       ID document list
                                                       is provided.
Residency.......................  ``To develop a      Lawful Presence is
                                   definition of       defined in 37.03,
                                   residency/          and the procedure
                                   domicile with and   for determining
                                   without a legal     lawful status for
                                   presence            the purpose of
                                   requirement for     driver licensing
                                   the purpose of      is found in
                                   driver licensing    37.13. Lawful
                                   (establishment of   status must be
                                   the driver          checked in SAVE,
                                   control record)     Section
                                   and                 37.13(b)(1). The
                                   identification.''   issuance with or
                                                       without legal
                                                       presence is
                                                       covered by
                                                       Section 37.21,
                                                       Temporary or
                                                       Limited Term IDs
                                                       and in Section
                                                       37.71, Non REAL
                                                       ID DL or ID.
------------------------------------------------------------------------
Verification....................  ``Identify and      Again, methods for
                                   establish methods   verifying
                                   for verifying       (authenticating)
                                   documents used to   documents are
                                   establish           covered by
                                   identity of an      Sections 37.11
                                   individual          and 37.13.
                                   applying for a DL   Section 37.31
                                   or identification   provides
                                   card.               requirements for
                                   Verification of     source document
                                   identity may        retention.
                                   include, but is     Section 37.33
                                   not limited to,     sets out minimum
                                   full legal name,    requirements for
                                   date of birth,      information held
                                   Social Security     by DMV databases.
                                   Number (when        Sections
                                   applicable), and    37.41(b)(2) set
                                   residency and/or    out security
                                   legal presence''.   requirements for
                                                       personally
                                                       identifiable
                                                       information.
Fraudulent Document Recognition.  ``To assist         Section
                                   jurisdictions       37.41(b)(5)
                                   with the formal     requires employee
                                   training of motor   fraudulent
                                   vehicle employees   document training
                                   and law             and security
                                   enforcement in      awareness
                                   the recognition/    training.
                                   detection of
                                   fraudulent
                                   identification
                                   documents.''
------------------------------------------------------------------------
Card Design Specifications......  ``Deals with        Section 37.15 sets
                                   physical and        out minimum
                                   encoded features    security
                                   of the DL/ID        requirements to
                                   document.           harden the DL or
                                   Features include    ID but assures
                                   security            flexibility,
                                   elements, card      based on comments
                                   layout, printed     received during
                                   and encoded data,   rulemaking.
                                   and machine-        Section 37.17
                                   readable            lists card
                                   technologies. It    surface
                                   is our hope that    requirements and
                                   this effort         37.19 the machine
                                   produces a          readable zone
                                   standard for the    requirement.
                                   DL document that
                                   specifies minimum
                                   data and minimum
                                   technologies to
                                   be used on the DL/
                                   ID document''.
------------------------------------------------------------------------
Internal Controls...............  ``To identify best  Sections 37.41 to
                                   practices for       37.45 set out
                                   internal fraud      controls for
                                   control and         physical security
                                   prevention          of production
                                   measures''.         facilities;
                                                       employee
                                                       background checks
                                                       and access
                                                       control; requires
                                                       a State to submit
                                                       a plan on
                                                       preventing access
                                                       to personally
                                                       identifiable
                                                       information; and
                                                       a separate report
                                                       on safeguarding
                                                       IDs in
                                                       coordination with
                                                       law enforcement.
------------------------------------------------------------------------
Oversight Compliance System.....  ``To review         Sections 37.51 to
                                   current             37.65 set out in
                                   procedures for      detail procedures
                                   the oversight and   for determining
                                   compliance of       State compliance.
                                   Federal and State
                                   programs and to
                                   develop a process
                                   for compliance to
                                   AAMVA standards
                                   regarding DL/ID
                                   Processes/
                                   Procedures''.
------------------------------------------------------------------------
Unique Identifier...............  ``Developing a way  <bullet> Section
                                   to uniquely         37.29 sets out
                                   identify an         the ``one driver
                                   individual such     one license''
                                   that:               rule designed in
                                    <bullet> A         part to verify
                                   holder will have    driver licensing
                                   no more than one    in another State.
                                   (1) DL/ID card      This helps get
                                   and record;         out the
                                    <bullet> authori   underlying
                                   zed users can       principle of
                                   verify that the     ``keep bad
                                   holder of a DL/ID   drivers off the
                                   card is the         road'' as
                                   individual to       referred to in
                                   whom the card was   DRIVerS
                                   issued; and         infrastructure
                                    <bullet> an        above.
                                   individual's         <bullet> Support
                                   driver record       ed by document
                                   contains only       security
                                   information that    requirements in
                                   pertains to that    Section
                                   individual.         37.41(b)(2) and
                                                       source document
                                                       retention Section
                                                       37.31.
------------------------------------------------------------------------

    Myth.--REAL ID creates a national ID and is a Federal mandate.
    Fact.--The driver's license is the most common form of ID used in 
the United States today, accepted for everything from opening a bank 
account to boarding a plane to picking up movie tickets with a credit 
card. Securing an already widely used credential makes good sense. Each 
State will still issue many varieties of REAL ID compliant--and if they 
choose--non-compliant IDs. REAL ID does not affect States' right to 
decide who is eligible for a DL or ID; that decision remains with each 
State. There is thus nothing ``national'' about such issuance. If 
anything, REAL ID can be said to obviate the need for a national ID.
    One example of how REAL ID does not create a national ID is that 
the benchmarks do not mandate anti-counterfeiting features of the card. 
Instead, under Section 37.15 of the Final Rule, anti-counterfeiting is 
described as follows:
    37.15(c) Three levels of security are required to detect false 
        cards:
      Level 1 requires an ``easily identifiable visual or tactile 
        feature'' for cursory examination without any aids.
      Level 2 is a feature detected by ``trained inspectors with simple 
        equipment.''
      Level 3 is a feature only detectable by forensic inspectors.
    To meet these security levels States have numerous choices from a 
large variety of vendors. The Rule simply states that the card 
technologies must not be commonly available to the general public, must 
be multilayered, and must be able to be integrated into the cards. 
There is nothing about these requirements that creates one type of card 
issued by one government entity; in fact, these rules are designed to 
give States the choices they need to make to achieve fiscal 
responsibility and security in equal doses.
    Myth.--REAL ID will create a hackable, national database.
    Fact.--There is no aggregation of personal data into ``one huge, 
hackable database operated by the Federal Government,'' as some claim. 
REAL ID calls for the States to operate secure databases that are 
searchable by other authorized parties such as motor vehicle agencies 
and law enforcement. The Act also calls for crosschecking applicants' 
information with Federal and State databases to better authenticate 
credentials. No actual information is shared between these databases, 
just simply ``yes'' or ``no'' answers, and there is no access to the 
actual information that stands behind queries.
    Further, the Federal Government does not hold applicants' 
information; in fact, the REAL ID Final Rule requires that applicant 
information be protected by each State. Nor does the Federal Government 
network the databases together. The databases are likely to be 
networked to the States by an AAMVA secured network, for which DHS has 
requested fiscal year 2009 funding of $50 million for further upgrades. 
Most of these databases are currently used by States already to verify 
identity in a variety of ways--with no privacy complaints. Thus the 
Federal Government will not hold individual applicants' information, 
and the notion that REAL ID would create a single Federal database is 
completely erroneous.
    Myth.--REAL ID invades privacy.
    Fact.--REAL ID protects privacy by ensuring that people are who 
they say they are. The information contained on a REAL ID license will 
be the same as what is required by most States today. That information, 
such as a digital photo, name, permanent address, age, height and 
weight, is widely available and does not implicate privacy concerns. 
REAL ID licenses are not required to contain RFID technology, biometric 
fingerprint information, or Social Security numbers.
    The Final Rule supports privacy of personal information in a number 
of areas, including protection of personally identifiable information; 
access to information by employees; and securing production facilities.
    Best practices on securing privacy have existed in the DL arena for 
years and build on the Commercial Driver License Information System 
(CDLIS) and National Driver Register (NDR) database created in 1986. 
These databases together have been servicing 45 States for 20 years, 
and REAL ID does not even go so far as creating a new database. Even 
so, there have been no complaints about intrusions on privacy or 
identity theft with either of these databases. One reason why is 
because Federal law already protects the use of such data under the 
Driver's Privacy Protection Act of 1994. This law restricts how DL 
information can be used by States, barring States and their employees 
from selling or releasing personal information such as SSNs, images, 
addresses, phone numbers and birthdates. Until that law was passed, 35 
States had such information public and many made money off the sale of 
such information to all varieties of private enterprise. Congress set a 
higher bar to protect privacy in the area of State-issued DLs then, and 
REAL ID 20 years later is a natural followup: not only securing data, 
but identities and the documents that support those identities as well.
    Also worthy of mention is that the Information Technology 
Association of America, who represents the largest producers of 
computer security systems--IBM, Microsoft, Hewlett Packard, Oracle and 
others--has concluded that REAL ID, if implemented, will further 
protect privacy. In a May 7, 2007 report, the ITAA stated that REAL ID 
will actually ``raises the bar on privacy for driver licenses'' because 
it sets higher benchmarks for data security; requires tougher identity 
adjudication; and builds on existing practice.
    REAL ID also provides greater protection of privacy, requiring 
background checks of DMV employees, secure productions sites of cards, 
alongside due respect to civil liberties. Just to be clear, there are 
no plans for an embedded RFID chip in REAL ID DLs. Enhanced DLs are a 
different species, designed for border crossers who also regularly use 
a DL, and who voluntarily choose to acquire an Enhanced DL with a chip 
readable for border crossing purposes.
    Myth.--The opportunities for identify theft will multiply 
exponentially.
    Fact.--A collateral positive side effect of REAL ID is that it will 
help curtail identity theft, not enable it. For legal residents, REAL 
ID requires stronger security features with the intention of driving up 
the cost of creating counterfeit ID documents and enabling law 
enforcement both working with DMVs and in the field to make a quicker, 
more reliable determination of whether an ID is legitimate or not.
    For criminals, terrorists and others who want to live in the United 
States for nefarious purposes or under false guise, obtaining a license 
or ID has been their ticket to acquiring legitimate cover for their 
illegitimate activities. Once our identity issuance systems and the IDs 
themselves are tightly secured, it will be much more difficult to 
obtain these ``tickets'' fraudulently.
                            funding real id
    A review of the Final Rule shows that the administration request 
does not adequately reflect the costs in the Final Rule as they pertain 
to State investment in order to become REAL ID compliant. That is the 
crux of the current debate. Six years after 9/11, we can no longer 
afford delays simply due to funding when acceptable rules are in place.
    After collecting thousands of comments from States and other 
interested parties, the Department of Homeland Security (DHS) issued 
final rules for the REAL ID Act in January 2008. All 56 U.S. 
jurisdictions meet initial REAL ID requirements and as of April 2, 
2009, have been granted an extension until December 31, 2009 by the 
DHS. That means that every jurisdiction will continue to have their DLs 
acceptable for official purposes after the May 11, 2008 deadline as 
mandated by Congress in the REAL ID Act of 2005.
    Funding for REAL ID under these circumstances is wholly inadequate. 
While Congress provided additional funding to implement REAL ID in 
fiscal year 2008 at $50 million, current REAL ID funding is at 
approximately $79 million in a separate fund created under the REAL ID 
Act for all U.S. jurisdictions.
    The DHS Final Rule places the cost to the States at $3.965 billion. 
With an 11-year implementation cycle, States need on average $360 
million per year to fund full REAL ID under their own estimates.
    In fiscal year 2009, the administration made a request to fund REAL 
ID at a total of $160 million, with $50 million going to USCIS for the 
identification verification ``hub'' that is likely to be expanded by 
AAMVA (as of now). The administration has made a separate request for a 
combined grant program for critical infrastructure/bomb prevention and 
REAL ID of $110 million. This proposed fund is neither dedicated to 
REAL ID nor does it reflect the costs to the States as set out by the 
Final Rule. Here is the relevant language as set forth by the 
administration:
    OMB fiscal year 2009 proposed budget numbers, p. 480:
    CITIZENSHIP AND IMMIGRATION SERVICES, Federal Funds, UNITED STATES 
        CITIZENSHIP AND IMMIGRATION SERVICES: For necessary expenses 
        for citizenship and immigration services, [$80,973,000] 
        $154,540,000; of which $100,000,000 is for the E-Verify program 
        to assist U.S. employers with maintaining a legal work force; 
        and of which $50,000,0000 is to support implementation of the 
        REAL ID Act to develop an information sharing and verification 
        capability with States.
    P. 516:
    National Security and Terrorism Prevention Grants ($110 million).--
        This program provides competitive grants to specific State and 
        local agencies to support proposals which address national 
        vulnerabilities identified by the Secretary as priorities. In 
        2009, the Secretary will invite States to submit project 
        proposals to support REAL ID implementation and buffer zone 
        protection for critical infrastructure. Final grant allocations 
        will be determined competitively by the Secretary on the basis 
        of how well proposals address identified national 
        vulnerabilities.
    In a March letter to the White House, the National Governors' 
Association (NGA) requested $1 billion on 2008 spring supplemental, 
citing compliance deadlines beginning in 2009. In addition, a group of 
seven Governors has told Secretary Chertoff that they want complete 
funding for REAL ID in the supplemental this spring of $1 billion: REAL 
ID is an emergency, as all States seeking compliance or approved for an 
extension (all but one so far) need to reach 18 benchmarks by January 
2009. Most are well on their way, but many lack sufficient funding to 
reach all 18 benchmarks by this date.

                         ESTIMATED COST OF REAL ID FINAL RULE OVER AN 11-YEAR PERIOD \1\
----------------------------------------------------------------------------------------------------------------
                                                               Millions    Millions    Millions of     Percent
                                                                 of $        of $        $ (2006        Total
                 Estimated Costs (11 years)                  ------------------------   dollars)   -------------
                                                                  7%          3%     --------------
                                                              Discounted  Discounted  Undiscounted  Undiscounted
----------------------------------------------------------------------------------------------------------------
Costs to States.............................................       2,879       3,413        3,965          39.9
Customer Services...........................................         636         804          970           9.8
Card production.............................................         690         822          953           9.6
Data Systems & IT...........................................       1,171       1,352        1,529          15.4
Security & Information Awareness............................         365         415          490           4.9
Data Verification...........................................           5           7            8           0.1
Certification process.......................................          11          13           16           0.2
Costs to Individuals........................................       3,808       4,814        5,792          58.3
Opportunity Costs...........................................       3,429       4,327        5,215          52.5
Application Preparation (125.8 million hours)...............       2,186       2,759        3,327          33.5
Obtain Birth Certificate (20.1 million hours)...............         348         440          530           5.3
Obtain Social Security Card (1.6 million hours).............          31          37           44           0.4
DMV visits (49.8 million hours).............................         864       1,091        1,315          13.2
Expenditures: Obtain Birth Certificate......................         379         479          577           5.8
Cost to Private Sector......................................           8           9            9           0.1
Costs to Federal Government.................................         128         150          171           1.7
Social Security card issuance...............................          36          43           50           0.5
Data Verification--SAVE.....................................           9          11           14           0.1
Data Systems & IT...........................................          65          74           82           0.8
Certification & training....................................          17          21           25           0.3
                                                             ---------------------------------------------------
      Total Costs...........................................       6,853       8,406        9,939         100.0
----------------------------------------------------------------------------------------------------------------
\1\ Source: DHS Final Rule, p. 221. http://www.dhs.gov/xprevprot/laws/gc_1172765386179. shtm.

    The total, undiscounted 11-year cost of the final rule is $9.9 
billion. Based on a total of 477.1 million issuances over the 11 years 
of the analysis, the average marginal cost per issuance for States is 
$8.30. Individuals will incur the largest share of the costs. More than 
58 percent of the costs (discounted or undiscounted) are associated 
with preparing applications, obtaining necessary documents, or visiting 
motor vehicle offices.
    The final cost to States and the Federal Government at $4.4 billion 
for complete implementation of REAL ID. States have to be compliant by 
2011, leaving only 3 fiscal years for reaching benchmarks set out for 
DHS, although the final implementation date is 2017.
    According to the Federal Government, their burden is priced at $171 
million. These costs cover Social Security Card issuance ($50 million); 
Data Verification via SAVE ($14 million); Data Systems & IT ($82 
million); and certification and training ($25 million).

    Ms. Sanchez. Thank you.
    I thank all the witnesses once again for their testimony.
    I will remind the members that they each have 5 minutes to 
question, in case they come back. I have to put that on the 
record.
    I will now recognize myself for questions.
    There has been a lot of debate on the security and privacy 
of the proposed pass cards, the enhanced driver's licenses and 
other WHTI-acceptable travel documents.
    Can you tell me specifically what your opinions are with 
respect to the security and the privacy of those proposed 
cards, if they are acceptable, if we need to change something 
on them? Maybe each of you can answer that.
    Mr. Phillips. I will defer to Liz on the license, but on 
the pass card, NEXUS card, SENTRI cards, there is absolutely no 
personal data in that card.
    The honorable Mrs. Christensen mentioned earlier that NEXUS 
was widely counterfeited and used, and that is not quite right.
    If anyone uses a trusted traveler card or the new pass 
card, there is simply a 9-digit number in that document that 
brings up the record in the CBP booth on the screen.
    So if anybody stole my card and tried to use it, even put 
their picture on my current card, my picture is going to come 
up in the booth and they can't use it.
    Second, there is no way that they can get--my name isn't in 
the card, my Social Security number, my birth date, it is not 
there. It is just this number.
    So it is not correct when people say wirelessly they could 
hijack data from reading your card.
    So I do feel it does need a machine-readable zone and they 
are going to be issuing a new card for NEXUS, SENTRI, called 
the trusted traveler card that is going to have a machine-
readable zone to make it even better, because it is true that 
the current card might be able to have someone put a fake 
picture on it. But they still couldn't use the card even if 
they did.
    Ms. Sanchez. Ms. Luce.
    Ms. Luce. Yes. Our card has an RFID chip that goes to a 
unique number. So when you come up to the border, it will 
bounce into our driver's license data, which brings up all the 
information that is on the card.
    But if anybody tried to take the information from the RFID 
chip, first of all, it is a Class C felony in the State of 
Washington. So that is something we have worked strongly with 
the ACLU to get in place this year.
    Second, there is no personal information they could have. 
It would be a unique number.
    I have an enhanced driver's license. I don't even know what 
my RFID number is. There is just no way you would ever know.
    Ms. Kephart. Let me address it from REAL ID. I think that 
this is a good way to do this.
    It is a little more complicated with REAL ID, because there 
are a number of different tiers of privacy arguments that have 
been made in regards to REAL ID. So let me just take a couple 
of them.
    First, under the final rule, every State has to protect 
their information and provide a security plan to DHS as to how 
personal information is going to be protected.
    Second, only the State will hold, as it does now, only the 
State holds personal data. No one else will have access to it.
    Third, there is no national database which links into the 
privacy claim. The databases are where they are, either in the 
Social Security Administration or the saved database, which 
issued for legal precedence, the vital events information is at 
each State. Those will be interstate exchanges.
    But these are more like red light-green light exchanges. Is 
this person who they say they are? Is this the correct 
birthdate? No information actually as to that person is given 
back.
    So privacy is protected that way, too, and, also, to 
mention the Driver's Privacy Protection Act, which has been in 
place since, I believe, 1986, if I have that right, has 
protected privacy information of drivers since that time.
    The commercial driver's license database, on the fourth 
point. The commercial driver's license information system also 
has been in effect for a large number of years. AMVA controls 
that, which is a private network.
    There has never been a privacy breach on that network ever 
that has been reported.
    So we have a pretty secure system in place. Of course, 
security of private information and personal information on the 
REAL IDs is really important, but there are a large number of 
tiers to protect that and while States need to still do their 
work to make sure it happens, I think it is on its way to 
having that issue solved in REAL ID, because there has been a 
lot of pushback on that issue and DHS has had to do a lot work 
in that area.
    Ms. Sanchez. Thank you. I appreciate your candid comments 
on that.
    The other issue we have is let's say that we get a good 
card together, I was very interested in the statistics that Mr. 
Phillips--not statistics, the length of time to process people, 
because, of course, we want to make it easy for the right 
people to cross borders, et cetera, or get into the country and 
we want to be able to stop the bad guys or people who aren't 
complying with our laws.
    So with respect to the port, especially the land port of 
entries, how do you feel, are they adequately staffed? Are they 
correctly operated and maintained?
    What changes do you think we could do, since we are 
changing these cards or making these cards or maybe going to a 
full card, ultimately, Mr. Phillips, and the REAL ID and the 
whole issue?
    What do you think we need to do at the particular land port 
of entries to be more efficient?
    Mr. Phillips. I would answer in two pieces. I really think 
that serious thought be given to do the document checks where 
people leave from.
    In other words, we ought to do it at the airport in London 
instead of when they land at JFK Airport. If we did it there, 
then inadmissible people would not have to be checked at our 
border. That is one change.
    At our own borders, under the current conditions, CBP is 
very responsive to making the changes that they have. The key 
is the RFID documentation to allow the document data to be in 
the possession of the officer before the person enters the 
primary booth.
    That is where you are saving is going to occur and in order 
to do that, we need the readers that were discussed earlier. 
They have got to be installed.
    I would hope that that project is going to be successfully 
achieved, and Mr. Jacksta will get lunch for it later on, I 
hope.
    It is critical. The readers are critical.
    Second, as far as, I think, Congressman Reyes' bill, we do 
need some staff additions to man the booths. It is nothing more 
angry than to arrive at a border which has 10 booths and six of 
them have an officer in it and four are empty.
    On the northern border, that happens. Sometimes on the 
southern border. They are pretty good about manning the booths, 
I think, on the southern border.
    But the key is the processing time per individual going 
through.
    Infrastructure is critical. There are certain ports on both 
sides of the country that need additional access, need 
additional facilities, where you can't process people properly. 
They are 40, 50, 60 years old in some cases.
    Most importantly on both borders is the key that 
infrastructure also includes road approaches. You can't just 
talk about a plaza and the building that you are processing. 
You have got to talk about the two-lane highway and make it 
three sometimes so you can put low-risk separately, as we have 
in Washington State on 
I-5.
    We should separate FAST trucks and low-risk individuals in 
passenger cars before they get to the plaza. Those are the 
three key issues.
    So it is the technology to utilize RFID-type documents, it 
is the ability to add some staff, some people, to man the 
booths when they need to be, and third is infrastructure 
changes both in the plaza, in the facility itself, and in the 
approach roads.
    Those would be the three things I would comment on.
    Ms. Sanchez. I would agree with that. I have the benefit of 
getting to cross the California-Mexican border and the biggest 
problem is always the approach and the infrastructure and 
getting in the right lane and people don't even know what lane 
they should be getting into, and we have something like 29 
lanes there or something.
    If you end up on the wrong side of the bridge you are never 
going to get over to your FAST track or anything else. So I 
think better signage and more open to be able to get into the 
right lane is definitely critical from that standpoint.
    Yes, Ms. Luce.
    Ms. Luce. In the State of Washington, at the Blaine border, 
there is a priority lane for the NEXUS traveler and it seems to 
me that the pass card is going to have the RFID chip and the 
EDL will have the RFID chip.
    Not all passports will, because they won't be brand new, 
but that those that do have an RFID chip, it would be great if 
they could all use the NEXUS lane and, that way, you could take 
the low-risk away and allow the border patrol officers to spend 
more time with those people who they can't verify as quickly.
    Mr. Phillips. Can I just make one point, please?
    Ms. Sanchez. You all get your chance, sorry.
    Mr. Phillips. Just to clarify. RFID, there are two kinds of 
RFID. There is proximity and vicinity.
    Unfortunately, because of ICAO rules in the world globally, 
all passports have to have a proximity chip, which means you 
have to take the passport, give it to an officer, he has to put 
it physically on a reader, and that is what takes 28 minutes, 
under the reality test of that. That is a proximity chip.
    Everything else is a vicinity chip and that is the one that 
takes 8 minutes, and NEXUS, of course, is faster than that.
    The key here is we envision three lanes at a border, a 
passport lane, an RFID vicinity lane, and a NEXUS lane. You 
don't want to mix the passports and the new vicinity chips in 
the same lane or else anybody with an EDL is going to be 
sitting behind passport people and it takes, again, 8 minutes 
versus 26, almost 3.5 times to do a passport lane.
    So that is part of the change that we have to think about 
as we--and CBP is thinking about that as they develop it.
    Ms. Sanchez. Ms. Kephart.
    Ms. Kephart. Well, I just wanted to add on something that 
could be done, because I have actually seen this done and it is 
very, very interesting.
    You can actually do real-time tactical modeling and 
simulation at the land ports of entry, where you are not only 
measuring how fast it takes to get through the border, but you 
can actually put the cameras up and depending on the traffic 
flows and the number of inspectors you have and a number of 
other factors, you can actually make a software model to have 
it tell the CBP officers who are on duty where they should be 
allocated, what lanes should be open, how many should be open 
for certain types of trusted traveler programs at the time or 
regular lanes or whatever, as long as they have the technology 
there.
    You make your border so much more efficient, depending on 
what kind of traffic you have coming in and what personnel you 
have at the time.
    So you can really help. The issues that have been 
traditional at the border with personnel and infrastructure not 
being sufficient, you can really help make that more efficient 
if you use real-time modeling and simulation models.
    So I would just throw that out there. I don't know if you 
have heard that before.
    Mr. Phillips. CBP has that and it is called the ``Wizard'' 
and they use that. It is very true.
    Ms. Sanchez. Thank you.
    I would like to ask, Ms. Luce, can you talk a little bit 
about the relationship your State has with DHS and getting the 
EDL okay'd and are there any particular challenging 
requirements of the program that you think are going to be are 
the most difficult for States to meet the mandate and platform 
that they have?
    Ms. Luce. Our actual experience with the Department of 
Homeland Security has been an absolutely fabulous one.
    In my testimony, I mention how they came out to the State 
to meet with us and not only did they meet with us, but they 
worked with us for pretty much a solid week and when we 
understood--and, actually, before they had come, they did not 
have an idea of how we produced a driver's license.
    So when they saw what we did and the interview technique 
that we have, I think that was something that really helped 
them to make them more comfortable with what we are doing.
    Then as we found out what the minimum requirements were for 
Homeland Security, we were able to see how we could modify what 
we do so we can meet their needs.
    So I think right now, when we did it, we have tried to keep 
our eye on REAL ID so that we didn't just spend a bunch of 
money as a State that later on probably we wouldn't be able to 
say that the EDL could be used for REAL ID.
    So that right, I think, is the biggest challenge, to have 
Secretary Chertoff say it is REAL ID plus, and yet we are 
unable to have that solidified in writing. It is a little 
frustrating.
    But you know what? We like working with Homeland Security 
and I think it is just a matter of us having a few more 
conversations.
    Ms. Sanchez. Let me ask you, have you talked with DHS at 
all about what type of oversight, what type of auditing, what 
type of----
    Ms. Luce. Yes.
    Ms. Sanchez [continuing]. Structure they are going to have 
to ensure that your card isn't counterfeited or isn't--have you 
already begun that discussion even though you don't have in 
writing that actually it meets their standard of REAL ID?
    Ms. Luce. Not for REAL ID, but when we came up with the 
EDL, yes, we had to find out what kinds of things we were going 
to do. Like I mentioned, we had to have our employees have a 
Federal background check. They have never had that before.
    They had to go through document training. Then we had a 
series of things that we had to meet and they come out and they 
do audit us, and we have right now about 25,000 appointments. 
We have issued over 9,000 licenses, and this since February 1.
    So there is a demand out there and we are happy to help our 
citizens have a low-cost easy way to cross the border and keep 
good relations with our Canadian neighbors and still have 
economy and trade to occur.
    So we are real pleased.
    Ms. Sanchez. Great. Well, as somebody who comes from a 
State that has a border, that is----
    Ms. Luce. Yes. We have been actually in conversation with 
the California DMV.
    Ms. Sanchez. Great, because it is always important to not 
reinvent the wheel and use lessons learned and best practices 
and that is why I am asking you and getting these answers for 
the record, because we want to implement, as soon as possible, 
in the safest manners possible, all of these cards and issues.
    Mr. Phillips, I have a question for you.
    It is important that DHS and the State Department do not 
implement WHTI without consulting local communities.
    What type of discussion has your organization had with DHS? 
Do you feel that they have incorporated your ideas or thoughts 
or concerns and that they were considered in and are reflected 
in the final rule?
    Mr. Phillips. Yes, ma'am. From the beginning, I was 
involved in the April 5, 2005 announcement of the Western 
Hemisphere Travel Initiative and right after that, we began to 
interact with both DHS and State Department, and I can 
factually report to you that Frank, who was here earlier today, 
and Woody have come up to the northern border, from east to 
west.
    We have had DHS from Alaska to Washington State all the way 
over to the eastern end of New York State. Whenever we have 
asked them to come and hear our concerns, discuss things, we 
support--I head up the border work group for PENWA on the 
western end of the country.
    We support what Liz has been doing. Liz came to Anchorage. 
DHS is there. Michael Chertoff came up himself in one instance.
    So I find them very open to discussion. My biggest concern, 
Congresswoman, was the fact that I think the press tended to 
hijack this announcement and made it sound like it was for the 
bad guys and it is a passport and it is a bad thing, and it 
should have been and should be today a public outreach that 
says this is an intent to take low-risk people, give them a 
secure document and facilitate their ability to cross the 
border into Mexico-United States and into Canada-United States.
    That is the bottom line. The misperception out there is 
very still a bit negative, although we are beginning to go 
positive, I think.
    Ms. Sanchez. In respect to the final rule, Department of 
Homeland Security estimates its foregone border crossing, 
attributable to WHTI, is less than 1 percent impact on the 
regional economy.
    Do you agree with that analysis? In other words, once we 
get WHTI done and everything, that it is going to have less 
than 1 percent impact?
    Mr. Phillips. The perception here is that when it started, 
the concern you have is will people stop traveling and, again, 
this misperception has caused a very terrible disconnect in 
tourism and visitation since 2005.
    People don't understand. They thought they had to have a 
passport to cross the land border when the air rule started. So 
there has been a disconnect. There has been negativism, more 
serious than one could understand.
    But once it is implemented, it is not going to be a 
negative. It is going to be a positive for the local economies 
and I believe that this passage of time I just talked about--
think about 65 minutes to 8 minutes, the gas that is saved, the 
gallons, thousands, millions of gallons of gas, the time of the 
public, the fact that the bad guys are going to be more caught 
than they are today, and the fact that trade and purchasing and 
buying and visitation and tourism will be enhanced.
    I think it is going to be a positive effect. When you do 
your post-economic study, I believe that if you look at WHTI in 
2010 and 2011, you are going to find a very positive effect, 
not a negative one, in my belief.
    Ms. Sanchez. Ms. Kephart, do you have any comments on that?
    Ms. Kephart. On what WHTI's effects on the local economy? 
My belief has always been, coming out of the Commission, our 
emphasis was always on facilitation of the low-risk traveler 
and maximizing our ability to catch the high-risk or the 
terrorist or the criminal.
    In terms of the effect on the local economy, I think I have 
to agree with Mr. Phillips that once you start a very much more 
efficient process, remember, we have had serious inefficiencies 
on our borders for two decades.
    Once we get technology that can work together better and we 
have programs where people can enroll and make their way 
through the borders quicker--and DHS just rolled out this past 
week the new global entry, which will be an expedited traveler 
for the international traveler, the U.S. citizen.
    These programs all go a long way to really, I think, 
helping us be efficient in our border control. There is nothing 
more important to us than giving the border inspector time to 
inspect the people that really need to be inspected.
    So I think these are good things all around.
    Ms. Sanchez. Great. Thank you.
    Well, those are the questions that I have had. I am sure 
that the members who were not here are going to have some 
questions for you and they will be submitting them in writing 
to you. I hope that you will get to them quickly and turn them 
around to us.
    I thank you for your valuable testimony and your time 
today.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 6:04 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

   Questions From Chairwoman Loretta Sanchez for Kathleen Kraninger, 
 Deputy Assistant Secretary for Policy, Screening Coordination Office, 
                    Department of Homeland Security
    Question 1. In your testimony, you stated that the Western 
Hemisphere Travel Initiative (WHTI) land and sea final rule reflects 
extensive consultation with stakeholders including border communities. 
What are the major differences between the Proposed Rule and the Final 
Rule published last month?
    Answer. No response was received at the time of publication.
    Question 2. Without RFID readers at the hundreds of other ports of 
entry into the United States, most of the WHTI-compliant cards would 
essentially be flash passes. What is the schedule for providing RFID 
readers to our ports of entry? What is the process for reviewing a 
traveler's documents if the RFID readers are unavailable?
    Answer. No response was received at the time of publication.
    Question 3. Both the Departments of Homeland Security and State are 
launching robust communications campaigns for WHTI implementation at 
land POEs. Can you describe specifically what you have planned and what 
you are doing different to prevent the mass confusion about the 
immediate need for passports that occurred during implementation of 
WHTI for air travel?
    Answer. No response was received at the time of publication.
    Question 4. The success of WHTI will be contingent, in part, on the 
ability of the Department to carry out a number of activities in the 
year leading up to full implementation on June 1, 2009. With the change 
of administrations occurring in the near future, many policies and 
procedures might change at the Department. What guidance do you have in 
place to ensure a successful transition for WHTI?
    Answer. No response was received at the time of publication.
    Question 5. The committee has been informed by both information 
technology specialists and privacy advocates that the RFID technology 
used in some of the WHTI-compliant documents is vulnerable to 
``skimming'' and other security breaches. Nonetheless, the National 
Institute for Standards and Technology (NIST) has certified this 
technology to meet or exceed the relevant security standards and best 
practices as specified in statute. What certifications made by NIST 
demonstrate that WHTI-compliant travel documents are not vulnerable to 
``skimming''?
    Answer. No response was received at the time of publication.
Questions From Chairwoman Loretta Sanchez for Robert Jacksta, Executive 
 Director, Traveler Security and Facilitation, U.S. Customs and Border 
              Protection, Department of Homeland Security
    Question 1. In your testimony, you stated that the Western 
Hemisphere Travel Initiative (WHTI) land and sea final rule reflects 
extensive consultation with stakeholders including border communities. 
What are the major differences between the Proposed Rule and the Final 
Rule published last month?
    Answer. As stated in the Proposed Rule, the Department was very 
interested in comments on alternative approaches for specific groups of 
travelers. The policy decisions in the Final Rule reflect the input DHS 
received from the public and stakeholders. The changes for specific 
groups of travelers include: the full development of special provisions 
for children under 16 years of age and groups of children under 19 
years of age. In the final rule, U.S. and Canadian children under 16 
will be required to present only proof of citizenship. Groups of 
children, ages 18 and under, who are traveling with parental consent 
with public or private school groups, religious groups, social or 
cultural organizations, or teams associated with youth sport 
organizations that arrive at U.S. sea or land ports-of-entry in an 
official group and accompanied by an adult affiliated with the 
organization, will only be required to present proof of citizenship. 
DHS also committed in the final rule to work with federally recognized 
Native American tribes and communities on the development of a WHTI-
compliant enhanced tribal card. DHS also agreed to accept the INAC 
(Indian and Northern Affairs Canada) card issued by the government of 
Canada when presented by Canadians seeking to enter the United States. 
Additionally, DHS will work with the States and Canadian provinces on 
the development of enhanced driver's licenses as WHTI-compliant 
documents.
    Question 2. Without RFID readers at the hundreds of other ports of 
entry into the United States, most of the WHTI-compliant cards would 
essentially be flash passes. What is the schedule for providing RFID 
readers to our ports of entry? What is the process for reviewing a 
traveler's documents if the RFID readers are unavailable?
    Answer. Currently, CBP has technology in place at virtually all 
air, land and sea ports of entry that will read any travel document 
with a machine-readable zone, including passports, border crossing 
cards, trusted traveler cards and the new passport card. All CBP 
officers are currently trained in the use of this technology. This 
means our ports of entry can accept passports, passport cards and all 
WHTI-compliant documents today.
    In preparation for full implementation, DHS awarded a contract on 
January 10, 2008, to begin the process of deploying vicinity RFID 
facilitative technology and infrastructure to 354 vehicle primary lanes 
at 39 high-volume land ports, which process 95 percent of land border 
traveler crossings. Site surveys will be completed by the end of May 
2008. This summer, we will begin construction at land border locations 
with the installation of the integrated solution commencing shortly 
thereafter. Deployment will continue with completion scheduled for 
spring 2009.
    Question 3. Both the Departments of Homeland Security and State are 
launching robust communications campaigns for WHTI implementation at 
land POEs. Can you describe specifically what you have planned and what 
you are doing different to prevent the mass confusion about the 
immediate need for passports that occurred during implementation of 
WHTI for air travel?
    Answer. DHS is keenly aware of the impact these very important 
issues have on local communities and their economies. CBP remains 
committed to ensuring a smooth transition and mitigating any negative 
impact on legitimate trade and travel. DHS has moved aggressively to 
ensure that key audiences are aware of the new policies, and of the 
rationale behind them as part of our ongoing effort to make America's 
borders even more secure and to ensure that commerce is not 
unnecessarily impeded by these important changes.
    The outreach initiative will accelerate and expand in the coming 
weeks and months. We are mindful that WHTI can represent a significant 
social and cultural change for border communities, and that it is in 
our best interest to use this change as an opportunity to encourage 
trade and travel, which are vital to the economic interests of the 
United States as well as our neighbors.
    On February 4, 2008, CBP awarded a Public Relations Contract to 
Elevation, LTD., to alert and educate audiences in both the United 
States and Canada about upcoming modifications. The Public Relations 
firm will create a comprehensive plan to proactively communicate the 
new requirements and document options to the traveling public. We 
estimate the contract to be worth $10-$15 million over the next several 
years.
    CBP will utilize a variety of tools in this sustained campaign, 
including paid advertising, public service announcements, press 
conferences and grassroots outreach, and consumer-friendly materials as 
well as leverage existing stakeholder partnerships. The design and 
execution of this campaign will raise traveler awareness across the 
Nation about secure and standard documents with facilitative 
technologies, and while ultimately soliciting compliance and ensuring a 
smooth transition to full WHTI requirements.
    The immediate strategy of the communications plan is to conduct 
border events in summer 2008 with a ``Know Before You Go'' summer 
travel theme, including advertising WHTI-compliant documents and 
advising border communities of planned radio frequency identification 
(RFID) infrastructure construction. As we know, increased summer travel 
can produce increased wait times. Our intent through this program (as 
we have done in past years) is to remind the traveling public of that 
fact and encourage them to take steps that help minimize any potential 
delays--while also demonstrating that CBP is moving aggressively to 
make the process smoother, and less time-consuming, in future years 
while also greatly enhancing border security.
    An advertising campaign will be launched later this year to reach 
the broader national audience that includes infrequent or would-be 
travelers. Joint press conferences will also be conducted with various 
States as enhanced driver's licenses become available, beginning with 
New York in August 2008. Communication activities will be planned in 
coordination with the Department of State and the production of the 
passport card, and will be shared with Canadian counterparts to ensure 
that messages are aligned.
    Moreover, when assessing efforts by DHS and CBP to ensure a smooth 
transition of these critical changes on our borders, the following 
factors must be considered:
  <bullet> DHS published the land and sea rule more than 1 year in 
        advance of the implementation date to give the public ample 
        notice and time to obtain the WHTI-compliant documents they 
        will need to enter or re-enter the United States on or after 
        June 1, 2009.
  <bullet> The WHTI air implementation in January 2007, and the change 
        in land and sea travel document procedures that went into 
        effect January 31, 2008, has demonstrated the traveling 
        public's willingness to obtain the proper documents. DHS and 
        CBP have applied lessons learned, including the need to 
        disperse demand more evenly for travel documents, as well as 
        the production of two additional document options--the enhanced 
        driver's license and the passport card specifically designed 
        for land and sea travel.
  <bullet> DHS and CBP are confident that the passport card, with more 
        than 290,000 applications received by the Department of State, 
        and the enhanced driver's licenses being offered or to be 
        offered by several States, will serve as the cost-effective, 
        convenient alternatives that were requested throughout the 
        rulemaking process.
    Question 4. The success of WHTI will be contingent, in part, on the 
ability of the Department to carry out a number of activities in the 
year leading up to full implementation on June 1, 2009. With the change 
of administrations occurring in the near future, many policies and 
procedures might change at the Department. What guidance do you have in 
place to ensure a successful transition for WHTI?
    Answer. DHS and the Department of State have put many steps in 
place to ensure the complete implementation of WHTI by June 1, 2009.
    WHTI is the plan to implement both a recommendation of the 9/11 
Commission and Section 7209 of the IRTPA, passed by Congress and signed 
by the President. Implementing WHTI is a law--one that the change of 
administration will not impact. When the new administration takes 
office in January 2009, the air phase of WHTI will have been in place 
for 2 years (since January 2007). There has been little, if any, 
negative impact on travel as a result of its implementation and there 
is no doubt that the passport requirement for air travelers entering 
the United States will remain in place. Likewise, steps have been 
taken, and additional actions will continue, to ensure the June 1, 2009 
deadline will be met for WHTI in the land and sea environments. WHTI is 
necessary to increase security at our borders and facilitate travel and 
trade.
    U.S. Customs and Border Protection (CBP) is ensuring that multiple 
types of WHTI-compliant documents will be available in ample time for 
U.S. and Canadian citizens to obtain them before June 1, 2009; CBP has 
the infrastructure in place to read passports, passport cards, and 
WHTI-compliant documents; and we have a communications plan underway to 
educate the public over the next year about what documents they will 
need, and when they will need them.
    At a higher level, both DHS and CBP have transition plans in place 
to ensure that all of our operations continue without impediment into 
the new administration. DHS senior-level career executives have already 
been identified as successors until Presidential appointees are named. 
As the transition between administrations is a period when there is 
typically an increase in possible terrorist activity, the continued 
implementation of a program that provides additional security at our 
borders, such as WHTI, is imperative.
    Question 5. The committee has been informed by both information 
technology specialists and privacy advocates that the RFID technology 
used in some of the WHTI-compliant documents is vulnerable to 
``skimming'' and other security breaches. Nonetheless, the National 
Institute for Standards and Technology (NIST) has certified this 
technology to meet or exceed the relevant security standards and best 
practices as specified in statute. What certifications made by NIST 
demonstrate that WHTI-compliant travel documents are not vulnerable to 
``skimming''?
    Answer. The NIST certification applies only to the security and 
privacy of the card architecture, as specified in statute. NIST paid 
special attention to the privacy recommendations from the Data Privacy 
& Integrity Advisory Committee to the Secretary and Chief Privacy 
Officer of the Department of Homeland Security. As a result, 
recommendations from the NIST analysis have been incorporated into the 
passport card design, which include permalocking of the RFID chip to 
prevent alteration of data contained within the chip itself, and the 
issuance of an RFID attenuation sleeve to prevent unauthorized reading 
(or ``skimming'') of a WHTI-compliant RFID enabled travel document. The 
Sandia National Laboratories conducted tests on the effectiveness of 
the RFID attenuation sleeve in accordance with the NIST certification.
    The NIST analysis concluded that the Department of State passport 
card neither has, nor requires, a security objective to prevent 
counterfeiting of the RFID chip in isolation. It should be noted that 
in the unlikely event a card is ``skimmed'' by an unauthorized RFID 
reader, the following data would be made available as a result:

00101100001010000011010100111101010110010100101[ . . . ]

    The above series of ``zeros and ones'' represents actual real data 
contained within a WHTI-compliant RFID enabled travel document; simply 
translated, the data represents a number. There is no personal 
identifying information contained within the chip, and unlike the e-
passport implementation, there is no photo, no biometric, no name or 
any other biographic information about the holder; simply a series of 
zeros and ones, meaningless to anyone trying to obtain personal 
information.
   Questions From Chairwoman Loretta Sanchez for Derwood K. Staeben, 
  Senior Advisor, Western Hemisphere Travel Initiative, Department of 
                                 State
    Question 1. Several reports in the media recently called into 
question the overseas component of the supply chain and manufacturing 
process for passports. Can you discuss what protocols you have in place 
so that our CBP officers know they are looking at an authentic American 
passport?
    Answer. No response was received at the time of publication.
    Question 2. It is my understanding the passport cards will contain 
RFID technology and microchips similar to passports. What is the 
manufacturing process for the passport cards? Will the passport cards 
also be partly manufactured overseas? If so, what type of oversight 
will the State Department have over the process to ensure the security 
and integrity of the cards?
    Answer. No response was received at the time of publication.
    Question 3. In anticipation of increasing demand for passports and 
passport cards due to WHTI implementation, does the fiscal year 2009 
budget request include the necessary resources to ensure that both 
passports and passport cards are processed within the normal 6-week 
timeframe?
    Answer. No response was received at the time of publication.
    Question 4. What formal plans are in place by the State Department 
to disseminate information to the traveling public regarding the final 
implementation requirements for WHTI at land and sea ports? What 
resources are included in the State Department's fiscal year 2009 
budget request to fully inform the traveling public about these 
document changes?
    Answer. No response was received at the time of publication.
    Question 5. News reports indicated that the initial contract for 
the PASS cards was awarded to General Dynamics but was later terminated 
and given to L-1. What caused the change in contractors? Is there a 
difference in services provided by the two contractors?
    Answer. No response was received at the time of publication.
    Question 6. During the hearing, you told Ms. Christensen that 
``none of the final offers included an optical memory strip for 
testing.'' It is our understanding that one of the cards proposed by 
General Dynamics did include an optical stripe. Did General Dynamics 
propose a card with an optical stripe? If so please reconcile this with 
your statement.
    Answer. No response was received at the time of publication.
    Question 7. You further told Ms. Christensen that ``you submitted 
all the test cards to a full battery of tests at Sandia National 
Labs.'' Please explain in detail the tests conducted by Sandia and 
their purpose.
    Answer. No response was received at the time of publication.
    Question 8. Did any person, company, or organization other than 
Sandia conduct adversarial or other testing to evaluate the various 
cards' security features? If so, what cards were tested, who conducted 
this testing, and what where the findings and recommendations?
    Answer. No response was received at the time of publication.
    Question 9. Are you aware of any testing suggesting that optical 
memory stripe (OMS) technology interferers with or otherwise impedes 
the performance of Radio Frequency Identification Technology? If so, 
please tell us who conducted this testing, what the results showed.
    Answer. No response was received at the time of publication.
Questions From Chairwoman Loretta Sanchez for Elizabeth Luce, Director, 
                Washington State Department of Licensing
    Question 1. What advice do you have for other States that have 
entered or may be entering into a MOU with the Department of Homeland 
Security for the development of enhanced drivers' licenses (EDLs)?
    Answer. Each State should review the DHS minimum requirements, 
conduct a gap analysis of capacity compared to DHS requirements and 
negotiate exceptions to problematic requirements with DHS. The State 
should make sure DHS fully understands the State's license issuance 
process to ensure informed decisionmaking at the Federal level.
    Question 2. The requirements of REAL ID are imposing a significant 
financial burden on States. What type of resources and funding is the 
State of Washington dedicating to its EDL program?
    Answer. At this time, we have requested and received funds through 
our legislature to utilize transportation funds to cover the costs of 
the EDL program. We received $12 million in funding to develop the 
program and offer the EDL program in 14 of Washington's 60 licensing 
service offices. There is no State-level grant funding available for 
the EDL or WHTI programs.
    Question 3. Can you describe the level of personnel training and 
infrastructure investment the State of Washington underwent to make the 
EDL program possible?
    Answer. Our staff received 2 weeks of training including AAMVA 
certified fraudulent document training, interview technique training, 
and DHS-ICE Division conducted a mini-session on fraudulent document 
training. Another added component for staff processing and issuing 
Enhanced Drivers Licenses is Federal criminal background checks. 
Organizationally, we moved staff around and hired contractors to assist 
with information system programming. In total, we invested 33,000 hours 
of programming changes and nearly as many hours of management and 
logistical planning.
    We included a component of facial recognition biometrics to screen 
and compare applicant photos to others in our database to ensure we 
have one-driver and one record in Washington. An investment also was 
made in document authentication software to help screen foundational 
documents that customers present.
    Question 4. Looking back on the State of Washington's experience 
with the EDL program, are there any components that you think are 
particularly challenging for States to meet or that you would like to 
see changed?
    Answer. Overall, the EDL program has been successful. What was 
helpful in the development of the program was conducting a gap analysis 
and working closely with DHS to help them understand our processes. We 
are strongly of the opinion that the EDL/ID is one of the most secure 
licensing documents in the country. Consequently, we are at a loss to 
understand why DHS has not identified all EDL/ID's as acceptable forms 
of identity for all Federal purposes.
    Question 5. Now that you are moving forward with your EDL program, 
has DHS described the type of oversight that you will be subject to? 
What type of internal auditing system do you have in place to maintain 
the security of the cards and integrity of the personnel?
    Answer. Per discussion and agreement, DHS will conduct an 
independent audit of the program sometime after implementation. Within 
DOL, we have a unit that conducted an internal audit of the program and 
will provide continued support and feedback to look at best practices 
and opportunities for the Department.

                                 <all>

</pre></body></html>
